<html>
<title> - FEDERAL STEM EDUCATION PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                    FEDERAL STEM EDUCATION PROGRAMS

=======================================================================

                                HEARINGS

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2007
                                  and
                              JUNE 6, 2007

                               __________

                           Serial No. 110-28
                                  and
                           Serial No. 110-35

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
35-233                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           FRANK D. LUCAS, Oklahoma
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                   
BART GORDON, Tennessee                   
                                     RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant


                            C O N T E N T S

                              May 15, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

                               Witnesses:

Ms. Linda K. Froschauer, President, National Science Teachers 
  Association
    Oral Statement...............................................    11
    Written Statement............................................    12
    Biography....................................................    15

Mr. Michael C. Lach, Director of Mathematics and Science, Chicago 
  Public Schools
    Oral Statement...............................................    15
    Written Statement............................................    16
    Biography....................................................    21

Dr. George D. Nelson, Director of Science, Technology, and 
  Mathematics Education, Western Washington University
    Oral Statement...............................................    22
    Written Statement............................................    23
    Biography....................................................    25

Mr. Van R. Reiner, President and CEO, Maryland Science Center, 
  Maryland Academy of Sciences
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................   132

Dr. Iris R. Weiss, President, Horizon Research, Inc.
    Oral Statement...............................................    33
    Written Statement............................................    34
    Biography....................................................    39

Discussion.......................................................    40

             Appendix 1: Answers to Post-Hearing Questions

Ms. Linda K. Froschauer, President, National Science Teachers 
  Association....................................................    58

Mr. Michael C. Lach, Director of Mathematics and Science, Chicago 
  Public Schools.................................................    59

Dr. George D. Nelson, Director of Science, Technology, and 
  Mathematics Education, Western Washington University...........    61

Mr. Van R. Reiner, President and CEO, Maryland Science Center, 
  Maryland Academy of Sciences...................................    62

Dr. Iris R. Weiss, President, Horizon Research, Inc..............    63

             Appendix 2: Additional Material for the Record

Science on a Sphere, Front-end Evaluation, prepared for the 
  Maryland Science Center, August 20, 2004.......................    68

Dino Quest, Front-End Evaluation Focus Groups, prepared by Minda 
  Borun, Museum Solutions........................................   141

Dinosaur Mysteries, Summative Evaluation, by Minda Borun, Museum 
  Solutions......................................................   165

                            C O N T E N T S

                              June 6, 2007

                                                                   Page
Witness List.....................................................   184

Hearing Charter..................................................   185

                           Opening Statements

Statement by Representative Jerry McNerney, Vice Chairman, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........   192
    Written Statement............................................   193

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................   194
    Written Statement............................................   195

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................   195

Prepared Statement by Representative Russ Carnahan, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........   196

                               Witnesses:

Dr. Cora B. Marrett, Assistant Director, Education and Human 
  Resources Directorate, National Science Foundation
    Oral Statement...............................................   196
    Written Statement............................................   198
    Biography....................................................   201

Dr. Joyce L. Winterton, Assistant Administrator, Office of 
  Education, National Aeronautics and Space Administration (NASA)
    Oral Statement...............................................   202
    Written Statement............................................   204
    Biography....................................................   209

Mr. William J. Valdez, Director, Office of Workforce Development 
  for Teachers and Scientists, Office of Science, Department of 
  Energy
    Oral Statement...............................................   210
    Written Statement............................................   212
    Biography....................................................   215

Dr. Bruce A. Fuchs, Director, Office of Science Education, 
  National Institutes of Health
    Oral Statement...............................................   216
    Written Statement............................................   217
    Biography....................................................   222

Discussion.......................................................   222

             Appendix 1: Answers to Post-Hearing Questions

Dr. Cora B. Marrett, Assistant Director, Education and Human 
  Resources Directorate, National Science Foundation.............   234

Dr. Joyce L. Winterton, Assistant Administrator, Office of 
  Education, National Aeronautics and Space Administration (NASA)   236

Mr. William J. Valdez, Director, Office of Workforce Development 
  for Teachers and Scientists, Office of Science, Department of 
  Energy.........................................................   237

Dr. Bruce A. Fuchs, Director, Office of Science Education, 
  National Institutes of Health..................................   238

             Appendix 2: Additional Material for the Record

Statement of the Office of Education, National Oceanic and 
  Atmospheric Administration, U.S. Department of Commerce........   240


        FEDERAL STEM EDUCATION PROGRAMS: EDUCATORS' PERSPECTIVES

                              ----------                              


                         TUESDAY, MAY 15, 2007

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    Federal STEM Education Programs:

                        Educators' Perspectives

                         tuesday, may 15, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    The purpose of this hearing is to inform the Subcommittee of 
educators' experiences working with science, technology, engineering, 
and math (STEM) education programs for K-16 students supported by the 
federal R&D mission agencies: National Aeronautics & Space 
Administration (NASA), National Oceanographic & Atmospheric 
Administration (NOAA), National Institute of Standards & Technology 
(NIST), Environmental Protection Agency (EPA), and Department of Energy 
(DOE). This hearing will explore whether such issues as the lack of 
coordination between the agencies, difficulty by educators in finding 
information about the programs, and the absence of robust evaluation 
techniques hinder the potential of the federal programs for improving 
STEM education in America. Most importantly, the hearing will highlight 
how the federal R&D mission agencies can best contribute to raising the 
level of scientific literacy of all students.

Witnesses

Ms. Linda K. Froschauer, President, National Science Teachers 
Association

Mr. Michael C. Lach, Director of Mathematics and Science, Chicago 
Public Schools

Dr. George D. Nelson, Director, Science, Technology, and Mathematics 
Education, Western Washington University

Mr. Van R. Reiner, President, Maryland Science Center

Dr. Iris R. Weiss, President, Horizon Research, Inc.

Overarching Questions

        <bullet>  What are the experiences of educators in finding and 
        leveraging resources for STEM education from the federal R&D 
        mission agencies? What challenges have they encountered?

        <bullet>  What do educators perceive to be successful STEM 
        education programs at the federal R&D mission agencies? How do 
        they determine success? What should the agencies improve?

        <bullet>  What support that the federal R&D mission agencies 
        could provide would have the most impact on improving STEM 
        education?

Background

    A multitude of studies over the past twenty years have documented 
the downward slide of American students' proficiency and participation 
in science, technology, engineering and mathematics (STEM) fields. In 
October 2005, the National Academies released the report, Rising Above 
the Gathering Storm: Energizing and Employing America for a Brighter 
Economic Future, which warned that ``the scientific and technological 
building blocks critical to our economic leadership are eroding at a 
time when many other nations are gathering strength.'' The authoring 
committee deemed the highest priority action to be vast improvement of 
science and mathematics education in order to increase the number of 
students interested in and prepared for entering careers in STEM 
fields.
    The scientific and technical expertise of the R&D mission agencies 
has been applied to varying degrees and with varying success to 
programs and activities relevant to improving STEM education. 
Currently, the STEM education programs at these agencies for K-16 
grades are relatively small and vary widely in methods, target 
audiences, evaluation measurements, and funding. In an inventory of 
STEM education programs, the Academic Competitiveness Council (ACC) 
identified approximately $39 million in FY06 appropriated funds at the 
federal R&D mission agencies for K-12 programs and $6.6 million for 
undergraduate programs.
    Until recently, the agencies have developed their programs 
independently and without a strategic plan for accomplishing a set of 
overarching goals and objectives. Unfortunately, this led to a need for 
each program to discover a cadre of ``best practices'' on its own 
rather than collaborating with other program and agency experts. Each 
program also developed a unique method of evaluation, making a 
comparison of effectiveness across the programs impossible. Lastly, the 
agencies have had trouble building widespread awareness of their 
programs among teachers nationwide.
    In response to these issues, the National Science and Technology 
Council, which serves as the principal body for coordinating federal 
research and development, has re-established the Education and 
Workforce Development subcommittee to encourage the agencies to share 
knowledge and develop a federal strategic plan for effectively 
increasing STEM proficiency nationwide. The plans for this new federal 
coordination and planning activity will be reviewed by the Subcommittee 
in a subsequent hearing.
    The Subcommittee recognizes that critical guidance for how to 
improve the federal STEM education programs must come from the people 
who work directly with teachers and students. The witnesses for today's 
hearing were chosen because of their experience working with these 
programs and have been asked to provide insight from the field on what 
the agencies are doing well and where they need to improve.

Specific Questions for the Witnesses

Ms. Linda K. Froschauer

        <bullet>  In your experience, what are the federal R&D mission 
        agencies doing well in their respective STEM education 
        programs? What could they do better? Can you give examples of 
        any particularly effective programs?

        <bullet>  How do your teacher members learn about STEM 
        education programs sponsored by the federal research and 
        development agencies?

        <bullet>  What resources of the agencies would be most valuable 
        in supporting your teacher members in the classroom?

Mr. Michael C. Lach

        <bullet>  How do you find resources for improving science and 
        mathematics education in the Chicago Public Schools?

        <bullet>  What resources have you garnered from the federal R&D 
        mission agencies? How has this contributed to improving your 
        students' understanding of science?

        <bullet>  What type of support that the federal R&D mission 
        agencies could provide would have the most impact on STEM 
        education for your teachers and students in Chicago Public 
        Schools?

Dr. George D. Nelson

        <bullet>  In what ways can federal R&D mission agencies 
        contribute most effectively to improve K-12 STEM education? Can 
        you give examples of any particularly effective programs?

        <bullet>  At the undergraduate level, what type of support 
        could the federal R&D mission agencies provide that would 
        recruit more students into pursuing careers in the physical 
        sciences?

        <bullet>  How does the lack of coordination and overarching 
        strategy for STEM education programs hinder the agencies from 
        making an impact?

Mr. Van R. Reiner

        <bullet>  Please describe the informal education programs that 
        you have partnered with federal R&D mission agencies to provide 
        for school-aged children.

        <bullet>  How well do the federal R&D mission agencies develop 
        evaluation methods to determine the effectiveness of informal 
        STEM education programs?

        <bullet>  What informal education activities should the federal 
        R&D mission agencies increase to help raise the level of 
        scientific literacy in American students?

Dr. Iris R. Weiss

        <bullet>  Do you feel that the federal R&D mission agencies 
        develop evaluation methods for STEM education programs that 
        demonstrate effectiveness? What recommendations would you give 
        for improving their evaluation methods?

        <bullet>  To what extent do the federal R&D mission agencies 
        incorporate best practices which have proven to be effective in 
        STEM education into their programs?

        <bullet>  Based on your research on teacher training and 
        professional development, what guidance would you give for 
        developing programs for pre-service and in-service STEM 
        teachers?
    Chairman Baird. This hearing will come to order. I want to 
thank the witnesses and our guests and thank my good friend and 
colleague, Dr. Ehlers, Ranking Member.
    Our Subcommittee on Research and Science Education 
Committee is interested in hearing from educators in science, 
technology, engineering and mathematics, STEM fields, about 
their experiences working with the federal R&D mission 
agencies.
    This hearing is part of the ongoing effort led by Chairman 
Gordon that the Committee is undertaking to determine how to 
improve the level of scientific understanding of students in 
the United States and how to attract more students to careers 
in science and engineering.
    There have been at least a half-dozen reports released over 
the past 20 years documenting how American students have fallen 
behind students in other countries. The National Academies 
report, Rising Above the Gathering Storm, warned us that this 
will threaten the standing of our country in the future. The 
authors of that paper wrote ``the scientific and technological 
building blocks critical to our economic leadership are eroding 
at a time when many other nations are gathering strength.'' 
They recommended, they being the authors, recommended that the 
highest priority should be a vast improvement of science and 
mathematics education in this country in order to increase the 
number of students interested in and prepared to enter careers 
in STEM fields.
    The Science and Technology Committee held a hearing in 
March with leading voices in private industry and higher 
education to discuss research and education needs in STEM 
fields. Every one of the witnesses, including a retired CEO of 
Lockheed Martin, the current CEO of McGraw-Hill, the CEO of 
Intel, and the President of the Council on Competitiveness, 
testified that companies in America need a workforce well-
trained in STEM fields in order to continue the innovative 
solutions that keep them profitable.
    The Committee has taken this advice to heart. H.R. 362, 
also known as ``10,000 Teachers, 10 Million Minds'' Science and 
Math Scholarship Act, was introduced by Chairman Gordon earlier 
this year. The bill implements most of the K-12 education 
recommendations of the Gathering Storm report and was passed by 
the House with strong bipartisan support last month.
    The Research and Science Education Subcommittee will next 
be exploring ways that federal efforts in STEM education can be 
better focused and more effective. This is the first in a 
planned series of hearings to address these issues.
    Today we are reviewing the role of the federal R&D mission 
agencies in improving STEM education. Specifically, we are 
referring to NASA, NOAA, NIST, EPA, and the Department of 
Energy. I believe there is a great deal of untapped potential 
residing in the expertise of scientists and engineers at these 
agencies.
    Not only do these scientists and engineers possess 
impressive content knowledge of the sciences, they also have 
real-world experience with the ``wow'' factor that gets kids 
excited about learning science. Space travel, discovering new 
forms of ocean life, creating renewable energy sources, 
improving air and water quality, testing bullet-proof vests, we 
could list hundreds of more activities that make science and 
math captivating to young people.
    Although the agencies have made commendable efforts to 
share their knowledge and passion for science with students, I 
believe those efforts have been relatively small and have 
varied widely in their methods, target audiences, and methods 
of evaluation. The programs have been developed independently 
and without a strategic plan for accomplishing a common set of 
goals and objectives. With a unified effort, I am convinced 
these programs could have a much bigger impact on the 
approximately 52 million K-12 students in America.
    So we have asked our witnesses today to tell us about their 
experiences participating in these programs. We have asked them 
to respond to a series of questions. What do the agencies do 
well? What should they improve? Which programs do educators 
consider successful? And how do they define that success?
    The Committee is devoted to improving science education, so 
devoted that we added science education to the name of this 
subcommittee. We are very concerned that American students are 
not achieving their potential in science and math education. It 
is a concern not only as we look at competing in a knowledge-
based global economy but also when we look at access to high-
paying, technology-based jobs in this country.
    I look forward to hearing from today's witnesses and 
recognize my colleague and Ranking Member, Dr. Ehlers.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    Good morning and thank you for attending today's Subcommittee on 
Research and Science Education hearing. Today, we are going to hear 
from educators in science, technology, engineering, and mathematics--
STEM fields--about their experiences working with the federal R&D 
mission agencies.
    This hearing is part of an ongoing effort that the Committee is 
undertaking to determine how to improve the level of scientific 
understanding of students in the U.S. and how to attract more students 
to careers in science and engineering.
    There have been at least a half dozen reports released over the 
past 20 years documenting how American students have fallen behind 
students in other countries. The National Academies report, Rising 
Above the Gathering Storm, warned us that this will threaten the 
standing of our country in the future. The authors wrote ``the 
scientific and technological building blocks critical to our economic 
leadership are eroding at a time when many other nations are gathering 
strength.'' They recommended that the highest priority should be a vast 
improvement of science and mathematics education in this country in 
order to increase the number of students interested in and prepared to 
enter careers in STEM fields.
    The Science and Technology Committee held a hearing in March with 
leading voices in private industry and higher education to discuss 
research and education needs in STEM fields. Every one of the 
witnesses, including a retired CEO of Lockheed Martin, the current CEO 
of McGraw-Hill, the CEO of Intel, and the President of the Council on 
Competitiveness, testified that companies in America need a workforce 
well-trained in STEM fields in order to continue the innovative 
solutions that keep them profitable.
    The Committee has taken this advice to heart. H.R. 362, ``10,000 
Teachers, 10 Millions Minds'' Science and Math Scholarship Act, was 
introduced by Chairman Gordon early this year. The bill implements most 
of the K-12 education recommendations of the Gathering Storm report and 
was passed by the House last month.
    The Research and Science Education Subcommittee will next be 
exploring ways that federal efforts in STEM education can be better 
focused and more effective. This is the first in a planned series of 
hearings to address these issues.
    Today we are reviewing the role of the federal R&D mission agencies 
in improving STEM education. Specifically, I am referring to NASA, 
NOAA, NIST, EPA, and the Department of Energy. I believe there is a 
great deal of untapped potential residing in the expertise of 
scientists and engineers at these agencies.
    Not only do these scientists and engineers possess impressive 
content knowledge in the sciences, they also have real-world experience 
with the ``wow'' factors that gets kids excited about learning science. 
Space travel, discovering new forms of ocean life, creating renewable 
energy sources, improving air and water quality, testing bullet-proof 
vests--I could list hundreds more activities that make science and math 
captivating.
    Although these agencies have made commendable efforts to share 
their knowledge and passion for science with students, I fear that 
those efforts have been relatively small and have varied widely in 
their methods, target audiences, and methods of evaluation. The 
programs have been developed independently and without a strategic plan 
for accomplishing a common set of goals and objectives. With a unified 
effort, I am convinced that these programs could have a much bigger 
impact on the approximately 52 million K-12 students in America.
    We have asked our witnesses today to tell us about their 
experiences participating in these programs. We have asked them to 
respond to a series of questions: What do the agencies do well? What 
should they improve? Which programs do educators consider successful? 
And how do they define that success?
    The Committee is devoted to improving science education--so devoted 
that we added science education to the name of this subcommittee. We 
are very concerned that American students are not achieving their 
potential in science and math education. This is a concern not only as 
we look at competing in a knowledge-based global economy, but also when 
we look at access to high-paying, technology-based jobs in this 
country.
    I look forward to hearing from today's witnesses.

    Mr. Ehlers. Thank you very much, Chairman Baird, and I do 
apologize to you and to the group for my due late arrival. I 
was speaking at another session, and unfortunately I ended up 
being the last speaker; and even though it was difficult for 
me, I did cut my words short.
    I am pleased today that we have a cadre of consumers of 
science, technology, engineering and mathematics, better known 
as STEM educational programs across the federal agencies before 
us to hear about their experiences.
    I believe it is the desire of all Members of the Science 
and Technology Committee that we support the implementation of 
programs that are well-designed and effective. But often as 
legislators we are so distanced from the final implementation 
of the programs that we hear little about personal challenges 
and personal successes, and this is an opportunity for us to 
hear what some of our grand schemes have resulted in and hear 
it from the people who are sort of the boots on the ground in 
the STEM education battle.
    Today's hearing will delve into what was happening with the 
consumers of federal STEM agency programs. I might mention many 
of these programs don't come directly from this committee. 
There are a number of federal agencies that instigate their own 
programs without Congressional direction, and I have worried 
for some years how those all intertwine with each other and 
with what we have passed.
    While each of our panelists brings unique perspectives to 
the table today, I note there are a few common themes running 
through your prepared testimony. Several of you have identified 
the Federal Science and Technology Workforce and Facilities and 
under-utilized resources for K-12 classrooms. I am interested 
to learn more about programs that successfully leverage these 
resources.
    Secondly, many of you remarked that the best programs are 
those that excite and inform teachers and students. Finally, 
your testimony, coupled with the recent release of the Academic 
Competitiveness Council's report on federal STEM programs 
emphasizes a need to reduce the number of programs that are not 
evaluated or clearly do not provide a benefit to teachers and 
students.
    Alternatively, faced with a maze of resources, you need 
help identifying programs that have been evaluated as 
successful to know what may be useful to you.
    Our challenge in Congress is to target limited federal 
funds at programs which leverage relevant federal resources and 
also complement the local education requirement.
    Today we will have achieved a win-win scenario to promote 
STEM literacy at all levels if we manage to do that. I am 
particularly pleased to see that today's panel includes Michael 
Lach. As an Einstein Fellow in my office from 1999 to 2000, 
Michael provided extremely valuable insight to me on STEM 
education and science policy. He has moved onto much grander 
things, now directing the math and science curricula for the 
entire Chicago Public School System. He has been an outspoken 
pioneer for effective teaching in math and science from the 
time that he started teaching high school science through the 
Teach for America program.
    Granted that I will allow that I am a little biased since 
Michael is a physicist by training, but I have been told by 
others that he is an exceptional teacher, one that other 
teachers look up to as an example that they aspire to be. We 
are fortunate to have him here today. Welcome Michael, and for 
that I yield back.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    I am pleased today that we have a cadre of consumers of Science, 
Technology, Engineering and Mathematics (STEM) educational programs 
across the federal agencies before us to hear about their experiences. 
I believe it is the desire of all the Members of the Science and 
Technology Committee that we support the implementation of programs 
that are well-designed and effective. Often as legislators we are so 
distanced from final implementation of programs that we hear little 
about personal challenges and successes. Today's hearing will delve 
into what is happening with the consumers of federal STEM agency 
programs.
    While each of our panelists brings unique perspectives to the table 
today, I note that there are a few common themes running through your 
prepared testimony. Several of you have identified the federal science 
and technology workforce and facilities as under-utilized resources for 
K-16 classrooms. I am interested to learn more about programs that 
successfully leverage these resources. Secondly, many of you remark 
that the best programs are those that excite and inform students and 
teachers. Finally, your testimony--coupled with the recent release of 
the Academic Competitiveness Council's (ACC) report on federal STEM 
programs--emphasizes a need to reduce the number of programs that are 
not evaluated or clearly do not provide a benefit to teachers and 
students. Alternatively, faced with a maze of resources, you need help 
identifying programs that have been evaluated as successful to know 
what may be useful to you. Our challenge in Congress is to target 
limited federal funds at programs which leverage relevant federal 
resources and also complement the local educational requirements. Then 
we will have achieved a win-win scenario to promote STEM literacy at 
all levels.
    I am particularly pleased to see that today's panel includes 
Michael Lach. As an Einstein Fellow in my office from 1999-2000, 
Michael provided extremely valuable insight to me on STEM education and 
science policy. He has moved on to much grander things, now directing 
the science and math curricula for the entire Chicago Public School 
system. He has been an outspoken pioneer for effective teaching in math 
and science from the time that he started teaching high school science 
through the Teach for America program. Granted, I will allow that I am 
a little biased since Michael is a physicist by training, but I have 
been told by others that he is an exceptional teacher, one that other 
teachers look up to as the example they aspire to be. We are fortunate 
to have him here with us today. Welcome, Michael.

    Chairman Baird. Thank you, Dr. Ehlers. If there are other 
Members who wish to submit additional opening statements, the 
statements will be added to the record.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman. Our nation's future competitiveness 
depends on whether or not tomorrow's generation is prepared for the 
high-tech jobs of the future.
    Enthusiastic, adequately prepared teachers who utilize successful 
teaching methods are needed in many of today's math and science 
classrooms.
    Mr. Chairman, the Federal Government must invest in math and 
science education, as these investments help fuel our nation's economic 
growth.
    Economists agree that no other investment generates a greater long-
term return to the economy than scientific R&D, and that starts with 
educational systems. Research, education, the technical workforce, 
scientific discovery, innovation and economic growth are intertwined.
    The Science, Technology, Engineering and Math Caucus has reported 
that Texas ranked 20th in the Nation on the 2005 National Assessment of 
Educational Progress scores for mathematics with a score of 281. The 
national average was 278.
    Texas did not report on the percentage of Texas middle school 
teachers who were certified in math (the national average was 49 
percent) or science (the national average was 54 percent).
    Sadly, only seven percent of Texas' 12th grade students took the AP 
Calculus exam in 2004. Students should be challenged so that they are 
able to master these subjects, if we want to compete globally.
    Today's witnesses are here to provide a critical view of federal 
STEM education programs. Members of Congress need to know what works 
and what doesn't work so that we can build policies that offer the most 
benefit per taxpayer dollar.
    Thank you, Mr. Chairman. I yield back.

    Chairman Baird. At this time I would like to introduce the 
witnesses on the panel. Ms. Linda Froschauer is the President 
of National Science Teachers Association. She is also the K-12 
Science Department Chair for the Weston Public Schools in 
Weston, Connecticut. It is good to have you with us again. We 
always value your remarks and insights. Mr. Michael Lach is the 
Director of Mathematics and Science for Chicago Public Schools. 
Dr. George D. Nelson is Director of the Science, Mathematics, 
and Technology Education and is Professor of Physics and 
Astronomy at Western Washington University, my home state. He 
is a former astronaut and flew on the Space Shuttle. Mr. Van 
Reiner is the President of the Maryland Science Center and 
formerly was the President of the Sparrow Point Division of 
Bethlehem Steel. And Dr. Iris Weiss is President of Horizon 
Research, Incorporated, which specializes in mathematics and 
science education and research evaluation. As you can see, we 
have a very distinguished and well-qualified panel before us 
today to learn from.
    I would remind our witnesses--first of all, we have all had 
a chance to look at your written testimony. Thank you for 
preparing that, some of it quite lengthy, but very, very 
informative; but I would remind you that today for the purpose 
of testimony--spoken testimony is limited to five minutes each. 
There are little lights there that will come on; and as Dr. 
Ehlers used to remind people, after the red light comes on, you 
have about five seconds and a trapdoor appears underneath your 
chair and you disappear from sight, after which Members of the 
Subcommittee will have five minutes each to ask questions. This 
is a collegial, friendly atmosphere, so we very much look 
forward to a good exchange of ideas.
    And with that, we will start with Ms. Froschauer.

   STATEMENT OF MS. LINDA K. FROSCHAUER, PRESIDENT, NATIONAL 
                  SCIENCE TEACHERS ASSOCIATION

    Ms. Froschauer. Thank you for this opportunity to present 
testimony on behalf of the National Science Teachers 
Association.
    My name is Linda Froschauer, and I am the President of the 
NSTA. For 32 years I have been a science teacher, currently 
teaching eighth-grade science, and I am Department Chair at 
Weston Middle School in Connecticut.
    This is the second opportunity I have had in recent months 
to testify before this subcommittee. A few weeks ago I appeared 
in support of H.R. 524 which is for Partnerships for Access to 
Laboratory Science Grants. I want to sincerely thank the 
Members of the Science Committee and the House for passing this 
extremely important legislation as part of H.R. 362.
    Today I would like to talk about federal STEM education 
programs for K-12 teachers. As you know, the vast majority of 
STEM education programs are generated from the U.S. Department 
of Education and the National Science Foundation. We consider 
the NSF to be the engine of innovation for K-12 STEM education. 
Information about NSF initiatives and other federal STEM 
education programs are promoted extensively through NSTA print 
and online channels and on the NSTA website. Combined, these 
communication vehicles reach hundreds of thousands of teachers, 
teacher leaders, and others in the science education community.
    Federal agencies also share information about programs for 
science educators at the NSTA conferences which draw 
approximately 12,000 teachers each year.
    During the last NSTA conference, the National Institutes of 
Health featured the NIH Research Zone, a coordinated effort 
that involved 27 institutes and centers from NIH professional 
societies and other supporting partners. The NIH Research Zone 
provided one-stop shopping for teachers interested in 
discovering the resources available from the NIH research 
community. Workshops and exhibits on NASA's education programs 
are also prominent parts of NSTA conferences. These include the 
NASA Educator Astronaut Launch where teachers can join NASA's 
first educator astronaut, Barbara Morgan, on her upcoming 
Shuttle launch. The Student Observation Network, 21st Century 
Explorer, and the Engineering Design Challenge allow students 
to use NASA data to conduct their own analysis and apply 
engineering principles to solve scientific problems.
    One of the challenges with many federal education programs, 
however, is that they reach only a miniscule proportion of our 
nation's science teachers. We must continue to find new and 
effective ways to get quality, professional development 
programs up to scale so they reach a large number of teachers.
    To address this issue, NSTA is working with NASA, NOAA, and 
the FDA to develop face-to-face training and online experiences 
that we believe have potential to reach hundreds of thousands 
of K-12 teachers. Why is professional development so important? 
Last year the National Research Council report titled Taking 
Science to School, Learning and Teaching Science in Grades K-8, 
said that professional development is key to supporting 
effective science instruction in the critical early years of a 
child's education. All teachers need opportunities to deepen 
their knowledge of the science content. In fact, the NRC and 
Taking Science to School Report says that federal agencies that 
support professional development should require that the 
programs they fund incorporate models of instruction that 
combine the four strands of science proficiency, focus on core 
ideas in science, and enhance teacher's science content 
knowledge, knowledge of how students learn science, and 
knowledge of how to teach science.
    In conclusion, recent reports have made it clear that 
better coordination and communication is desperately needed 
among federal agencies, bureaus, divisions, and centers that 
are involved with STEM education research and programs. The 
federal agencies do not appear to work together to facilitate 
the dissemination of research or to discuss possible new ideas 
and avoid those duplicative programs. In addition, an inventory 
of STEM education programs across the federal agencies would 
inform future priorities and initiatives, an oversight entity 
at the federal level that works to coordinate STEM education 
programs and could work with state and local officials and with 
science education stakeholders is critical. Improvements in 
STEM education require a commitment of leadership at the local, 
State, and federal levels. Education programs at the federal 
agencies should continue to play a role in improving STEM 
education.
    We hope that any changes to existing programs, especially 
at the National Science Foundation, that may come about as a 
result of this ACC report will be carefully reviewed and 
considered. Thank you for allowing me the opportunity to 
address you today, and I look forward to your questions.
    [The prepared statement of Ms. Froschauer follows:]

               Prepared Statement of Linda K. Froschauer

Mr. Chairman and Members of the Committee:

    Thank you for this opportunity to present testimony on behalf of 
the National Science Teachers Association. My name is Linda Froschauer, 
and I am President of the NSTA. For 32 years I have been a science 
teacher and I am currently an 8th grade science teacher and Department 
Chair at the Weston Public Schools in Connecticut.
    This is the second opportunity I have had in recent months to 
testify before this subcommittee. A few months ago I appeared in 
support of H.R. 524, the Partnerships for Access to Laboratory Science 
grants. I want to sincerely thank the members of the Science Committee 
and the House for passing this extremely important legislation as part 
of H.R. 362.
    Today I will talk about the Federal STEM education programs for K-
12 teachers.
    As you know the vast majority of STEM education programs originate 
from the U.S. Department of Education and the National Science 
Foundation. Strengthening science and math education is a core mission 
of the NSF.
    Science education is unique because it is concerned with the 
special character of science and its related disciplines--it is at once 
a body of knowledge and a dynamic questioning activity. Because of the 
nature of science it is important to have scientists involved in 
critical questions of science education. It was the recognition of this 
interdependence between scientists and the science education enterprise 
that drove the identification of science education as a key part of the 
NSF agenda when the agency was founded.
    We consider the NSF to be the engine of innovation for K-12 STEM 
education.
    The new NSF Education and Human Resources Division of Research on 
Learning in Formal and Informal Settings--known as DRL--is working to 
advance discovery and innovation at the frontiers of STEM learning and 
teaching. NSF supports the highly innovative models and approaches to 
learning in formal and informal settings. NSF works to advance equity 
and participation for all, to foster linkages between STEM education 
research and practice, and to unite education research and evaluation 
activities across the Foundation and with other federal agencies.
    The NSF has the capacity to incorporate the best from both the 
science and education R&D communities and can enlist scientists, 
academicians and researchers in a peer review process that generates 
and tests innovations in science-related disciplines for education. 
Unlike the Department of Education, the NSF has the ability to tap into 
basic cognitive research, fold in new content and new ways of teaching 
this content from the disciplines, and explore new technologies for the 
delivery of professional development and for assessing teachers and 
their students.
    One of the most effective education programs at NSF is the Math and 
Science Partnerships. An analysis of 123 schools participating in the 
NSF MSP program shows continued increases in student proficiency in 
math and science since the program was first established in 2002. 
Students showed the most significant improvements in mathematics 
proficiency, with a 13.7 percent increase for elementary, 6.2 percent 
increase for middle school, and 17.1 percent increase for high-school 
students. Science proficiency at each level showed marked gains as 
well, with a 5.3 percent increase for elementary, 4.5 percent increase 
for middle school, and 1.4 percent increase for high-school students.
    African-American, Hispanic, and white students showed significant 
improvements in elementary level mathematics, as did students 
designated as special education or as limited English-proficiency 
students.
    In addition to working with NSF on a MSP grant, NSTA has worked 
directly with federal agencies such as NASA, NOAA, and FDA to develop a 
combination of face-to-face training and online experiences that we 
believe has the potential to reach hundreds of thousands of K-12 
science teachers.
    NASA, NOAA, DOT and the FDA have partnered with NSTA to develop 
SciPacks on topics supporting their mission. SciPacks are designed for 
educators who want or need to learn core science content. SciPacks 
contain three to five Science Objects, which are stand-alone, content-
based units aligned with National Science Education Standards and 
Benchmarks for Science Literacy. These discrete online learning 
experiences are especially beneficial to teachers who are forced to 
teach out-of-field, elementary and middle level teachers who lack 
degrees in science, or those who need to increase their science 
knowledge of a particular content area.
    Each SciPak also contains a pedagogical implications section 
highlighting age-appropriate concepts and common student 
misconceptions. Teachers utilizing SciPaks get individualized e-mail 
support from a content expert and can complete a graded assessment 
demonstrating content mastery.
    SciPacks recently unveiled in the NSTA Learning Center focus on 
these content areas: Gravity and Orbits; the Universe and the Solar 
System; Earth, Sun and Moon; Coral Reef Ecosystems; Ocean's Effect on 
Weather and Climate; Plate Tectonics, The Rock Cycle, Force and Motion 
and Energy.
    In addition, thousands of teachers have taken advantage of weekly 
NSTA Web Seminars on these topics. In addition NSTA Symposiums provide 
face-to-face training with experts on these content areas from federal 
agencies, who interact one-on-one with K-12 teachers.
    Other STEM education programs from federal agencies are promoted 
extensively through NSTA print and online channels, and on the NSTA 
website. These communication vehicles reach hundreds of thousands of 
teachers, teacher leaders, and others in the science education 
community.
    Federal agencies also share information about programs for science 
educators at the NSTA conferences, which draw approximately 25,000 
teachers each year.
    During the last NSTA annual conference the National Institutes of 
Health featured the NIH Research Zone, a coordinated effort that 
involved 27 institutes and centers from NIH professional societies and 
other supporting partners. The NIH Research Zone provided one stop 
shopping for teachers interested in discovering the resources available 
from the NIH research community. The groups represented included the 
National Biomedical Imaging and Bioengineering; the National Center for 
Research Resources; the National Human Genome Research Institute; the 
National Institute of Allergy and Infectious Diseases; the National 
Institute of General Medical Sciences; the National Institute of 
Neurological Disorders and Stroke; the National Institutes of Health 
Office of Science Education; the National Library of Medicine; and the 
Society for Neuroscience.
    In addition, the NIH Office of Science Education provides medical 
and life science curriculum supplements for grades K-12, as well as 
posters and videos promoting health science careers.
    Workshops and exhibits on NASA's education programs are also 
prominent at NSTA conferences. These include the NASA Educator 
Astronaut Launch, where teachers can join NASA's first educator 
astronaut, Barbara Morgan, on her flight to the International Space 
Station later this summer. NASA is offering a website, classroom 
activities and challenges to teachers and students.
    Other NASA programs highlighted at the conference include the 
Student Observation Network, 21st Century Explorer, and the Engineering 
Design Challenge. These programs allow students to use NASA data to 
conduct their own analyses and apply engineering principles to solve 
scientific problems. The NASA Smart Skies features a web-based 
simulator with real world air traffic control motion problems between 
two or more planes. Students apply proportional reasoning and distance 
rate time relationships to resolve conflicts by changing plane routes 
and speeds.
    While I cannot speak to the efficacy or the outcomes of these 
federal programs, we have found that many of these programs do provide 
key research and content to classroom teachers and help to excite 
teachers and students about science. One of the challenges with federal 
education programs, however, is that they reach only a minuscule 
proportion of our nation's science teachers. We must find new ways to 
get proven, effective professional development programs up to scale so 
they reach a large number of teachers.
    Why is professional development so important? Last year the 
National Research Council report titled Taking Science to School: 
Learning and Teaching Science in Grades K-8 said that professional 
development was key to supporting effective science instruction in the 
critical, early years of a child's education. The NRC called for a 
dramatic departure from current professional development practice, both 
in scope and kind.
    All teachers need opportunities to deepen their knowledge of the 
science content. The NRC also believes that teachers need opportunities 
to learn how students learn science and how to teach it. They need to 
know how children's understanding of core ideas in science builds 
across K-8, not just at a given grade or grade band. Teachers need to 
learn about the conceptual ideas that students have in the earliest 
grades and their ideas about science itself. They need to learn how to 
assess children's developing ideas over time and how to interpret and 
respond (instructionally) to the results of assessment.
    In short, teachers need opportunities to learn how to teach science 
as an integrated body of knowledge and practice--to teach for 
scientific proficiency. They need to learn how to teach science to 
diverse student populations, and to provide adequate opportunities for 
all students to learn science.
    We believe federal agencies have a key role in providing programs 
that will enhance teacher content knowledge, help them to deliver 
effective instruction, and provide insight into how students learn.
    It is interesting to note that the NRC report also asserts that 
``Federal agencies that support professional development should require 
that the programs they fund incorporate models of instruction that 
combine the four strands of science proficiency; focus on core ideas in 
science; and enhance teachers' science content knowledge, knowledge of 
how students learn science, and knowledge of how to teach science.''
    Looking to the future we anticipate that the soon-to-be released 
Academic Competitiveness Council report on the myriad of federal STEM 
education programs will bring about needed changes.
    From our observations, there is an overlap in many of the programs 
offered at the federal level.
    There is no oversight entity at the federal level that works to 
coordinate these STEM programs. The federal agencies do not appear to 
work together to facilitate the dissemination of research, or to 
discuss possible new ideas and avoid duplicative programs.
    We believe that better coordination and communication is 
desperately needed among federal agencies, bureaus, divisions, and 
centers that are involved with STEM education research and programs.
    Finally an inventory of STEM education programs across the federal 
agencies would inform future priorities and initiatives. Federal 
agencies should also work to coordinate their STEM education 
initiatives with states, local districts, the higher education 
community, and other key stakeholders.
    Improvements in STEM education require a commitment of leadership 
at the local, state, and federal levels. Education programs at the 
federal agencies will always have a critical role to play in improving 
STEM education. We hope that any changes to existing programs, 
especially at the National Science Foundation, that may be come about 
as a result of the Academic Competitiveness Council report will be 
carefully reviewed and considered.
    Thank you for allowing me the opportunity to address you today and 
I look forward to any questions you may have.

                   Biography for Linda K. Froschauer
National Science Teachers Association President, 2006-2007

    Linda K. Froschauer, K-8 Science Department Chair at the Weston 
Public Schools, in Weston Connecticut, is president of the National 
Science Teachers Association (NSTA). She began her one-year term on 
June 1, 2006.
    Froschauer has been a devoted teacher and dedicated leader in 
science education. She began her teaching career as an elementary 
school teacher in Matteson, Illinois; moved on to middle level teaching 
at the Greenwich Public Schools, in Greenwich, Connecticut; and has 
been with the Weston Public Schools since 1985. She combines her work 
in the classroom with a leadership role in her school, serving as 
grades K-8 Science Department Chair/mentor teacher. Outside the 
classroom she has worked as an instructor for Chicago's Museum of 
Science and Industry; as a writer/consultant for many publications; and 
as a field editor, reviewer, and consultant for numerous organizations.
    For more than 30 years, Froschauer has been a leader and active 
member of NSTA. In 1976, she was named the first Preschool/Elementary 
Division Director to serve on the NSTA Board of Directors. She later 
worked on many NSTA committees, including the International Convention 
Planning Committee, the Preschool/Elementary Committee, and the 
Informal Education Committee, and she has chaired both the Awards and 
Recognition Committee and the Committee on Nominations. She also has 
served as Middle Level Division Director, worked on the Committee and 
Board Operations Task Force, and led the development of NSTA's first 
Family Science Day, which was held in conjunction with the NSTA 
National Convention in Boston.
    Froschauer's devotion to science education is evidenced by her 
involvement in numerous other professional organizations. She has 
served as president of the Connecticut Science Supervisors Association 
(CSSA), the National Middle Level Science Teachers Association 
(NMLSTA), and the Council for Elementary Science International (CESI). 
She is also a member of the Connecticut Academy for Education in 
Mathematics, Science, and Technology; the Association of Presidential 
Awardees in Science Teaching; and the Society of Elementary 
Presidential Awardees. She has been actively involved in Project 2061, 
a national effort to improve science education sponsored by the 
American Association for the Advancement of Science.
    Froschauer was chosen as a Connecticut Science Educators Fellow and 
named Weston Teacher of the Year in 1999. Her other awards and 
accomplishments include receiving the NSTA Distinguished Teaching 
Award, Middle Level, in 2001; National Board for Professional Teaching 
Standards certification, also in 2001; the CSSA Charles Simone Award 
for Outstanding Leadership in Science Education in 1998; a Presidential 
Award for Excellence in Mathematics and Science Teaching in 1993; and 
the Educational Press Association of America's Distinguished 
Achievement Award in 1991.
    Froschauer earned a BS degree in education from Northern Illinois 
University, an MA in science teaching from Governors State University, 
and a sixth-year degree in curriculum and supervision from Southern 
Connecticut State University.

    Chairman Baird. Thank you, Ms. Froschauer. Mr. Lach.

 STATEMENT OF MR. MICHAEL C. LACH, DIRECTOR OF MATHEMATICS AND 
                SCIENCE, CHICAGO PUBLIC SCHOOLS

    Mr. Lach. Thank you, Mr. Chairman, Members of the 
Subcommittee. Thank you for inviting me here today to speak to 
you about this issue. It is an honor to sit before you along 
side colleagues who I have worked with and learned much from.
    We have made great progress with mathematics and science 
instruction in Chicago. Student performance has risen 
considerably over the past five years, and our rate of 
improvement is greater than that of the rest of the state. To 
do this, we developed a comprehensive plan to coordinate all 
aspects of mathematics and science improvement which we call 
the Chicago Math and Science Initiative. As part of this work, 
we created a vision for high-quality instruction; built the 
support infrastructure to provide high-quality, content-rich, 
professional development to thousands of teachers over the 
course of an academic year; forged partnerships with local 
businesses, museums, laboratories, and universities to increase 
the content knowledge of our teachers; and enhanced their 
after-school offerings to include mathematics and science 
enrichment. We have done this in the traditional urban context. 
Most of our students are poor, our facilities are crumbling, 
and we are limited on resources.
    I would argue that there are two major assets of the 
federal R&D mission agencies that will help K-12 STEM 
education. The first asset is human capital. The scientists and 
engineers of NASA, NOAA, NIST, EPA, and the Department of 
Energy are the best and brightest in the world. They are the 
ones making new discoveries, creating new technologies, and 
literally exploring new worlds. The more we can connect 
students, parents, and teachers with their insights, energy, 
and perspectives, the better.
    The second major asset is the facilities. The laboratories 
and tools that are part of a federal R&D infrastructure are top 
notch, the particle accelerators, the spacecraft, the 
computers, the data sets. Most of our students have a very 
incomplete picture of the real work of scientists and 
engineers. Many teachers have never been part of a real 
scientific project. The facilities that are part of the federal 
R&D mission agencies should be utilized not only to ground 
science learning in a well-defined context but to enable 
students and teachers to grasp a vision of what they are trying 
to do.
    Communication between districts and the federal R&D mission 
agencies generally differs by the amount of collaboration that 
is intended in the partnership. The projects that are designed 
by the federal R&D mission agencies, individual teachers and 
schools find them by the usual methods, NSTA mailings and 
publications, websites, email lists. We regularly email our 
teachers of any opportunities that we hear about, and generally 
because of our lack of resources, it is unconscionable for me 
not to encourage our teachers to participate in anything.
    The more strategic partnerships, programs are often 
developed jointly and are the result of an ongoing dialogue so 
the strengths of the partnering institutions are all leveraged. 
These partnerships require intense collaboration and 
flexibility from all sides as well as resources to support and 
create and maintain them. In my written comments, I have 
mentioned several partnerships we have used with Fermilab and 
Argonne National Laboratory.
    The federal R&D mission agencies have an important role to 
play in improving K-12 STEM education. By leveraging the human 
capital and facilities these possess and connecting these to 
the existing plans and strategies of districts we will 
collectively be able to advance the mathematic and science 
achievement of our students.
    Thank you.
    [The prepared statement of Mr. Lach follows:]

          Prepared Statement of Representative Michael C. Lach

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me here today to speak to you about this issue. It is an honor 
to sit before you alongside colleagues whom I've worked with and 
learned much from.
    I am the Director of Mathematics and Science for the Chicago Public 
Schools. The Chicago Public School system consists of over 600 schools, 
nearly 25,000 teachers, and more than 400,000 students.
    We have made great progress with mathematics and science 
instruction in Chicago. Student performance has risen considerably over 
the past five years, and the rate of improvement is faster than that of 
the state. (See Figure 1 and Figure 2.) To do this, we developed a 
comprehensive plan to coordinate all aspects of mathematics and science 
improvement, which we call the Chicago Math & Science Initiative. As 
part of this work, we created a vision for high quality instruction; 
built the support infrastructure to provide high quality, content-rich 
professional development to thousands of teachers over the course of an 
academic year; forged partnerships with local businesses, museums, 
laboratories, and universities to increase the content knowledge of our 
teachers; and enhanced our after-school offerings to include 
mathematics and science enrichment.
    We've done this in a challenging context. Eighty-five percent of 
our students come from low-income families. Our resources are low; 
Illinois ranks 47th in the Nation in the level of state support for 
education. Our capacity is limited--less than five percent of our K-8 
teachers possess a State endorsement in mathematics. The Chicago Public 
Schools is an extremely decentralized school district. By State law, 
decisions about local school budgets, principal contracts, and 
curriculum are made by an elected body called the ``Local School 
Council,'' not the Chief Executive Officer.
    While we feel proud of our accomplishments, we know that we still 
have much work to do. An achievement gap remains in many of our 
schools. The number of students meeting and exceeding standards remains 
far too low. Our high schools, in particular, still have graduation 
rates that are not acceptable.
    In as much as possible, we connect with external resources to help 
us improve mathematics and science in the Chicago Public Schools. Much 
of the intellectual design of our work comes from insights my 
colleagues on this panel have provided, from Dr. Nelson's leadership, 
to Dr. Weiss's insightful evaluations of large-scale change efforts, 
and to the National Science Teacher Association's consistent support 
for teachers. Most of the funding for our efforts comes from the 
district; we work in every manner possible to leverage additional 
funding from corporate and university partners in the Chicagoland area. 
In particular, we're happy to have several major universities that we 
work with in close partnership, and our relationship with Argonne 
National Laboratory has resulted in several programs that we have 
enacted together.
    The gaps we face, and the resource and capacity limitations that we 
operate under make it unconscionable for us to turn down assistance. So 
my most important point today is that we really depend on the 
assistance and partnership of others--including the federal R&D mission 
agencies. They have an important role to place in science, technology, 
engineering, and mathematics education in the United States.
    I'd argue that there are two major assets of the federal R&D 
mission agencies that will help K-12 STEM education. As the Committee 
considers the most appropriate way to connect these agencies with K-12 
teachers and schools, programs should be designed so that these assets 
are highlighted.
    The first asset is human capital. The scientists and engineers of 
NASA, NOAA, NIST, EPA and DOE are the best and brightest in the world. 
They are the ones making new discoveries, creating new technologies, 
and literally exploring new worlds. The more we can connect students, 
parents, and teachers with their insights, energy, and perspectives, 
the better. The people of federal R&D mission agencies can both educate 
and inspire our students and teachers. A key priority should be to 
leverage this human capital so that they can assist schools and school 
districts in their work.
    The second major asset is the facilities. The laboratories and 
tools that are part of the federal R&D infrastructure are top notch--
the particle accelerators, the space craft, the computers, the data 
sets. Most of our students have a very incomplete picture of the real 
work of scientists and engineers. Many teachers have never been part of 
a real scientific project. The facilities that are part of the federal 
R&D mission agencies should be utilized not only to ground science 
learning in a well defined context, but to enable students and teachers 
to understand a vision of what they're trying to do. A second key 
priority of the federal R&D thus is to make the places where science 
and engineering are practices accessible in meaningful ways to students 
and teachers.
    I'd like to highlight a few examples of these that come from my 
experience with Argonne National Laboratory and Fermilab.

        <bullet>  The Academies Creating Teacher Scientists program 
        provides summer internships for teachers to conduct scientific 
        research with ANL scientists.\1\ In this program, both the 
        human capital and the facilities of ANL are made available to 
        select teachers in a sustained, supportive manner.
---------------------------------------------------------------------------
    \1\ http://www.dep.anl.gov/p<INF>-</INF>k-12/acts/

        <bullet>  Fermilab's Saturday Morning Physics sessions--in 
        which I participated as a student--brings students to Fermilab 
        to learn about modern physics topics and see real scientists in 
        action.\2\ Similarly, Argonne's distance learning project uses 
        modern technology to provide the opportunity for CPS students 
        to meet and interact with professionals in technical fields.\3\ 
        Both of these programs enable students to access the human 
        capital and facilities of these laboratories.
---------------------------------------------------------------------------
    \2\ http://ed.fnal.gov/talks/fermilab1994/web/
ed<INF>-</INF>prog<INF>-</INF>sec<INF>-</INF>student.html#saturday
    \3\ http://www.dep.anl.gov/p<INF>-</INF>k-12/distancelearning/

        <bullet>  The online ask-a-scientist provides a mechanism for 
        student and teachers to get accurate answers to scientific 
        questions from practicing scientists.\4\
---------------------------------------------------------------------------
    \4\ http://www.newton.dep.anl.gov/

        <bullet>  And, in an expression of our work as partners, the 
        director of education at Argonne participates in our annual 
---------------------------------------------------------------------------
        Principal For A Day project.

    Given these comments, a picture emerges about the sort of work that 
isn't very helpful. Curriculum development is one. We know from decades 
of instructional material development that writing curriculum is a 
complicated, difficult process. More acutely, we know that robust 
curriculum is necessary but not sufficient for classroom improvement. 
In addition to strong materials, teachers need equipment, professional 
development workshops, coaching, and good assessments. Within a school, 
leaders need to understand how to support curriculum implementation, 
and manage improvement throughout grades and courses. Collections of 
lessons plans, by themselves, are only a small piece of the puzzle.
    The proliferation of state and national standards and content also 
makes implementation difficult. Special topics can be motivating and 
interesting to both teachers and students, but given the now-famous 
finding from the TIMSS study that our curriculum is ``a mile wide and 
an inch deep,'' adding more topics to cover only makes things difficult 
for teachers. If programs or projects are parochial, they're harder to 
connect to our work.
    We also know that transforming classroom practice involves 
intensive capacity development sustained over time. It doesn't happen 
over night--or in a one-day field trip or workshop. A brief visit to a 
laboratory or launch can be inspiring--and I don't mean to downplay the 
importance of inspiring teachers and students about the world of 
science--but real change takes sustained work over time. Within an 
overall strategy, there's certainly a need for both.
    I want to say a few words about the type of human capital 
development that we provide for teachers at the Chicago Public Schools. 
Our work falls into three major categories. The first is support for 
core instructional materials implementation, focusing on the direct 
application of content and pedagogy to the classroom. This is almost 
always led by the district, and is difficult to conceive any outside 
institutions other than curriculum developers with the capacity to 
provide this work. The second is to enhance the content knowledge of 
teachers via university course work. The highly qualified teacher 
demands of the No Child Left Behind legislation as enacted in Illinois 
use course work as the main driver for this work. Seminars and sessions 
that don't provide credit for teachers don't enable me to very easily 
meet my goals. The third is activities that inspire the study of 
science and mathematics; generally, we use outside institutions such as 
museums and laboratories to do most of this work.
    In the Chicago Math & Science Initiative, the Chicago Public 
Schools was able to develop a coherent and comprehensive strategy for 
mathematics and science improvement thanks to NSF systemic initiatives. 
It took us some time both to arrange the human capital and organization 
in order to structure such a strategy, but the results to date are 
quite positive. The more the federal R&D mission agencies can align 
their work to similar district strategies, the better the chance of 
success. Without a clear connection to district's vision, there will be 
no traction. A plan enables forward movement. And it takes resources to 
develop and drive such plans.
    When the proposals come to me as existing plans with little 
opportunity for localization, their chance of effectiveness is reduced 
considerably. Small programs that are aligned only peripherally to our 
strategies often just add complexity. We've had success because of our 
commitment to coherence, and the more the federal R&D mission agencies 
can align with that, the better. I can't think of any proposals that 
have come to me with an evaluation report documenting their 
effectiveness.
    Communication between districts and the federal R&D mission 
agencies generally differs by the amount of collaboration that is 
intended in the partnership. For projects that are designed by the 
federal R&D mission agencies, individual teachers and schools find them 
by the usual methods--NSTA mailings, websites, e-mail lists. We 
regularly e-mail our teachers any opportunities that we hear about. For 
more strategic partnerships, programs are often developed jointly and 
are the result of an ongoing dialogue so that the strengths of the 
partnering institutions are leveraged. These partnerships require 
intense collaboration and flexibility from all sides.
    The federal R&D mission agencies have an important role to play in 
improving K-12 STEM education. By leveraging the human capital land 
facilities that these institutions possess, and connecting these to the 
existing plans and strategies of the district, we'll collectively be 
able to advance the mathematics and science achievement of our 
students.

Answers

1.  How do you find resources for improving science and mathematics 
education in the Chicago Public Schools?

    Individual teachers find text, lesson plans, and other classroom 
resources via the usual methods--NSTA mailings, websites, e-mails. When 
the central office learns of opportunities such as this, we distribute 
them via e-mail to our schools.
    More strategic partnerships--such as the ones described above--come 
about via ongoing dialogue with our partners in museums, laboratories, 
and universities. These are generally designed together.

2.  What resources have you garnered from the federal R&D mission 
agencies? How has this contributed to improving your students' 
understanding of science?

    As mentioned, our partnerships in particular with Argonne National 
Laboratory and the Fermi National Accelerator Laboratory have resulted 
in several successful programs that connect teachers and students with 
the scientists, engineers, and facilities of these institutions.

3.  What type of support that the federal R&D mission agencies could 
provide would have the most impact on STEM education for your teachers 
and students in Chicago Public Schools?

    The most productive supports are those that (1) inspire students 
and teachers to study science and mathematics and (2) provide students 
and teachers with a deep understanding of the real-world work of 
scientists and engineers. Supports that are not particularly effective 
include (1) lesson plans and curriculum development, (2) workshops that 
don't connect directly to specific instructional materials or 
university credit. To enable deeper collaboration, resources need to be 
allocated with the expressed purpose of connecting K-12 schools and 
districts with the federal R&D mission agencies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Biography for Michael C. Lach

    Michael C. Lach is Director of Mathematics and Science for the 
Chicago Public Schools, overseeing mathematics and science teaching and 
learning in the 500 elementary schools that comprise the Nation's third 
largest school district. Mr. Lach began teaching high school biology 
and general science at Alcee Fortier Senior High School in New Orleans 
in 1990 as a charter member of Teach For America, the national teacher 
corps. After three years in Louisiana, he joined the national office of 
Teach For America as Director of Program Design, developing a portfolio 
based alternative-certification system that was adopted by several 
states. Returning to the science classroom in 1994 in New York City 
Public Schools, and then back to Chicago in 1995 to Lake View High 
School, he was named one of Radio Shack's Top 100 Technology Teachers, 
earned National Board Certification, and was named Illinois Physics 
Teacher of the Year. He has served as an Albert Einstein Distinguished 
Educator Fellow, advising Congressman Vernon Ehlers (R-MI) on science, 
technology and education issues. He was lead curriculum developer for 
the Investigations in Environmental Science curriculum developed at the 
Center for Learning Technologies in Urban Schools at Northwestern 
University and published by It's About Time, Inc. He has written 
extensively about science teaching and learning for publications such 
as The Science Teacher, The American Biology Teacher, and Scientific 
American. He earned a Bachelor's degree in physics from Carleton 
College, and Master's degrees from Columbia University and Northeastern 
Illinois University.

    Chairman Baird. Thank you, Mr. Lach. Dr. Nelson.

    STATEMENT OF DR. GEORGE D. NELSON, DIRECTOR OF SCIENCE, 
   TECHNOLOGY, AND MATHEMATICS EDUCATION, WESTERN WASHINGTON 
                           UNIVERSITY

    Dr. Nelson. Good morning, Mr. Chairman, and Members of the 
Committee. My name is Pinky Nelson, and today I am wearing my 
science educator hat.
    What resources can the mission agencies focus on? The two 
goals of literacy and workforce development, have skilled and 
knowledgeable workforce of scientists, engineers and 
technicians engaged in cutting-edge science and technology 
development focused on missions critical to the country, 
research and technology partnerships with industry and 
universities, world-class and unique laboratories and 
facilities, and the capacity for long-term funding. What 
resources do the mission agencies generally lack? Knowledge of 
the K-12 education system and how it is structured and 
regulated, internal expertise in education research, curriculum 
development, effective instruction, or teacher preparation. The 
agencies should combine their programs so those that can take 
advantage of their strengths and be sure to include appropriate 
partners when working in areas where they lack the expertise. 
They have the capacity to sustain and grow programs that are 
working and axe those that are not.
    Possible areas where I think the mission agencies can 
contribute effectively include career pathways for high-school 
students and mission-related undergraduate and graduate 
research. More challenging is participation in K-12 curriculum 
development and evaluation, and teacher preparation.
    I will briefly discuss the areas of challenge before moving 
on to discuss career pathways and support for research. Working 
towards achieving universal literacy by improving K-12 
schooling requires deep collaboration with professionals across 
the education system, often in a non-leadership role, creating 
the capacity and improving the system comes first, the 
agencies' short and intermediate-term goals come second.
    There is a huge inventory of poorly-designed and under-
evaluated mission-related curricula, posters, and lesson plans 
and associated professional development rarely used in 
classrooms and with no natural home in a coherent standards-
based curriculum. The constant barrage of new resources adds to 
the noise in the system and contributes to the mile-wide, inch-
deep problem. However, I do have one positive example. I 
recently received a copy of an astronomy curriculum for grades 
three to five that was developed collaboratively by NASA and 
the Professional Science Educators and Developers at the 
Lawrence Hall of Science at UC-Berkley. It is high-quality and 
fills a real need for instructional materials at this level. A 
collaborative curriculum development model such as this is 
rare. Adding the evaluation component could make it exemplary.
    My current work includes exploring the preparation of 
effective new STEM teachers and helping current teachers 
improve their practice. This is not a part-time job or one for 
the faint of heart. Agencies should encourage and provide 
incentives for their STEM retirees to become teachers. In 
addition, they should collaborate with excellent teacher 
preparation programs and support their rigorous evaluation.
    In high schools and community colleges, agencies can 
collaborate with appropriate education organizations and 
industry to develop and support career pathways for students, 
for example, in high school in high-need areas like photonics 
or nanotechnology. The agency can promote its mission through 
carefully designed, implemented, and evaluated technology 
programs targeting the future workforce. These programs can 
take full advantage of the agency talent pool. The NSF Advanced 
Technology Education Program has created some effective models 
at the community college level. Agencies could expand this 
work, bring it into high school, career, and technical 
education programs and provide sustaining funding that is not 
available from NSF R&D programs.
    Research scientists, engineers, and technicians can help 
museums or other informal education entities display and 
communicate, both in real and cyberspace, the new science and 
technology that is coming out of the agencies to excite and 
inform students, parents, and voters. Additionally, the 
personal stories of STEM workers at all levels, including clear 
maps of the paths through school that qualify them for those 
jobs can help motivate students to enter career pathways.
    Agencies can support undergraduate, graduate, and 
postdoctoral students to engage in mission-related research and 
then hire the best of them into meaningful jobs. They can 
provide undergraduate and graduate students authentic research 
experiences in their centers and laboratories, again with the 
prospect of meaningful jobs. As a graduate student, I spent two 
invaluable summers at the Air Force Cambridge Research 
Laboratory solar observatory in Sunspot, New Mexico.
    The NASA Space Grant program in Washington State is a 
positive example. NASA funds leveraged with a one-to-one match 
support around 150 graduate students every year to engage in 
STEM research mentored by faculty at institutions throughout 
the state, internships at companies, or NASA centers, or 
participation on student design teams. Last year 100 percent of 
the Space Grant scholar graduates went on to STEM graduate work 
or employment. While the program keeps good statistics, it 
could benefit from a more sophisticated effort.
    Thank you. I look forward to your questions.
    [The prepared statement of Dr. Nelson follows:]

                 Prepared Statement of George D. Nelson

    Chairman Baird and Members of the Committee, it is a privilege to 
accept your invitation to participate in the hearing and provide my 
perspective on the STEM education programs of the federal mission 
agencies.
    My primary perspective comes from my recent roles in STEM education 
reform as Directory of Science, Mathematics, and Technology Education 
at Western Washington University, and my previous position as Director 
of Project 2061 at the American Association for the Advancement of 
Science. I am also Principal Investigator of a targeted Mathematics and 
Science Partnership grant from NSF that brings together 28 regional 
school districts, Washington State LASER, three state community 
colleges, the Northwest Indian College, and Western Washington 
University in an effort to reform science education with a particular 
focus on improving K-16 science teacher preparation.
    Personal experiences from previous positions have profoundly 
influenced my perspective towards STEM education and general education 
reform. I have worked as a research astrophysicist, flown three 
missions on the U.S. Space Shuttle as a NASA astronaut, served as 
Associate Vice Provost for Research at the University of Washington, 
and taught at all levels in higher education. I have spent considerable 
time thinking about and engaging in discussions with NASA and the 
Department of Energy about their K-12 education programs, and served on 
numerous advisory committees, commissions, and on boards of directors 
including the Pacific Science Center, the Art Institute of Seattle, and 
the Center for Occupational Research and Development (CORD). I am also 
the proud father of a dedicated and outspoken middle school mathematics 
and science teacher from Katy, Texas.
    This testimony will focus on the role of the federal mission 
agencies, but it is always good to keep the big picture in mind. The 
American education system is enormous, with over 50 million students 
and 3.1 million teachers. Counting the critical role of STEM learning 
in the elementary grades, more than half of these teachers are 
responsible for teaching mathematics and science. The system is also 
decentralized, locally funded and governed, and subject to myriad 
regulations. Mr. Lach has provided a compelling picture of the Chicago 
system. There are 15,000 other districts in America, each with its own 
unique strengths and challenges.
    Since the federal mission agencies depend so heavily on both a 
literate citizenry for continued support and STEM professionals at all 
levels to carry out their missions, it is in the interest of the 
agencies to contribute appropriately to achieving two STEM education 
goals: 1) universal math and science literacy and 2) significantly 
increasing the number and diversity of American students entering and 
successfully exiting the STEM pipeline.
    I shall now address the Committee's specific questions. To approach 
a model for how the federal mission agencies can contribute, it is 
reasonable to ask, what resources can the mission agencies focus on the 
two goals of literacy and workforce development? Here is my short list.

        <bullet>  A skilled and knowledgeable workforce of scientists, 
        engineers, and technicians engaged in cutting edge science and 
        technology development focused on missions critical to the 
        country

        <bullet>  Research and technology partnerships with industry 
        and universities

        <bullet>  World-class and unique laboratories and facilities

        <bullet>  Long-term funding.

    It is also important to ask, what resources do the mission agencies 
generally lack?

        <bullet>  Knowledge of the K-12 education system, how it is 
        structured and regulated

        <bullet>  Internal expertise in education research, curriculum 
        development, effective instruction, or teacher preparation.

1.  In what ways can federal R&D mission agencies contribute most 
effectively to improve K-12 STEM education? Can you give examples of 
particularly effective programs?

    Taking advantage of their strengths, agency professionals can 
collaborate with appropriate education organizations and industry to 
develop and support Career Pathways for students in high schools and 
community colleges, for example in high need areas like photonics or 
nanotechnology. The agency can promote its mission through carefully 
designed, implemented, and evaluated technology education programs 
targeting the future workforce. These programs can take full advantage 
of the agency talent pool. The NSF Advanced Technology Education 
program has created some effective models at the community college 
level. Agencies could expand this work, help bring it into high school 
Career and Technical Education programs, and provide sustaining funding 
that is not available from NSF R&D programs.
    Research scientists, engineers, and technicians can help museums or 
other informal education entities display and communicate--both in 
real- and cyberspace--the new science and technology that is coming out 
of the agencies to excite and inform students, parents, and voters. 
Additionally, the personal stories of STEM workers at all levels, 
including clear maps of the paths through school that qualify them for 
those jobs can help motivate students to enter the Career Pathways.
    My current work includes exploring the preparation of effective new 
STEM teachers and helping current teachers improve their practice. This 
is not a part-time job, or one for the feint of heart. Agencies should 
encourage and provide incentives for their STEM retirees to become 
teachers, again making use of their talented workforce. They should 
also collaborate with excellent teacher preparation programs and 
support their rigorous evaluation. Poor preparation for entering the 
classroom results in ineffective instruction and low retention.

2.  At the undergraduate level, what type of support could the federal 
R&D mission agencies provide that would recruit more students into 
pursuing careers in the physical sciences?

    Agencies can support undergraduate, graduate, and postdoctoral 
students to engage in mission-related research, and then hire the best 
of them into meaningful jobs. They can support students on campuses to 
work with faculty engaged in mission-relevant research. They can also 
provide undergraduate and graduate students authentic research 
experiences in their centers and laboratories--again with the prospect 
of meaningful jobs. As a graduate student, I spent two invaluable 
stints at the Air Force Cambridge Research Laboratory solar observatory 
in Sunspot, New Mexico engaged in cutting edge research with world-
class instruments.
    The NASA Space Grant program in Washington State is a positive 
example. NASA funds support around 150 undergraduate students every 
year to engage in STEM research, mentored by faculty at institutions 
throughout the state, internships at companies or NASA centers, or 
participation on student design teams. Last year 100 percent of the 
Space Grant scholar graduates went on to STEM graduate work or 
employment. While the program keeps good statistics, it could benefit 
from a more sophisticated evaluation effort.

3.  How does the lack of coordination and overarching strategy for STEM 
education programs hinder the agencies from making an impact?

    There is a huge inventory of poorly designed and under-evaluated 
mission-related curricula (posters and lesson plans and associated 
professional development) rarely used in classrooms and with no natural 
home in a coherent standards-based curriculum. The constant barrage of 
new ``resources'' adds to the noise in the system and contributes to 
the ``mile wide, inch deep'' problem. Effective curriculum development 
requires a deep collaboration with a team of professional curriculum 
developers, education researchers, and classroom teachers.
    In that light, I do have one positive example. I recently received 
a copy an astronomy curriculum for grades 3-5 that was developed 
collaboratively by NASA and the professional science educators and 
developers at the Lawrence Hall of Science and UC-Berkeley. It is high 
quality and it fills a real need for instructional materials at this 
level. A collaborative curriculum development model such as this is 
rare. Adding a rigorous evaluation component to explore ho well the 
curriculum helps teachers teach and students learn could make it 
exemplary.

Summary

    A focus on 1) partnering with high schools and community colleges 
along with appropriate education professionals and industry partners on 
mission-related technology education programs for the future technical 
workforce, and 2) supporting mission-related research for undergraduate 
and graduate students both in agency facilities and on university 
campuses could pay major dividends. This would require an achievable 
overarching strategy, but not necessarily significant coordination 
among the agencies. The critical collaboration would be with STEM 
education professionals (not just K-12 teachers), university faculty, 
and industry partners.

                     Biography for George D. Nelson

    Dr. George D. Nelson is the Director of Science Mathematics, and 
Technology Education and Professor of Physics and Astronomy at Western 
Washington University in Bellingham, Washington. The program is 
responsible for the preparation of future K-12 science, mathematics, 
and technology teachers. It is also a research and development center 
with a focus on teacher preparation and science, mathematics, and 
technology education reform. He is currently the principal investigator 
on a $12 million NSF project, the North Cascades and Olympic Science 
Partnership.
    Prior to joining Western Washington University in 2002, Dr. Nelson 
was Director of Project 2061 and a member of the senior staff of the 
American Association for the Advancement of Science. Project 2061 is 
engaged in the reform of science, mathematics, and technology education 
at all levels with a focus on helping to create a system where all high 
school graduates are literate in science, mathematics, and technology. 
Under Dr. Nelson's leadership Project 2061 produced a number of ground-
breaking publications including Blueprints for Reform, Designs for 
Science Literacy, and the Atlas of Science Literacy. The project also 
developed unique and rigorous procedures for evaluating curriculum 
materials and assessments, and greatly expanded its professional 
development activities.
    From 1989 to 1996 Dr. Nelson was Associate Vice Provost for 
Research and Associate Professor of Astronomy and Education at the 
University of Washington. His administrative responsibilities included 
research policy, government-university-industry interactions, 
university-K-12 education interactions, and federal relations. He 
taught graduate courses in stellar atmospheres and solar physics and 
undergraduate courses in general astronomy. In the college of education 
he taught an innovative seminar on science education for scientists, 
graduate students, and teachers using Project 2061 as the underlying 
foundation. During the 1992-93 academic year, Dr. Nelson was a fellow 
of the American Council on Education.
    From 1978 to 1989 he served as a NASA astronaut and flew as a 
mission specialist aboard three Space Shuttle flights. These missions 
included the first on-orbit satellite repair in 1984. Dr. Nelson was 
the pilot of the first operational flight of the manned maneuvering 
unit and the primary extra-vehicular crewman. He also served on the 
crew of the flight of Discovery in September 1989 immediately following 
the loss of the Challenger and was extensively involved in the rework 
of all crew procedures and the re-engineering of Space Shuttle 
components and software. He has advised NASA through service on a 
number of committees, most recently as Chair the Hubble Space Telescope 
Servicing Missions 3A and 3B External Independent Readiness Review 
Team.
    Dr. Nelson has served on several boards of directors including the 
Art Institute of Seattle, Analytic Services Inc., and the Pacific 
Science Center. He received his B.S. in physics from Harvey Mudd 
College and M.S. and Ph.D. in astronomy from the University of 
Washington. His research interests include science education, education 
reform, and radiative transfer and hydrodynamics applied to interesting 
problems in astrophysics.
    He lives in Bellingham with his wife, Susie. They have two grown 
daughters; Aimee Nelson-Engle and Marti Nelson-Frazier and three 
perfect grandsons, Pierce, Langston, and Andrew.

    Chairman Baird. Thank you, Dr. Nelson. Mr. Van Reiner.

  STATEMENT OF MR. VAN R. REINER, PRESIDENT AND CEO, MARYLAND 
          SCIENCE CENTER, MARYLAND ACADEMY OF SCIENCES

    Mr. Reiner. Good morning, Mr. Chairman and Members of the 
Subcommittee. I am Van Reiner, President of the Maryland 
Science Center located in Baltimore's Inner Harbor. We have 
three levels of interactive, hands-on exhibits, a planetarium, 
an IMAX theater, classroom space, and a program space for live 
science demonstrations. Each year we admit 100,000 students 
attending with school groups to augment their science and 
mathematics curriculum. We are a member of the Association of 
Science Technology Centers, Incorporated.
    We, like hundreds of institutions across the country, 
employ what is known as informal education as a way to connect 
people with science and technology. Learning by doing is the 
basis for our approach. Showing how, rather than stating why, 
gives visitors the information they need to make informed 
decisions about how to relate the topic at hand. When we are 
successful, we go from global to local to individual by giving 
the facts, a better understanding of the topic or how it 
relates to them, and hopefully a quest for more knowledge.
    Motivating students to take interest in science, 
technology, engineering, and math, whether or not they choose 
to pursue a career in those fields, puts science centers in a 
unique position to spark an initial interest.
    Collaborations are essential to the success of science 
centers, and we have a history of collaborating with the 
federal R&D mission agencies. The longest running collaboration 
is with NASA. We have co-hosted events with NASA such as having 
students participate in televideo conferences with the 
astronauts aboard the International Space Station and the 
Shuttle, as well as watching a European solar eclipse while 
talking to NASA Goddard scientists on board a ship in the Black 
Sea. We have helped to develop after-school astronomy 
programming and are embarking on a citizen science project to 
measure the amount of UV radiation that reaches the earth at 
Baltimore's Inner Harbor.
    Scientists from federal agencies participate in our 
``scientist of the month'' program to interact directly with 
our visitors to discuss current research findings. Other 
instances with NASA and other agencies are listed in my written 
testimony.
    Evaluation of these programs and exhibits have been 
performed in our institution by us. The accepted practice for 
informal education institutions such as ASTC members has been 
to do front-end, formative, remedial, and summative evaluations 
of the program or exhibit by a third party to be sure that 
stated goals of the project are met. These evaluations are 
required for NSF or NIH grants, and we use them for other 
federally sponsored exhibits and programs. Several of these 
evaluations are included in the attachments to my written 
testimony, and I apologize for the length of them. [Evaluations 
included in Appendix 2: Additional Material for the Record.]
    These evaluations are thorough and complete and help us to 
know if we have met the requirements of the project and if the 
audience understands the subject presented. We feel that 
without this evaluation we would quickly lose our relevancy.
    Currently we are collaborating with NASA and NOAA on 
evaluating a project called Science on a Sphere, the globe 
identical to the one that Queen Elizabeth II visited at Goddard 
Space Center last week. We have been asked by NOAA to lead the 
users group to work with the agencies to develop evaluation 
methods specifically for the exhibit as well as the programming 
that the group develops around the exhibit. This collaboration 
between NOAA and NASA is unique and should be encouraged. 
Scientists from the two agencies are working together to ensure 
that the data presented is clear and meaningful. Increased 
collaboration between federal R&D mission agencies and science 
centers can better accomplish the goals of STEM education 
programs. The dialogue between federal mission agencies should 
be expanded so that the general public and students can be 
presented with knowledge in larger and more meaningful ways.
    We believe that greater understanding leads to greater 
acceptance that science is resident in everything we do. It 
just doesn't happen in a laboratory. Science centers are a 
resource in every sense of the word and should be viewed as 
such. We know how visitors react and how to best present 
scientific discovery and scientific progress to the public. We 
believe greater utilization of science centers as resources for 
federal R&D mission agencies is the best way to help raise the 
level of scientific literacy with the general public, including 
students. We can, and do augment, the formal classroom 
instruction using resources that would be either too expensive 
or too impractical for the classroom. I believe that federal 
R&D mission agencies should be required to allocate a portion 
of their resources to educate the public as is now required by 
the National Science Foundation.
    I thank you for this opportunity, and I look forward to 
your questions.
    [The prepared statement of Mr. Reiner follows:]

                  Prepared Statement of Van R. Reiner
Chairman Baird, Ranking Member Ehlers, and Members of the Subcommittee:

    The Maryland Science Center, located at Baltimore's Inner Harbor, 
is a private non-profit that had its genesis in 1797 as the Maryland 
Academy of Sciences, which is still our parent organization. The 
current building was put in service in 1976 and expanded in 2004. The 
facility houses three levels of highly interactive, hands-on exhibits, 
a planetarium, an IMAX Theater, classroom space, and program space for 
live demonstrations on a variety of scientific phenomena.
    Each year, Maryland Science Center welcomes over 400,000 visitors 
to our facility with about 100,000 students visiting with school groups 
to augment their science and mathematics curriculum. Major areas of 
concentration--our core programming areas--are Earth system science, 
space and aerospace science, health sciences and the human body, and 
early childhood education. All of the permanent exhibits at the 
Maryland Science Center were designed to be in concert with the 
Maryland Department of Education Science Curriculum, and where 
applicable, under the influence of The Benchmarks for Science Literacy 
published by the American Academy for the Advancement of Science as 
part of Project 2061, the National Science Education Standards prepared 
under the auspices of the National Research Council, and the Principles 
and Standards for School Mathematics from the National Council of 
Teachers of Mathematics.
    The Maryland Science Center, like hundreds of institutions across 
the country and around the world, employ what is known in the field as 
``informal education'' as its means of connecting people with science 
and technology. Learning by doing is the foundation of informal 
education, along with demonstrating practical examples. Building on 
that foundation, the role of the science center as distiller and 
interpreter of the latest in scientific discovery and connecting the 
public, especially school children, to the everyday application of 
these advancements, is a key strategy we employ. Showing how, rather 
than stating why, gives visitors the information they need to make 
informed decisions about how they can relate to the topic at hand. When 
we're successful, we go from global to local to individual along a 
continuum giving the individual the facts, a better understanding or 
how it relates to them, and hopefully, a quest for more knowledge. 
Science centers in particular have an ability to affect change by 
engaging school children through their use of informal education 
methods. Motivating students to take interest in science, technology, 
engineering and math, whether or not they choose to pursue a career in 
those fields, puts science centers in a unique position to spark an 
initial interest.
    Collaboration has always been a means to an end for the 
institution. Seeking partnerships to ensure that our exhibits and 
programs are the best they can be has yielded quality educational and 
enjoyable product for our visitors. The Maryland Science Center has 
long cultivated a history of working with the National Aeronautics and 
Space Administration (NASA), National Oceanographic and Atmospheric 
Administration (NOAA), National Institute of Standards and Technology 
(NIST), as well as the National Science Foundation (NSF) and the 
National Institutes of Health (NIH). Working with these agencies, and 
others, we develop permanent exhibits, traveling exhibits, and programs 
designed to inform and educate the general public--from those school 
children to their parents and teachers--about not only the basics of 
science, math and technology, but also the latest events and 
discoveries in our core programming areas.
    In our core exhibits we use high tech, multimedia update centers 
known as Links. Each Link is designed to offer real time investigation 
of science topics in the news that are appealing to mass audiences. 
When something happens in the world of science and technology, our Link 
areas and Link staff key in on the news releases, scientific data, and 
information resources to process and present the findings in a 
relevant, thought-provoking manner. Our Links are designed to give 
visitors who seek cursory, as well as deeper understanding of science 
as it happens, a chance to speak with our content experts, and to 
explore areas that can be a resource for the quest for deeper 
knowledge. Maryland Science Center currently features three Links. 
TerraLink focuses on Earth system science, SpaceLink concentrates on 
space and aerospace science and BodyLink examines health sciences. The 
fabrication and design of these centers was accomplished with input 
from the aforementioned agencies, and we continue to interface with 
these agencies to stay on top of current research.
    In the SpaceLink update center, NASA has been a primary partner. 
The partnership has taken many forms. With the Goddard Space Flight 
Center, we have helped develop an after school astronomy club format. 
The results can be seen at www.afterschoolastronomy.org. This site is a 
resource that provides information for students with an interest in 
astronomy and put the information to use in practical applications, a 
hallmark of informal education. We have also co-hosted individual 
events with Goddard such as Sun-Earth Day, where educators from Goddard 
are at the Maryland Science Center to explain that we live in the 
atmosphere of a star, which has many effects on our planet. We are part 
of a larger system and understanding that system is vital to other 
scientific endeavors we attempt to explain. This is an annual event 
where visitors engage in activities and receive print materials to take 
with them that allow them to further explore the topics at home. Again, 
relevancy and real world examples--informal education in process.
    Maryland Science Center and Goddard also co-hosted an Earth 
Explorer Institute where we convened 25 informal educators representing 
science centers and museums from across America to discuss and 
recommend NASA Earth science programming for informal audiences. As an 
outgrowth of that, we are participating in a UV Citizen Science 
project. We will enlist citizens to measure the amount of UV radiation 
that hits the Earth at Baltimore's Inner Harbor, enter the data into a 
nationwide database, and then participate in ongoing work to measure 
changes in UV radiation across the country. People are exposed to 
scientific equipment, scientific methods, and will be able to 
participate in a nationwide study. They also gain a greater 
understanding of the implications of changing UV levels as it relates 
to their everyday lives.
    Maryland Science Center makes its resources available to provide 
opportunities for students to witness events such as a solar eclipse. 
In August of 1999, a group of students observed a solar eclipse in 
Europe via a link with Goddard scientists on board a research vessel in 
the Black Sea. Students came to the Maryland Science Center to learn 
about the eclipse and participated in two televideo conferences before 
and during the event to observe and ask questions.
    In partnership with the Johnson Space Center, Maryland Science 
Center has hosted Baltimore City School students for four live 
downlinks from the International Space Station and the Space Shuttle 
since 2001. Students have conversations as well as question and answer 
sessions with the astronauts aboard the Station and the Shuttle. Prior 
to the downlinks, students visited the Maryland Science Center to learn 
about the specific mission and prepare questions for the astronauts. 
The missions included the delivery of the Destiny component to the 
International Space Station, and the Hubble Space Telescope servicing 
mission. After these two missions, the entire Shuttle astronaut crew 
involved in the downlink visited the Maryland Science Center to meet 
with the students who participated in the conference and the general 
public. We were the first informal education institution to have this 
opportunity, and mentored other museums on how to replicate the 
experience.
    With the Space Telescope Science Institute, we were advisors on the 
making of a short IMAX film entitled ``Hubble: Galaxies Across Space 
and Time.'' This three-minute film has been shown in over a dozen IMAX 
theaters nationwide. At the Maryland Science Center, it has had 1,564 
screenings for over 110,000 visitors. We have also developed a 
planetarium show to explain what the Hubble has allowed us to see and 
how those images have helped to shape the way we view the universe as 
well as increasing our knowledge of our place in the universe.
    Through collaboration, the Maryland Science Center participates in 
other smaller programs funded by NASA as part of a larger grant to 
another institution. We will create a series of programs and events 
highlighting the New Horizons mission to Pluto and the Kuiper Belt. We 
will host a small exhibit, offer a teacher workshop and host a Pluto 
Family Science Night. Keying on the recent news and popular culture 
references to Pluto's status as a planet or not, Maryland Science 
Center will present the latest Pluto information as part of a popular 
planetarium show ``Planet Trek.'' In conjunction with the Howard Owens 
Science Center in the Prince George's County, Maryland school system, 
we are to develop a planetarium program on Pluto and the New Horizons 
mission for distribution to school planetariums nationwide--currently 
numbering in excess of 600.
    In TerraLink, the Earth systems science update center, Maryland 
Science Center has partnered with NASA and NOAA to provide ongoing 
support for programming including visual material and scientific 
expertise. NASA and NOAA scientists periodically visit to work with 
students as part of our Scientist of the Month program and on special 
programming days such as Earth Day. Students and visitors have a chance 
to see science pursuits as both a vocational option and simply as a 
means to broaden awareness that science, technology, engineering and 
math is not a narrow cast field of inquiry and exploration. The focus 
of this program is to provide science and technology careerists as role 
models for students as well as being able to offer another thread for 
visitors and students to seek out information about how things like 
atmospheric phenomena occurs. TerraLink staff and the Science Person of 
the Month collaborate to present topics and information to the public 
in understandable terms.
    Using NASA and NOAA data and visual imagery, as well as utilizing 
experts from the agencies in the Science Person of the Month program 
currently defines the extent of Maryland Science Center collaboration 
with the agencies named in this inquiry. It should be noted however 
that prior to the institution's recent expansion and broadening of its 
core competencies, the programmatic synergies between Maryland Science 
Center and these agencies was limited by definition of scope and 
mission.
    Currently BodyLink, the Maryland Science Center's health sciences 
update center, collaborates and partners with other federal agencies--
primarily NIH, through its Science Education Partnership Award 
program--but does not at this time enjoy a relationship with the 
agencies named in this inquiry. However, topics like the studies of the 
effects on the human body of extended durations of time spent living in 
space are of interest to BodyLink staffers and Maryland Science Center 
and the opportunities to collaborate and deliver programming similar to 
that which is already in place in SpaceLink and TerraLink are currently 
tracking with our institutional collaborative goals.
    Beyond the Link areas of our core exhibits and programming, and in 
partnership with NOAA, Maryland Science Center has embarked on an 
exciting project entitled Science On a Sphere (SOS). This is an Earth 
visualization system developed by NOAA that projects a wide variety of 
data sets onto a large sphere to create dynamic global views of the 
entire Earth. Visitors observe hurricane development and prediction, 
tectonic plate movement and earthquakes, sea surface temperatures and 
their effect on global weather conditions, as well as observe global 
warming models and the potential effect on the Earth. Science On a 
Sphere is now a permanent exhibit at the Maryland Science Center. 
Having this technology also allows us to compare Earth to other planets 
and NASA data sets have been converted to show the Moon, Mars, Saturn 
and the Sun on the same sphere. We have, in collaboration with NOAA and 
NASA, developed Maryland Science Center staff-delivered, visitor-
centered, programs as well as produced prerecorded programs that 
explain the images being observed.
    We have also developed traveling exhibits. NIST was instrumental in 
providing technical information for our Titanic Science exhibit. NIST 
performed analyses of rivets from the Titanic hull that were found at 
the wreck site to determine the strength level of the rivets, so our 
information would be factual. One of the questions surrounding the 
Titanic disaster was whether or not the steel used to make the rivets 
was of poor quality--and if that might explain how the ``watertight'' 
features failed. By presenting the data and the surrounding conditions, 
visitors were left to their own conclusions as to how the rivets might 
have contributed to the Titanic's end.
    Although we were not asked to speak directly to our collaboration 
with other federal agencies, two examples of Maryland Science Center 
collaboration with the National Institutes of Health are funding and 
content expertise for a traveling exhibit titled: The Changing Faces of 
Women's Health and funding and content expertise for our permanent 
health sciences update center BodyLink.
    With the exception of Science On a Sphere, the evaluation of 
permanent exhibits has been done by the Maryland Science Center. The 
accepted practice for informal education institutions, as exemplified 
by the Association of Science-Technology Centers, (ASTC), has been to 
include a front-end evaluation as part of any project. This involves 
determining what the public knows about the subject through focus 
groups and questionnaires. The project is then judged as to what is 
feasible to build and install, and through prototyping of exhibit 
pieces, determining if the public will understand the idea or concept 
presented by the various exhibit pieces. When the project is complete, 
a summative evaluation is performed to see if the stated goals of the 
project have been met. This is done through direct observation and 
public feedback solicitation, usually by an independent third party. If 
there are changes to be made with the project, a final, remedial 
evaluation is made to ensure that the intended knowledge transfer has 
been made. (Attachment B and Attachment C accompanying this testimony 
illustrate an example of this evaluation process which we completed as 
part of our development of our permanent Earth science and dinosaur 
exhibit. The exhibit was produced with funding and content support from 
NASA).[Located in Appendix 2: Additional Material for the Record.]
    With educational programs, the process is similar. Educators are 
solicited for areas where an informal experience can add to the 
students' understanding of the subject matter. When the programs are 
developed and delivered, feedback is given directly by the educators 
who bring their students to the center for the educational enrichment. 
These accepted evaluation procedures are required for National Science 
Foundation or National Institutes of Health grants and have been used 
by science museums for other federally-sponsored exhibits and programs.
    Using the accepted evaluation practices mentioned above, NOAA, NASA 
and the Science On a Sphere users group (made up of all centers with a 
sphere installed as well as those centers where spheres are being 
installed), have embarked on specific evaluation methods for the 
exhibit as well as the programs centered around the exhibit. Each 
funded NOAA project contains a detailed evaluation plan. NOAA asked the 
Maryland Science Center to lead a discussion of all SOS users on the 
different SOS evaluation methods used to date and what method of 
prototyping and evaluation will best help science museums develop 
understandable exhibits and programs for the target school group 
audiences and the general public.
    Using front end evaluation (a copy of the full evaluation can be 
found in Attachment A; see Appendix 2: Additional Material for the 
Record) of the Science On a Sphere exhibit--again conducted by third 
party evaluators--Maryland Science Center was able to implement and 
utilize the SOS exhibit in response to the feedback collected during 
the evaluation process. In our case, we developed specific staff-led 
programs to augment the SOS experience for our visitors. 
Overwhelmingly, the display of the information and data, the quality of 
the presentation, overall appeal of the technology, and understanding 
of the purpose of the exhibit was extremely positive. Once operational 
at Maryland Science Center however, our exhibits team noticed that when 
the SOS exhibit ran in auto-play mode using ``canned'' presentations, 
and no staff members were available to augment the presentation and 
answer questions about the data being presented, the level of 
engagement was short in duration. In general, when the SOS exhibit was 
facilitated by Maryland Science Center staffers, questions were 
answered, programming could be paused for explanation, and dwell time 
(time people spend at a specific exhibit) by visitors was very long in 
duration. When the SOS exhibit ran in auto-play mode--meaning the 
canned programs, with their taped narrative--the dwell time for 
visitors was far shorter. Visitors could not fully comprehend the auto-
play presentations and moved on to other exhibit areas more quickly. 
``Canned'' programming for SOS, absent a subject expert who could 
interpret the presentation for the casual enthusiast, was at too high a 
level. Programmers may have assumed too high a level of understanding 
on the part of the museum-goer and the exhibit was losing audience as 
the visitor became confused or could not fully understand the 
presentation.
    In response to this, Maryland Science Center exhibit team members 
installed interactive computer kiosks around the SOS exhibit that 
offered a more basic interpretation of the imagery and programming 
being presented when the exhibit is in auto-play mode. Visitors can 
glean basic understanding of the programming's more technical aspects 
by viewing a more basic interpretation on the interactive kiosk screen. 
Given this more basic knowledge, the visitor is given the tools 
necessary to gain a deeper understanding of the original intent of the 
more specialized canned programming. Program staff have also inserted 
more facilitated programs into the presentation schedule to engage more 
visitors more often using the SOS exhibit. To evaluate and measure the 
success of the remedial actions the exhibit team completed a dwell time 
study of visitor interaction with the SOS exhibit prior to the 
installation of the interactive kiosks to create benchmark dwell time 
statistics. Now that the kiosks are in place, the dwell time study will 
be repeated and the data will be compared to the benchmarks created 
prior to the kiosk's arrival. All the information gathered, the 
remedial actions employed, and the measures of success are being shared 
and reported to the NASA/NOAA led SOS users group so that the exhibit 
is as successful as possible at all locations around the country. As 
the installation of SOS exhibits began their roll out, greater 
collaboration between program creators and informal educators earlier 
on could have led to programs that did not need as much remedial 
modifications and augmentation. Partnering in the development stage may 
have gained SOS more audience and enthusiasm more quickly and in 
greater numbers.
    The case with SOS illustrates an example of how to improve 
scientific literacy. To improve the effectiveness of using informal 
education to help raise the level of scientific literacy in the United 
States, emphasis should be placed upon how non-classified information 
could be made available to the general public. Informal educators such 
as ASTC members have the ability to dispense highly technical knowledge 
in a manner that the non-scientific public can understand. In the case 
of the Maryland Science Center, we employ a cadre of on-the-floor 
explainers, many of whom have received training from the various 
federal R&D mission agencies to augment their own formal education. For 
every hour that we are open, we have staff members ready to engage our 
visitors to answer questions or offer ideas that stimulate meaningful 
discussions about the subject areas. Our goal is to make gaining this 
knowledge engaging and fun, while showing how science and technology 
affect our daily lives. In the process, our hope is that we will excite 
and encourage some of our student visitors to consider careers in 
science and technology.
    In the example provided about the installation, evaluation, and 
ongoing collaboration with the Science On a Sphere exhibit there is a 
working example of how federal agencies and science centers can better 
accomplish the goals of STEM education programs. We would encourage 
federal agencies to continue to expand ways that researchers and 
engineers collaborate with informal science education professionals to 
better engage the public. With SOS, scientists were made available to 
us, evaluation was encouraged, and NASA and NOAA sought our help in 
getting the message out. There was recognition that science centers, 
through their use of informal education, know how to engage visitors 
and spark their interest in the sciences. We know how visitors react 
and how best to present scientific discovery and scientific progress. 
And we know how to present it in ways that matter to them as 
individuals.
    The dialogue with science centers should be expanded--we want 
access to the knowledge and the discovery so we can distill, interpret 
and present it to the general public and school children in larger and 
more meaningful ways. We want to reach greater numbers of people more 
often so that scientific discovery becomes as much a part of a person's 
everyday life as it can be. We believe that greater understanding leads 
to greater acceptance that science is resident in everything we do--it 
doesn't just happen in a laboratory. Science centers like the Maryland 
Science Center are a resource in every sense of the word and deserve to 
be viewed as such--from resources (financial and otherwise) to 
expertise and knowledge. We believe greater utilization of science 
centers as resources for federal R&D mission agencies is the best way 
help raise the level of scientific literacy with the general public, 
including school children.

                      Biography for Van R. Reiner

    Mr. Reiner, a native of Lakewood, Ohio, holds a Bachelor's degree 
in chemistry from Wittenberg University and a Master's degree in 
chemistry from Lehigh University. He also has completed executive 
education programs at Duke University and the Wharton School of 
Business at the University of Pennsylvania.
    He joined Bethlehem Steel in 1974 and spent the first 10 years of 
his career as an engineer in the coke oven department at Bethlehem's 
Lackawanna, NY, plant. In 1984, he was transferred to the Burns Harbor, 
IN, Division serving as Assistant Superintendent, coke oven division. 
In 1987 he moved to Assistant Superintendent of the slab mill/plate 
mills department and in 1990 was promoted to Superintendent of that 
department.
    In 1995, Mr. Reiner was appointed Superintendent of the Galvanized 
Products Division, an operating unit of Burns Harbor located at 
Lackawanna. He became Senior Manager, Operations, for the Burns Harbor 
Division in 1997, and President, Bethlehem Lukens Plate, when that 
division was formed in May 1998 following Bethlehem's acquisition of 
Lukens Inc. He was then named President, Bethlehem Sparrows Point 
Division in August 2000.
    Professionally, Mr. Reiner is a past member of the board of 
directors of the American Institute of Steel Construction. He also held 
memberships in the American Iron and Steel Institute, Association of 
Iron and Steel Engineers, American Chemical Society, Western States 
Blast Furnace and Coke Oven Operators Association.
    Since the closing of Bethlehem Steel, Mr. Reiner has served as 
interim Director to the Maryland Science Center in Baltimore, MD, and 
in March of 2005, was named its permanent President and Chief Executive 
Officer.
    Mr. Reiner also serves on the Board of the Maryland World Class 
Manufacturing Consortia and is a founding member and Treasurer of the 
Partnership for Baltimore's Waterfront. In the past, he has served on 
the following Boards: Chester County, PA Chamber of Commerce, United 
Way of Chester County, Lackawanna, NY Chamber of Commerce, President of 
the Board of Lackawanna Community Development Zone.
    He and his wife, Shirley, are the parents of three children. They 
reside in Bel Air, MD.

    Chairman Baird. Thank you, Mr. Reiner. I would mention that 
there is no need to apologize to this committee for providing 
additional material and particularly evaluative. We appreciate 
the effort you folks have done to evaluate your program 
effectiveness and value the information very much.
    Dr. Weiss.

 STATEMENT OF DR. IRIS R. WEISS, PRESIDENT, HORIZON RESEARCH, 
                              INC.

    Dr. Weiss. Mr. Chairman, Members of the Subcommittee, thank 
you for the opportunity to participate in this hearing.
    My name is Iris Weiss, and I have spent the last three 
decades in research and evaluation in STEM education. I would 
like to share my thoughts on two issues, the first is how 
program evaluation can help the federal R&D mission agencies be 
more efficient and effective wherever they choose to focus 
their efforts to increase scientific literacy, and the second 
is where I believe these agencies should focus their efforts.
    To date the federal R&D mission agencies have not had a 
great deal of success in evaluating their STEM education 
programs. The same can be said for other federal agencies and 
for the broader field as well.
    How could evaluations be improved? First, the designs of 
proposed programs should be critiqued to determine if the 
interventions are likely to lead to the desired outcomes and 
how broad the impact would likely be, so programs could be 
improved before major costs are incurred. To take one example, 
the Department of Energy offered science teachers summer 
employment in their research labs. Program goals include 
deepening participating teachers' knowledge of science and 
improving classroom practice at their schools. But a design 
critique would suggest that the program would be unlikely to 
achieve its classroom impact goal. Few teachers would have the 
time and expertise needed to develop student activities that 
were accurate, developmentally appropriate, and feasible to 
implement with the resources likely to be available, nor would 
the participating teachers be likely to have the time to help 
other teachers improve their classroom practice. A design 
critique might well have predicted what in fact happened. 
Teachers appreciated being involved in the program, reported 
that it deepened their understanding of scientific content and 
scientific research, but it did not have much of an impact on 
classroom practice.
    Similarly, formative evaluation of pilot programs would 
help the agencies be more efficient and effective in their STEM 
education efforts. At the pilot stage, the focus is not on 
impact but rather on whether the program can be implemented as 
intended, how it might be improved, or if it needs to be 
discontinued.
    There is no question that impact evaluations need to be 
improved as well, as the just-released report of the ACC makes 
clear. At the same time I believe the challenges associated 
with rigorous evaluations of education programs have not been 
adequately acknowledged in that report. In addition, effective 
evaluations require not only strong research design but also 
appropriate outcome measures. Although developing instruments 
to assess teacher content knowledge and similar goals is not 
the responsibility of the federal R&D mission agencies, I 
believe that the lack of appropriate measures will continue to 
hamper the mission agencies in efforts to increase their 
program effectiveness.
    Where should the federal R&D mission agencies focus their 
efforts to improve scientific literacy? Based on my 
understanding of the complexities of the K-12 education system 
and the expertise of these agencies, I believe they should play 
a relatively small role in efforts to improve the formal K-12 
education system and a larger role in the informal science 
arena. For example, current evidence suggests that teacher 
professional development is most effective in improving 
classroom practice when it is closely tied to instruction. We 
know that teacher content knowledge is necessary, but it is 
becoming increasingly clear that it is not sufficient. Teachers 
also need to learn how to use their instructional materials 
well, how to figure out what their students understand and 
where they are struggling, and how to make appropriate 
instructional decisions based on that information. And teachers 
need opportunities to apply what they are learning in their own 
classrooms and to get constructive feedback. The federal R&D 
mission agencies certainly have the content expertise to 
provide professional development, but they have only limited 
understanding of K-12 education and they are not well-
positioned to provide professional development that is 
practice-oriented and sustained over time. For greater and 
broader impact, rather than developing their own programs, I 
believe the federal R&D mission agencies should consider making 
scientists available to serve as content resources for local 
professional development, helping shore up a major weakness of 
many of those programs.
    In contrast, I believe the federal R&D mission agencies are 
very well-positioned to make major contributions in the 
informal education arena along the lines we have just heard. 
Lack of coherence is not a problem here, as it is when we 
talked about curriculum development. In fact, having multiple 
pathways increases the likelihood that a large number of people 
will benefit from the available resources.
    Thank you.
    [The prepared statement of Dr. Weiss follows:]

                  Prepared Statement of Iris R. Weiss

    I appreciate the opportunity to testify before the Research and 
Science Education Subcommittee as it explores how the federal R&D 
mission agencies can contribute to improved scientific literacy for all 
students. There is no question that there is a wealth of scientific 
expertise in the various agencies, and considerable interest in helping 
to improve K-12 STEM education. Moreover, much of the work of these 
mission agencies focuses on areas that are of intrinsic interest to 
students, and can help motivate students both to engage in learning 
science and to consider STEM careers. With appropriate programs, 
carefully designed and well-implemented, the federal R&D mission 
agencies can both enhance levels of scientific literacy in the 
population as a whole and help ensure an adequate supply of well-
qualified STEM professionals for the future.
    It is important to recognize, however, that there are many more 
``good ideas'' (i.e., possible programs in areas of relevance to the 
agency's mission that have the potential to increase teacher knowledge, 
improve classroom practice, and enhance student knowledge and 
aspirations) than can possibly be implemented. There are substantial 
costs involved in designing, implementing, and evaluating new programs, 
and very limited resources available for these activities. Clearly 
there need to be criteria for deciding which of the many potentially 
good ideas should be implemented by a particular agency, and processes 
for deciding how to refine promising programs, which ones to scale up, 
and which ones to drop.
    The hearing charter makes clear that the goal is to increase the 
level of scientific literacy for all students. It is important, 
therefore, to consider the nature and scope of the K-12 education 
system that the mission agencies are trying to influence--50 states, 
more than 15,000 school districts, more than 100,000 schools, and 
millions of teachers responsible for STEM education, textbook 
publishers, test developers, etc. all making decisions that affect 
student opportunities to become scientifically literate. In addition, 
while there have been efforts to identify the core understandings that 
constitute scientific literacy, the volume of content included in 
national and State standards documents is still much more than can 
possibly be addressed in depth in the time available. Teachers and 
curriculum developers are faced with the unenviable choice of trying to 
cover it all, and doing so superficially; or taking seriously the 
recommendation for in-depth, inquiry-based learning, and leaving out 
some of the required content.
    In this context, current and potential programs have to be examined 
not only to see if they are effective in terms of adding value to the 
participating teachers/students, but also whether there are likely to 
be sufficient indirect benefits to a large enough number of students to 
make a meaningful difference in overall scientific literacy. At 
present, the problem I see with many federal programs, including those 
of the R&D mission agencies, is that they have very limited potential 
for leverage and in some cases simply add to the confusion.

How can program evaluation help federal programs be more efficient and 
effective in improving STEM education?

    The federal R&D mission agencies have not had a great deal of 
success in evaluating their STEM education programs; the same can be 
said for other federal agencies, and for the broader field as well. The 
natural desire to address the pressing problems in science education 
has taken precedence over the need to ensure that the investments will 
in fact have the intended impact. I believe that existing program 
evaluation tools and approaches can help increase the likelihood that 
STEM education programs supported by the federal R&D mission agencies 
(and others as well) will have a broad, positive impact.
    Evaluation is useful at various stages of a program. It can and 
should be used in (1) critiquing proposed programs to help make 
decisions about which ones to offer and to improve their designs; (2) 
monitoring program quality both to allow appropriate mid-course 
corrections and determine if the program is ready for rigorous 
evaluation; and (3) assessing program impact. At present, it appears 
that some of the tools and approaches that evaluation has to offer are 
used some of the time in some of the STEM education programs supported 
by the federal R&D mission agencies; their more consistent application 
would help improve the quality, impact, and cost-effectiveness of the 
agencies' efforts to enhance overall scientific literacy.
Evaluation as design critique
    In terms of program design, the first step any agency needs to take 
is to identify needs relevant to their mission and expertise. The 
federal R&D mission agencies have been very successful in this regard; 
virtually every program they offer can be readily mapped both to the 
mission of the agency and to the needs of the designated target 
audience(s).
    But targeting an appropriate need does not necessarily mean that 
the programs are addressing priority needs; one can assume that at 
least some students and teachers lack knowledge in any given area of 
science, and that many more students and teachers are likely to lack 
knowledge in areas at the cutting edge of science. Since any program 
aimed at increasing teacher or student knowledge could be justified by 
making the case that it addresses an existing need, simply being able 
to demonstrate need is not an adequate criterion for making decisions 
among potential programs. Given scarce resources, agencies need to be 
able to decide which of the many needs that are consistent with their 
mission are the most important to address, and which of those they have 
the capacity to address well. Only then does it make sense to move 
ahead with program development.
    Not having been part of the program planning discussions, I can't 
tell the extent to which the mission agencies' STEM education program 
rationales were made explicit and the various priorities debated. But 
my impression from the multitude of topics, grade ranges, and 
approaches the various agencies are using is that decisions have been 
made based on whether a particular idea was of interest to someone in a 
decision-making position, rather than whether the program was part of 
an overall, coordinated strategy for maximum leverage on K-12 
education.
    Even more important than whether a program targets a priority need 
is whether the proposed intervention is likely to have the desired 
impact; no matter how important the need, ineffective programs are a 
wasted investment. Conducting a ``design critique'' of a proposed 
program can help improve the design, or in some cases lead to a 
decision not to go forward with programs where the odds are stacked 
against them. And the very good news is that design critiques are not 
an expensive undertaking; they require only modest amounts of time from 
people who understand both the system that is being targeted for 
improvement and what has been learned in prior efforts.
    We need to pay more attention to the fact that STEM education 
programs that either have little likelihood of impact, or will impact 
only a small number of teachers/students, are not going to make much of 
a difference in overall scientific literacy. Again, the criterion of 
likely impact based on prior research and the ``wisdom of practice'' 
seems not to have been uniformly applied in the STEM education programs 
offered by the federal R&D mission agencies.
    To take one example, the Department of Energy has at various times 
offered science teachers summer employment in their research labs, an 
expensive undertaking given the costs of salary, transportation, and 
lodging. The goals of the program have been to deepen participating 
teachers' knowledge of science, and to improve instruction not only in 
the participating teachers' classrooms, but in those of their 
colleagues at the school as well.
    Developing a ``logic model,'' a standard tool in program 
evaluation, would have enabled the designers of that program to see 
that there were major holes in the program's theory of action, places 
where the links between activity and impact were weak at best. One 
could readily make the case that teachers would learn more science, and 
learn more about scientific research, by being placed in a research 
laboratory. However, the science content teachers were learning was 
likely to be well beyond what their students would be expected to 
learn, and they would not have the sophisticated equipment needed to 
carry out the investigations. Few teachers would have the time and 
expertise needed to develop instructional activities to make the 
activities developmentally appropriate for their students and feasible 
to implement with the available resources; nor would participating 
teachers have the time to help other teachers apply what they had 
learned. Thus, while teachers who participate in these kinds of 
programs often report that they gained a great deal from these 
experiences, it should not be surprising that the improved classroom 
practice that was a major goal of the programs rarely materialized. In 
this case and many others supported by federal, state, and local 
agencies, considerable resources have been devoted to programs where 
lack of classroom-level impact could have been anticipated.
Formative evaluation to enable mid-course corrections and determine if 

        PROGRAMS ARE READY FOR RIGOROUS EVALUATION

    Given the start-up costs associated with the development of any new 
program, it make sense to fund only those that have great potential to 
begin with, and then based on the lessons learned during implementation 
to refine the programs to get the kinks out. Evaluations of the mission 
agencies' STEM education programs would also be improved by more 
systematic attention to monitoring the quality of program 
implementation and use of the resulting feedback.
    From an external perspective, the fact that some initiatives have 
been modified over time suggests that at least some of the federal R&D 
mission agencies employ formative evaluation strategies for at least 
some of their STEM education programs. It is less clear whether the 
STEM education programs supported by the federal R&D mission agencies 
use evaluation for quality control purposes when programs are expanded. 
Often the people who design a program, e.g., for teacher professional 
development, are able to implement it well, but when the program is 
expanded the quality tends to suffer. It is important both to monitor 
initial program implementation and fine-tune the design as needed, and 
to monitor the quality of implementation during scale up. Ideally, 
evaluations of the quality of implementation would include observations 
of program activities by people who have expertise in both content and 
the target populations; interviews with key stakeholders, including in 
many cases students, teachers, administrators, and parents. Often it is 
appropriate to collect some interim data on impact to see if the design 
needs to be fine-tuned, or additional support provided to program 
implementers.
    Sometimes a preliminary evaluation provides evidence that a program 
is unlikely to achieve its goals, so a more rigorous evaluation is not 
necessary. For example, my organization was once asked to evaluate a 
statewide program that had the goal of ``transforming elementary 
science education.'' One of the primary interventions was having STEM 
faculty visit classrooms--typically once a semester--and model for 
teachers how to conduct science demonstrations. The client wanted 
evidence to see if this strategy was paying off in terms of improved 
classroom practice. Recognizing the limitations of survey self-report 
data, they asked that we do classroom observations, which would have 
required site visits to a fairly large number of treatment and 
comparison classes, clearly an expensive undertaking.
    From our perspective, finding out that something that could not 
possibly work in fact did not work seemed to us to be a poor use of 
both our time and taxpayer money; we convinced the client to let us 
interview a small number of teachers before committing to a more 
extensive evaluation. Teachers told us that (1) they were happy to have 
scientists visit their classrooms because the kids enjoyed it and got a 
better sense that scientists were like most people, not nerdy beings in 
laboratory coats; (2) they thought it would be a good idea if they did 
demonstrations like the scientists had done, but acknowledged that they 
rarely did so--they didn't know whether the demonstrations would 
``work;'' they didn't have the necessary materials; and they were 
concerned that they wouldn't be able to answer questions students 
raised. In this case we were able to convince the client to forego a 
rigorous evaluation, but not, unfortunately, to revamp the clearly 
ineffective program.
    As another example, if materials have been developed for classroom 
use, but initial evaluation data show that teachers aren't using the 
materials because of they do not appear to be well-aligned with state 
standards, time and effort spent doing a careful evaluation of impact 
on student learning would not be warranted. Given the substantial costs 
involved, only programs that have a reasonable likelihood of 
substantial impact and can be implemented well should be subjected to 
rigorous evaluation.
    It is particularly important to provide incentives for agency 
personnel to use evaluation feedback for program improvement, rather 
than allowing people to continue to implement poorly designed, 
inadequately implemented, or ineffective programs. Unfortunately, there 
appear to be pressures at every level of the system for people to 
overstate the success of their programs, highlighting positive aspects 
and glossing over problems, which may help explain the observation that 
almost everything appears to work, but nothing much changes.
Summative evaluation to assess program impact
    What most people mean by program evaluation has nothing to do with 
design critique or studying the quality of implementation; rather 
evaluation is typically equated with an assessment of the impact of a 
particular activity or set of activities. It is important to recognize 
that rigorous evaluation is very difficult, and it is therefore not 
surprising that the federal R&D mission agencies have encountered many 
challenges in assessing the impact of their STEM education programs. 
First, as a profession, we lack instruments to measure many of the 
outcomes we care about. For example, many STEM education programs over 
the last several decades have aimed to deepen teacher content 
knowledge, but until recently there were no instruments of demonstrated 
validity and reliability that were feasible for use on a large scale; 
even now such instruments exist for only a few topics. As a result, 
program evaluations have had to depend on notoriously suspect measures, 
such as asking teachers if they thought their content knowledge had 
improved! Programs targeting student knowledge have faced similar 
problems, as it has proven difficult and costly to develop measures of 
conceptual understanding; existing instruments are more likely to 
assess student knowledge of vocabulary or the apocryphal n steps in the 
``scientific method,'' rather than the in-depth understanding sought by 
STEM education programs.
    Even if appropriate measures were available, program evaluation has 
to navigate many other difficult challenges as well. Much attention has 
been paid of late to randomized field trials as the ``gold standard'' 
for evaluating program effectiveness. There is no question about the 
value of this approach, but there are many questions about its cost and 
feasibility. (It is particularly ironic that at a time when school 
districts are very interested in ``research-based'' programs, they are 
reluctant to participate in research because of the many pressures they 
are dealing with.)
    And as the recent report by the American Competitive Council notes, 
decisions about education policy and practice shouldn't be based on 
single studies, however well-designed. To be most helpful, an 
evaluation of program effectiveness should include multiple studies to 
answer question not only about whether the program achieves its desired 
outcomes, but also with whom and under what conditions. Finally, 
summative evaluations need to determine if programs have had unintended 
negative consequences.

Where should the federal R&D mission agencies focus their STEM 
education efforts?

    Based on my understanding of both the expertise of the federal R&D 
mission agencies, and the complexities of the K-12 education system, I 
believe these agencies should play a relatively small, supporting role 
in efforts to improve the K-12 education system, and a more direct and 
major role in the informal science arena.
    I suspect that was not the advice I was expected to provide, as I 
was asked to use what we have learned from research to make 
recommendations for the development of programs for pre-service and in-
service STEM teachers. (Before I explain my reasoning, I would like to 
point out that the research I and others have conducted on effective 
professional development has not progressed as far as one would hope, 
for a myriad of reasons. I already mentioned the lack of valid and 
reliable measures of teacher learning that are feasible for large-scale 
administration. In my view, it is both appropriate and essential that 
the Federal Government support such development efforts, as the private 
sector has few if any incentives to undertake this difficult and 
expensive work. But that is probably an appropriate task for the 
National Science Foundation rather than for the federal R&D mission 
agencies that are under consideration in this hearing. A second major 
problem has been the lack of a system to help ensure the steady 
accumulation of knowledge in key areas such as professional development 
for STEM teachers, again a challenge more for NSF than for the federal 
R&D mission agencies. Much of what we ``know'' about effective 
professional development is based on the insights of expert 
practitioners, rather than on clear empirical evidence. Richard Elmore 
has characterized the emerging consensus not as a substitute for 
research, but as a set of sensible propositions that can be used to 
guide practice and as hypotheses to be tested.)
    Although the research is far from definitive, the emerging 
consensus in the field is that professional development is most 
effective in changing classroom practice when it is closely tied to 
classroom instruction. Although there is no question that teacher 
content knowledge is necessary, it is becoming increasingly clear that 
teacher knowledge of content is not sufficient. Teachers also need to 
learn how their instructional materials can be used to help students 
learn science concepts; how to figure out what their students 
understand and where they are struggling; and how to appropriate 
instructional decisions based on that information. Teachers also need 
opportunities to apply what they are learning in their own classrooms; 
to share their struggles and triumphs with other teachers; and to get 
feedback they can use in improving their instruction. To be effective, 
it appears, professional development programs need to be intensive, 
extensive, and sustained over time.
    The federal R&D mission agencies clearly have the necessary content 
expertise, but they have only limited expertise in improving classroom 
practice. Thus they do not appear to be well-positioned to make a 
substantial contribution to teacher professional development of the 
nature and scale needed to increase overall science literacy. A number 
of the federal R&D agencies have offered professional programs for many 
years, but those programs typically reach only small numbers of 
teachers, in many cases ``volunteers'' who tend to be already 
relatively strong in content knowledge. To be effective in providing 
professional development, the mission agencies would need to create 
mechanisms to be able to stay current about what is being learned about 
effective professional development, and apply that knowledge to their 
professional development programs. And they would have to develop and 
maintain on-going relationships with a sufficient number of districts 
to make much of a difference.
    In my view, rather than having the federal R&D mission agencies 
develop and implement their own professional development programs, it 
would make sense to have agency scientists available to serve as 
content resources for local professional development. It would also be 
helpful if agency scientists were available to assist organizations 
engaged in the development of professional development materials for 
more widespread use.
    Similarly, I would not recommend that the mission agencies continue 
to develop instructional modules for classroom use. That is not to say 
that the materials the federal R&D agencies have developed are of poor 
quality, but rather that the K-12 education system lacks incentives for 
teachers to find those materials, or once found, to use them in their 
classrooms. Many science teachers are already hard-pressed to address 
the content included in state standards in anywhere close to the depth 
needed to develop student understanding, so adding in supplemental 
activities may be a difficult sell. In fact, having the mission 
agencies provide activities for classroom use can actually have a 
negative effect, adding to the incoherence in the system as different 
teachers make different decisions about what to leave out in order to 
make room for these activities. The teacher of the next course may well 
have some students who have engaged with the topic as addressed in the 
``regular'' materials, some with the supplemental activity, others with 
both, and still others with neither. In that situation, teachers can't 
win no matter what they decide to do.
    Just as serving as content resources for others engaged in 
professional development would be helpful, in my opinion the federal 
R&D mission agencies can contribute to the improvement of the K-12 
education system by making relevant data accessible to people who 
develop curricula, assisting them in understanding their potential not 
only for engaging students but also for helping them learn important 
content as outlined in national and State standards.
    In contrast to the cautious approach I recommend for involvement in 
the formal K-12 education system, I believe the federal R&D mission 
agencies are well positioned to make major contributions in the 
informal science arena, e.g., through the development of interactive 
exhibits for science centers on phenomena of interest to students, 
parents, and the general public; speakers' bureaus; activities for 
after-school programs; newspaper inserts; television programs, etc.
    Informal science education vehicles can also be used by the mission 
agencies to help ensure an adequate science pipeline, for example 
disseminating information about science career opportunities requiring 
different levels of education. The federal R&D mission agencies can 
sponsor programs for interested students to interact with scientists, 
with special efforts to encourage participation of students from under-
represented groups. Other efforts could target parents, to help ensure 
that their children keep their options open by enrolling in elective 
mathematics and science courses.
    While coordination of efforts among agencies to avoid unnecessary 
duplication of either infrastructure or resources is appropriate, lack 
of coherence is not an issue as it is in the formal K-12 education 
system. Different people will access different resources in different 
ways and at different times; having multiple pathways increases the 
likelihood that people will benefit from the available resources.

REFERENCES:

American Association for the Advancement of Science/Project 2061. 
        (1993). Benchmarks for science literacy. New York: Oxford 
        University Press.

Banilower, E.R., Heck, D.J., & Weiss, I.R. (2007). Can professional 
        development make the vision of the standards a reality? The 
        impact of NSF's local systemic change through teacher 
        enhancement initiative. Journal of Research in Science 
        Teaching, 44(3), 375-395.

Elmore, R.F. (2002). Bridging the gap between standards and 
        achievement: The imperative for professional development in 
        education. Washington, DC: Albert Shanker Institute.

Garet, M.S., Porter, A.C., Desimone, L., Birman, B.F., & Yoon, K.S. 
        (2001). What makes professional development effective? Results 
        from a national sample of teachers. American Educational 
        Research Journal, 38(4), 915-945.

National Research Council. (1996). National science education 
        standards. Washington, DC: National Academy Press.

                      Biography for Iris R. Weiss

    Iris R. Weiss is President of Horizon Research, Inc. (HRI), a 
contract research firm in Chapel Hill, NC specializing in mathematics 
and science education research and evaluation. She has had extensive 
experience in survey design and analysis and in mathematics and science 
education development, evaluation, and policy research. Dr. Weiss 
received a Bachelor's Degree in Biology from Cornell University, a 
Master's Degree in Science Education from Harvard University, and a 
Ph.D. in Curriculum and Instruction from the University of North 
Carolina at Chapel Hill. Before establishing HRI in 1987, Dr. Weiss was 
Senior Educational Research Scientist at the Research Triangle 
Institute, where she directed numerous education research, development, 
and evaluation projects. Prior to that, she taught science at the high 
school level in Ithaca, NY, and Chapel Hill, NC.
    Dr. Weiss has directed many of HRI's research, development, and 
evaluation projects and is responsible for quality control of all 
operations. She participated in the evaluation of NSF's model middle 
school mathematics and science teacher preparation and Triad curriculum 
programs, served on the assessment working group for the National 
Standards of Science Education, and chaired the National Research 
Council's Committee on Understanding the Influence of National 
Standards. Dr. Weiss has served on numerous advisory boards, and has 
provided consultation to the National Science Foundation, the US 
Department of Education, the American Association for the Advancement 
of Science, the National Science Teachers Association, the National 
Council of Teachers of Mathematics, the Congressional Office of 
Technology Assessment, the Council of Chief State School Officers, and 
the National Assessment of Educational Progress, and several private 
foundations.
    In addition to directing a series of national surveys of 
mathematics and science education, Dr. Weiss coordinated the Inside the 
Classroom national observation study. She served as Principal 
Investigator for several studies of systemic reform, including the 
cross-site evaluation of the Local Systemic Change professional 
development program, and co-authored the Handbook for Strategic 
Leadership to help mathematics and science educators apply the lessons 
learned from those initiatives to their practice. Dr. Weiss is 
currently Principal Investigator of a Knowledge Management and 
Dissemination project for NSF's Math Science Partnership program and 
co-PI of the Center for the Study of Mathematics Curriculum.

                               Discussion

    Chairman Baird. Thank you, Dr. Weiss. Fascinating series of 
perspectives from all of you, and I am grateful for your 
insights. I will begin the questioning and then in five minutes 
or so we will yield to Dr. Ehlers.
    One of the terms that came up repeatedly in various 
testimony was outcomes and the importance of looking at 
outcomes. What would each of you--and I will let each of you 
take a shot at this--what would be the most important outcome 
that you think could derive from participation by the mission 
agencies in the education endeavor? If you had to measure it--
and I recognize frankly some of it is rather ephemeral and may 
be difficult to quantify and I respect that. Set aside the 
issue--don't define the goal as something measurable, define 
something desirable first and we will worry about measure in a 
second. What would you think are the most important, left to 
right, Ms. Froschauer?
    Ms. Froschauer. One of the things I believe that would help 
classroom teachers the most, and that is my perspective, is 
research that would provide us with information concerning how 
best to teach concepts to students so that they truly can 
conceptually develop the ideas. The research base in many areas 
is lacking, and expanding that research base would be very 
valuable. And most of that can be done quite well with some 
longitudinal studies and look at how students actually learn 
over a long period of time and add to their conceptual 
understanding.
    Chairman Baird. Mr. Lach.
    Mr. Lach. I think what would help most is having the 
federal R&D mission agencies measure the way that they connect 
students and parents and teachers to the practice of science 
through their laboratories and their facilities and the way 
that they inspire that same population to get excited about the 
world of science and its practice, focus on the informal side.
    Chairman Baird. Dr. Nelson.
    Dr. Nelson. I would like to see an outcome that would allow 
the mission agencies to be full partners with the schools and 
the community colleges and the programs that help prepare not 
necessarily the very high-end, top 10 percent students who are 
going to be scientists and engineers, but help the forgotten 
majority of the students below that who are very necessary. We 
need three or four or five good technicians for every engineer 
we have got in the field. Those students need to be both 
excited to participate in a career like that, prepared through 
a good K-10 kind of preparation in the schools, but where the 
agencies can help is to take the next step through their last 
couple of years of high school into community college to 
prepare them to work on the cutting edge in the mission 
agencies as high-paid, well-prepared technicians and then 
support personnel.
    Chairman Baird. Mr. Reiner.
    Mr. Reiner. In my, or our arena, if you will I think the 
mission agencies have a role to play in terms of exciting not 
only the students but their parents and the general public 
because I think that we need to improve science literacy, we 
need to have people understand that science is all around them.
    I have a couple anecdotes that I think apply to that. Dr. 
Tom Jones, a former Shuttle astronaut, has told me that he 
first became interested in astronomy when he looked through the 
telescope at the Maryland Science Center as a young child. 
Also, the current doctor in charge of the Baltimore Public 
Health System remembers going to a science summer camp at the 
Maryland Science Center where he dissected a cow's eye, and 
that gave him his first example of medicine.
    So we have that opportunity, I think the federal R&D 
mission agencies can help us in terms of getting people, the 
public, students, to relate to the field.
    Chairman Baird. I notice in those comments the absolute 
centrality of hands-on experience which I know your facility 
is--just really the hallmark of your facility and in both those 
anecdotes, it was a hands-on experience that excited someone.
    Mr. Reiner. There is nothing like the face of a student 
who, in interacting with an exhibit, suddenly gets it.
    Chairman Baird. Dr. Weiss.
    Dr. Weiss. One outcome would be student interest in 
science, the wow factor that you referenced. A second would be 
general science literacy. We have measured that over time, and 
it has been pretty disheartening what the results have been. 
And if the agencies choose to work in the formal system, then I 
would say the outcome would be improvement at scale, for 
example, having science textbooks used by millions of kids have 
relevant applications as opposed to just a small number of 
people benefiting.
    Chairman Baird. The scale issue also is something many of 
you mentioned, and I think that is a central question: How do 
we scale this up? It is terrific if 100 teachers or 50 teachers 
or even only 20 can go to a summer workshop, but how do we 
scale it to reach the forgotten majority that Dr. Nelson 
alluded to? Maybe we will be able to get to that question in a 
moment. I would just conclude that we had a workshop out in my 
district with NSF and a bunch of teachers, and someone asked at 
one point what do you think the goal should be; and for me, the 
essence is, as a science teacher myself actually before this 
job, is wonder and discipline. You said the wow factor. I want 
somehow, and I think what the agencies can do is the wonder 
part. There is nothing like talking to a Space Shuttle 
astronaut or somebody under the ocean or dissecting a cow's 
eye. That wonder part is critical but the discipline part that 
helps them understand it takes some rigor to answer these 
questions.
    And with that, let me yield appropriately to a gentleman 
who knows first hand about that, the Ranking Member. I would 
also note the presence of Eddie Bernie Johnson, former Ranking 
Member of this subcommittee and a valuable asset to it. Thank 
you. Dr. Ehlers?
    Mr. Ehlers. Thank you very much. I really appreciate the 
testimony. I am a hands-on person as an experimental physicist, 
and I am a great believer in hands-on education as well. I am 
just curious, of the--you know, we are talking here about 
agency programs, agency ideas. How much of them are directed to 
the high-school student and how much to the elementary school 
student? Let me just get an idea from each of you what you 
think it is, let me say the ratio of high-school to elementary 
school? Ms. Froschauer?
    Ms. Froschauer. I don't know if I can give you an exact 
figure on that, however----
    Mr. Ehlers. I didn't expect exact figures.
    Ms. Froschauer.--there is a great deal more emphasis on 
high school than there is on elementary school which we know 
needs to--we need to have a shift in that. There needs to be 
more emphasis on elementary school because as so many people 
have expressed, when you are beginning in their education, we 
want to excite students so they actually consider taking more 
science as they go through the K-12 system.
    Mr. Ehlers. Michael?
    Mr. Lach. [no response].
    Mr. Ehlers. Okay. Dr. Nelson.
    Dr. Nelson. I think there has been--it moves around. It is 
a moving target. I think recently people have been focused on 
middle school, you know, which has been kind of a great 
wasteland of education in terms of what the focus and the 
coherence of the programs there, so it has been getting a lot 
of attention. My impression is it is kind of spread evenly 
across the board.
    Mr. Ehlers. Mr. Reiner.
    Mr. Reiner. I think the mission agencies would like to 
focus on high school. In our case we force them to tailor their 
content or we tailor the content to upper elementary and middle 
school.
    Mr. Ehlers. Okay. Dr. Weiss.
    Dr. Weiss. I haven't a clue.
    Mr. Ehlers. Okay. That is a perfectly valid answer. I don't 
either, otherwise I wouldn't have asked the question. Years ago 
I proposed, and unfortunately that part of the bill got removed 
as it went through the process. This is when we still had 
Eisenhower funding and we had a clearinghouse in Columbus. I 
proposed that that clearinghouse be charged to have a listing, 
an Amazon.com type of listing of all of the different units 
available from all the different public agencies, from the 
corporations, the chemical society, et cetera, et cetera. And 
by Amazon.com style I mean teachers who used a particular unit 
would send back their evaluations, you know, one star up to 
five stars and tell other teachers how they have used it so a 
high school chemistry teacher wanting to teach something about 
the gas laws would just go to that website, punch in gas laws. 
There might be 20 units that would fit, should read the 
evaluations, download the best one for her class the next day. 
Unfortunately, as I say, that got lost; but I still think it 
would be very useful.
    The other thing it seems to me would be useful in terms of 
the government agencies is some sort of STEM czar, and I don't 
mean that literally but something that coordinates all the 
different programs because we have an incredible hodgepodge out 
there; and how is a teacher to sort them out? How do they 
relate to each other? How can you effectually use them in the 
curriculum? It seems to me that having the soliciting I talked 
about plus some coherence to the Federal Government's efforts 
might be very beneficial for all teachers.
    Finally, let me just make a pitch. In picking up on what 
Mr. Reiner said about getting kids excited. I really think you 
have to start in the elementary school very strongly. If we are 
going to get the type of technicians we need, and I always say 
the jobs of the future require an understanding of the basic 
principles of math and science. I mean, I think that is pretty 
self-evident. So how do we convey that to the kids? I think you 
have to start in preschool already, emphasizing these ideas. 
And I am pleased I just managed to get attached to the Head 
Start bill last week. The Head Start programs also have to deal 
with what we call math readiness and science readiness, just 
learning simple skills of classification and enumeration, 
things of that sort. If we don't get them started early, they 
are not going to do it in middle school. If they don't do it 
there, they don't do it in high school, they get to the 
university and it is too late. They have to spend six years if 
they want to become an engineer. So I think it is crucial that 
these programs that we, collective we, develop for use in 
school be able to span the spectrum and really develop the 
interest.
    With that I will yield back.
    Chairman Baird. I will yield to Dr. McNerney in one moment 
but I would like to give the panelists the chance to respond to 
the particular issue Dr. Ehlers raised which seems intriguing 
to me. Is there such a clearinghouse as he has described and if 
not, would it be useful to you and in what way would it be most 
useful?
    Ms. Froschauer. There isn't a single clearinghouse for all 
materials that I have ever heard of. There have been some 
attempts to have clearinghouses for materials, and currently 
there is nothing; and it is beneficial to have a clearinghouse.
    Something else that is interesting is that currently when 
programs come out of an agency such as NSF, there can't be any 
kind of a rating system coming from NSF. Actually, they can't 
put their good NSF stamp of approval on it and say this is what 
everyone should be using. And so it even makes it more of a 
dilemma as to what really quality programs are out there for 
teachers to pull from.
    Chairman Baird. Mr. Lach.
    Mr. Lach. There is not a clearinghouse that I know of other 
than a web search which I know many of our teachers use. I 
would sort of add to the discussion, one of the sensibilities 
we have learned in Chicago is that just using curriculum by 
itself is necessary but not sufficient to get where we need to 
go. I spend an awful lot of time and energy connecting well-
designed curriculum to workshops, to in-school coaching, to 
assessments, to leadership development work, to grade-to-grade, 
school-to-school sequencing; and I think that part is really, 
really important and I would want to make sure any such 
clearinghouse really highlighted the connections between all 
the things that a teacher has to worry about. If we make it 
just a place to download a PDF of a gas law experiment, it is 
not going to be--it is necessary but it is not sufficient to 
get the kind of change we need.
    Chairman Baird. Other comments on that?
    Mr. Reiner. On the informal science education, the members 
of the Association of Science Technology Centers do share 
successful programs; and the website of ASTC is a place that 
you can go. Additionally, when we receive an NSF or NIH grant, 
we are required to share any findings we get with other member 
institutions, but I know of no other clearinghouse.
    Dr. Weiss. I would like to comment on that as well. Some 
teachers can pull together excellent materials and organize 
them into a coherent curriculum, but most teachers have neither 
the time nor the capacity to do that; and in our research, when 
teachers have been faced with more than they can cover in the 
time available, they make choices. But the choices tend to be 
based on what they believe is engaging to their students, and a 
lot of the prerequisites get lost, the coherent whole of 
children getting an opportunity to learn important science goes 
away.
    So the kind of clearinghouse approach I would recommend 
would be to make these ``wow'' factor types of things available 
to curriculum developers so they can get into the system at 
scale as opposed to through the work of individual teachers.
    Chairman Baird. Dr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. One of the big 
challenges we face is that STEM education is hard work. It is 
not easy to get a degree in math or physics or engineering. It 
takes a lot of hard work. And so part of our job is finding out 
what it is going to take to inspire this coming generation to 
do that hard work, to get involved and instead of going to the 
frat party that they want to go to, to actually do the work and 
this starts when they are young. This sort of drive to achieve 
something in science or engineering starts when they are young.
    Dr. Van Reiner, you had mentioned that you have scientists 
come in to your science center. I am wondering, what is the 
most effective thing in your observation to get kids wowed, to 
get kids excited and inspired about science? Is it direct 
interaction with scientists or is it hands-on? What works the 
best?
    Mr. Reiner. At the early ages, it is definitely the hands 
on. As they get into upper elementary or middle school, it is a 
combination of the hands on and the direct interaction. I can 
remember we had a USGS geologist, a young woman who was 
explaining what she did for her job; and this young seventh-
grader said to her, you really like what you are doing, don't 
you? And she said yes. And they pay you for that? So I think 
that is--I have got a thousand anecdotes. But I do believe that 
it is important for the scientist to have a face-to-face time 
with the upcoming generation if you will in order to be able to 
practice explaining things in everyday language.
    Dr. Nelson. I would like to comment on that, too. I think 
one of the issues of the pipeline that we don't talk about very 
often that is really important is we need to focus on getting 
kids in the front end of the pipeline. That is certainly true. 
But one of the things I have found in working with lots of 
students and trying to convince them that they might be 
interested in being scientists or engineers or going to work 
and even being science teachers is this notion that the pull on 
the other end of the pipeline isn't that strong. A lot of times 
people say, well, why should I be an engineer? It is not such a 
great job anymore. How attractive is it to get my Ph.D. in 
biology when I could get my business degree and become a post 
doc for the next eight years, and when I am 40 I might get an 
assistant professorship job? So I think we need to work on both 
ends of the pipeline to make the jobs for students very 
appealing, and the agencies can certainly work on that at the 
front end so that students see this as a possibility.
    Think back in the '60s when you were going through school 
and the community, the government, and everybody else was 
paying people to go to graduate school. The universities were 
booming, everybody who graduated could get a job right away. 
And now we have this huge pool of post docs and others out 
there. So the system is different today, and I think that does 
have an impact.
    Mr. McNerney. I will yield back.
    Chairman Baird. Ms. Johnson.
    Ms. Johnson. No questions.
    Chairman Baird. Okay. We will go to a second round. This is 
very interesting, and I appreciate it greatly.
    Let us move to the issue of scale a little bit because that 
is something that many of you mentioned and a common thread and 
also, Dr. Nelson, you talked about the challenge of--I want to 
sort of put out two issues, one is the issue of scale and the 
second one is the issue that Dr. Nelson talked about, about 
NASA proliferating educational material, posters, pamphlets, et 
cetera, but lacking some of the direction, the kind of things 
that Dr. Weiss maybe mentioned. So I am going to throw out 
those two topics and open it up to any of you about either of 
those topics that you want to address, either how we scale 
things up or how we watch out for this proliferation of 
materials that may be well-intentioned but not well-targeted. 
Mr. Lach, you have got direct experience with some of this, a 
big-scale system.
    Mr. Lach. I know a thing or two about scale. And I think 
that is really the key point. A lot of what we have done in 
Chicago has been based on Iris' work among others, and I think 
what we found out is we may not have all the answers but we 
know an awful lot more about how to leverage pretty dramatic 
change in a large system. It involves coherence, it involves an 
intense focus on capacity building, it means connecting 
instructional materials to assessments, to coaching, to 
support, it means focusing on leadership, and it means pulling 
everybody in the community together, all the museums, the 
universities, the labs, you know, to work on this together. It 
takes a long time and it takes an awful lot of work.
    Chairman Baird. How did you find time for the people and 
participating to do this? How did you get their buy-in in that 
system?
    Mr. Lach. Our work in Chicago began through a series of NSF 
systemic initiative grants. It took us several years to sort of 
figure out how to use them and how to use them well. And we 
began with a--we knew that need. That need was very clear. We 
began with a vision that said this is how we are going to move 
things ahead. We had 87 different math curriculum in Chicago at 
the K-8 level when we started. Now we are down to two at the K-
5 level. In a local-controlled district that takes an awful lot 
of convincing and cajoling to do. But other groups would sort 
of come along once they would see that sort of coherence. And 
it means, you know, tending to your stakeholders. I spent a lot 
of time and energy making sure our friends at universities, our 
friends at labs and museums understand the role that they are 
to play; and we do a lot of back and forth to make sure that 
that makes sense.
    Chairman Baird. What is your portfolio? Did someone crown 
you as the science education czar and give you some authority 
or is it just your persuasive personality that gets you through 
the day?
    Mr. Lach. I was a classroom teacher and had enough of a 
loud mouth that was sent to Washington to be a fellow, and then 
I learned an awful lot from Congressman Ehlers who sort of gave 
me a perspective about scale and about policy that I just 
didn't have at the classroom level. And then when I came back 
to Chicago, it took a little bit of time but they had me in 
charge of science and then science and mathematics.
    Chairman Baird. And you are given that respect. People 
acknowledge that is your role and they look to you for help and 
you get to give some guidance and governance I guess?
    Mr. Lach. Yes. I pause because I think--and this is a 
little bit of an aside. I think one of the things we are 
learning is that instruction and leadership in mathematics and 
science is really, really important; and it doesn't exist very 
much in the educational system. There is lots of pretty 
compelling research now that shows principals and school 
leaders, when they lead, the practice of leadership differs 
around leading and around mathematics and around science; and 
that is not something most of the people--most local and state 
education agencies understand and I don't think the system 
quite addresses yet. And it is a really important factor if we 
are going to leverage the kind of changes we need.
    Chairman Baird. Well, we appreciate the work you do, and I 
am also very grateful to hear that an NSF grant was used so 
well. You may be interested to know in our NSF reauthorization 
bill which Dr. Ehlers and I wrote together we have actually 
lengthened the time period for some of these demonstration 
projects that had been three years and you are out, basically. 
So that right when you get things where you have tweaked it 
enough to think it is finally working, you get the first class 
of students through, then it runs out. We are actually going to 
make that longer. It is also nice to know that somebody who has 
worked for Dr. Ehlers has gone on to do some great things. Not 
a surprise at all. You learned from the feet of the master.
    Dr. Ehlers is recognized.
    Mr. Ehlers. I am not sure how I could follow that up. Let 
me just say that when Michael spent a year in my office, he did 
a better job of learning how Congress operates than any fellow 
I ever had. He had an instinctive approach. And I think what 
really happened when he got back to Chicago is he realized that 
if anyone can understand how Congress works they can figure out 
how the educational system works.
    I think it wasn't a factor also that you arrived there 
shortly after the Chicago Public Schools were so-called 
privatized and that resulted in much greater centralization of 
authority and power, and that is something you could leverage. 
Is that correct?
    Mr. Lach. Yes.
    Mr. Ehlers. So it was a combination. But you have done a 
beautiful job there. Let me also answer one other question that 
I heard raised at some point and I don't recall where or how 
but that was about how one propagates this. And the best 
example of that I have seen is the American Meteorological 
Society offers a summer program for teachers at I think various 
grade levels. But one requirement of signing up for that 
course, and it is a very good course, it is about a month or 
more and the teachers are paid for their expenses, et cetera--I 
think there is a stipend--but one requirement is that every 
teacher, when they go back to their school system, have to set 
up workshops to teach 10 other teachers the same material. And 
then those teachers have to make a commitment to propagate it 
to their own school buildings. And so in a short time, the AMS 
curriculum went from being just taught to a workshop and ended 
up with 100,000 teachers using it. And you know, if somebody 
looked at that, perhaps it is easier than most to develop a 
concise unit. Kids can study clouds and weather and so forth so 
you know, there is no expense involved with equipment. But 
nevertheless, I thought it was a brilliant idea and something 
that we might pursue as well.
    I don't have any other questions on my mind at the moment. 
I just very much appreciate the breadth of experience 
represented here and the comments that you have made. It has 
given me a lot of insight of what we should be trying to do 
legislatively as well and to take into account the concerns you 
have raised. But I don't see any way we are going to break it 
without, as Michael has indicated--I believe our emphasis has 
to be professional development because before I came here I 
worked with a lot of schools and a lot of teachers; and I found 
the teachers wanting to teach science well, wanting to teach 
math well, but many were scared because they didn't know the 
subject material. Many others didn't really--they weren't 
scared but they didn't know how to tackle it and do it right. 
And professional development is the only way you are going to 
deal with that, and that is why the Eisenhower program was a 
good thing, even though it didn't always do it well. But that 
is something we lost in No Child Left Behind only because the 
mechanisms are there but the money was never provided. And so 
we actually lost something going from Eisenhower to No Child 
Left Behind.
    With that I will yield back.
    Chairman Baird. Did any others want to comment on the issue 
of scale or the other couple of questions?
    Dr. Nelson. I would like to make a quick comment on that, 
and it relates to professional development, too. One of the 
reasons I went back to the university that I went to, Western 
Washington University, is that it is a former normal school. It 
prepares roughly 500 teachers a year, and with the bulge of 
baby boomers moving through the system now, we have a real 
opportunity to provide the system with new teachers, with young 
teachers, with new ideas. And one of my stated goals at the 
university is that I have been at this for five years now. I am 
giving myself another five years to say in that time I hope to 
be graduating teachers from this institution who don't need 
remedial professional development. We can't always continue at 
the same model of assuming that the teachers in the schools are 
not at the level we want them to be. And so we are working very 
hard to try and graduate new teachers who know how to choose 
and use the best curriculum that is out there, who know what 
good instruction looks like and can have a beginning at least 
level of practice for that but also really importantly know how 
to collaborate with their peers and to partner with us at the 
university and others to improve their instruction focused 
around the performance of their students.
    So now I am starting to focus on not just teachers, but the 
administrators are such a huge role. We are finding in our NSF 
grant that probably the biggest factor on whether a school is 
making real progress in improving their science education 
programs is the principal who can either allow it or not allow 
those programs to happen and principal preparation programs 
now. Again, we are having a big turnover of principals. We have 
an opportunity to prepare administrators who understand what 
good instruction is, who can support professional learning 
communities of teachers. So hopefully in the future we can--our 
professional development will look differently. We will be able 
to ratchet it up to a different level.
    Chairman Baird. As the son of a principal who talked a 
great deal about the challenge of aspiring to be the academic 
leader of the institution but being often burdened with the 
budgeter, disciplinarian, police, liaison, et cetera, I think 
you are right. The academic leadership provided by the 
principal is absolutely critical, and I admire the notion that 
we are going to graduate people who actually know what they are 
doing when they graduate. It really is well put.
    Dr. Nelson. Yes, it is not so much the teachers in the 
field now don't know what they are doing. It is a different 
world. We have learned a lot in the last 20 years, and we are 
hopefully going to get that into the system.
    Chairman Baird. Dr. Weiss, you had some comments?
    Dr. Weiss. Yes, I want to build on what Pinky just said. It 
was a while back, a number of years ago, said that we are 
putting teachers out in immediate need of a 50,000-mile tune-up 
and that unless we improve pre-service education, we will 
always be at the point of remediation rather than continuing 
education. And we need teachers--like all professionals, we 
need continuing education. One of the root causes of the mess 
we are in I believe is that teachers are asked to try and 
address far too much content. As a result, our preparation 
can't be as focused as it needs to be, our professional 
development can't be as focused as it needs to be. It is 
scattered resources.
    A second comment I wanted to make, for reasons I have never 
understood, we are doing better in developing systems to 
support teachers and principals in mathematics education than 
we are in science education. The notion of professional 
development materials, models and materials that have been 
carefully crafted, evaluated, and improved, scaffolds the 
efforts of lots of people and lowers the capacity that is 
needed to do these well in the field. Building on what Michael 
said, we need efforts, direct efforts, and I don't believe this 
is a federal R&D mission agency responsibility, but direct 
efforts to build the capacity so that we people our school 
systems with people who are ready to take advantage of the 
knowledge and tools that are out there. I could go on longer 
but I will stop.
    Chairman Baird. Very well put. I am going to yield some 
time for Dr. Ehlers. He has a follow-up question.
    Mr. Ehlers. Thank you for yielding. I totally agree with 
you on that issue, and in terms of why science takes second 
seat to math I think is pretty evident. Everyone thinks that 
reading and math is something that everyone should understand. 
I find a lot of people who still think that science is only for 
someone who is going to be a scientist or an engineer. And even 
if they are teachers they don't regard it as highly important. 
That is changing. But the way I got into science education was 
just when I was a young professor and I was very concerned 
about scientific illiteracy and I asked myself, what can I do 
as one person? And I decided to set up a special course to 
teach future teachers both science and how to teach science. 
And I thought that was my role in life until it inadvertently 
brought me here.
    It is absolutely crucial. And I continue to speak 
constantly to university presidents, deans, about the 
importance of this and above all something I learned the hard 
way, that you have to get the schools of education to work with 
the academic departments. Right now almost every campus I 
visit, it is not that they dislike each other, they disdain 
each other. And the academic folks think the people in the 
Department of Education are all aflutter about education, 
psychology, and theories of education and they don't know how 
to teach themselves. And people in the education department 
think about scientists as up in the lofty skies. They don't 
know--have the slightest ideas about what it is like to teach 
in elementary school. They just don't talk to each other. I 
found I had to teach myself the lingo of the educators, studied 
educational psychology on my own so that I could communicate 
with them; and once that happened, we had a very good 
relationship and actually worked together.
    But it is tough. The easiest thing to do, easier than 
professional development, is to train the teachers right in the 
first place. It is going to take a lot of work on a national 
scale to make that happen. It is happening, you are doing it, 
Dr. Nelson, Arizona State University has done it quite well and 
Kansas started some good programs, Western Michigan University 
has. So it is coming. It is spreading across the country, but 
it is still not highly regarded in the academic world and it 
should be. Thank you.
    Chairman Baird. Thank you for those insights, Dr. Ehlers. 
Mr. Carnahan, five minutes.
    Mr. Carnahan. Thank you, Mr. Chairman, and welcome to the 
panel. I apologize for getting here late but I did want to jump 
into these questions here. In particular I want to talk about 
any successes that you have seen or ideas you can share with us 
about how we can do a better job with partnerships between the 
front-line teachers and the private sector and other science 
resources. I mean, my hometown is St. Louis as we have a wealth 
of higher institution entities there, higher education 
facilities there, private-sector entitles there like Monsanto, 
Boeing, non-profits like Missouri Botanical Gardens and the 
Dane Forest Plant Science Center. So we have got this wealth of 
science and engineering there in the community, yet we still 
seem to have the difficulty getting some of that translated 
into the classroom. And so I guess, kind of a two-part 
question, how can we do a better job partnering with those kind 
of resources to supplement what we do in the classroom, and the 
second part of that is with regard to streamlining our teacher 
certification process for some of those retirees that maybe 
have had full careers in one of those institutions, how they 
could become qualified to teach and be a part of really beefing 
up what we do on the front line of our schools.
    And I would start with Ms. Froschauer.
    Ms. Froschauer. Thank you, Congressman Carnahan. It is good 
to see you again.
    Mr. Carnahan. Good to see you.
    Ms. Froschauer. As you know, we recently were in your 
town----
    Mr. Carnahan. Yes, indeed.
    Ms. Froschauer.--for our major and national conference. And 
we had the ability to enjoy all of those wonderful science 
resources you just mentioned. We had about 10,000 science 
teachers there a couple months ago, so it is good to see you.
    I do want to say something about the cooperation and 
working with agencies. I know that Dr. Nelson had mentioned 
things like posters and things of that sort that have come out 
of NASA and other agencies are not highly utilized by teachers. 
But there are many partnerships and many collaboratives that 
have brought about materials and opportunities that have been 
very beneficial to science teachers. But they must be done 
carefully, they must be well-thought-out. They must be things 
that are actually going to be utilized by the teachers or 
beneficial to the teachers and translate into student learning. 
NSTA partnered with NASA, and in that partnership we considered 
what science teachers need. Now, many people have already 
alluded to the fact that science teachers are sometimes are 
uncomfortable with the content, especially when you get into 
elementary grades, middle schools many times, and even a high-
school teacher who may be teaching outside of their discipline. 
We know that that content is necessary. We also know that NASA 
has the capacity of providing scientists and the people who can 
actually contribute the content knowledge. And so we utilized 
that content knowledge, that expertise with NASA, pulled it 
together into something that would provide teachers with 
contact information.
    We also know that teachers are busy, and so they want to be 
able to gain that content information kind of in an on-demand 
sort of basis and so we have provided that actually on the web 
so that they can self-instruct, they can also self-evaluate and 
actually can develop that content knowledge, and we do that 
through something called science objects. And they are 
available free.
    Mr. Carnahan. Excuse me, is that a specific website, 
Science Objects?
    Ms. Froschauer. You can go into the National Science 
Teachers Association website. You will find science objects, 
and that is actually at the front of the wall so that everyone 
can have access to them. And we also partnered with NOAA and 
FDA on pulling together those sorts of things.
    And then during the St. Louis conference for instance we 
had many sessions that were delivered by NASA scientists, by 
NOAA scientists, and also they had space on our exhibit floor 
where they could disseminate materials and share information 
with teachers. So there are some very strong partnerships when 
you consider what the needs of the teachers are and what the 
resources are of the agency and how you could pull those 
together to benefit teachers.
    Mr. Carnahan. And so you think we can do the same type of 
things with local resources as well?
    Ms. Froschauer. You certainly can. And I think you probably 
already realize that there's a great deal of effort right now 
at the state level to have coordinating bodies established 
similar to what is being recommended through the NSB Council 
and also through the current ACC recommendations, that there 
would be a coordinating body that would look at all of the 
efforts that are taking place at a state level and that came 
out of the governor's report.
    Mr. Carnahan. I guess the second part of my question with 
regard to potentially being able to certify some of those 
retired experts, engineers, scientists that are in communities 
like that. Has there been any work going on that has helped to 
facilitate that that you're aware of?
    Ms. Froschauer. Well, every state seems to have their way 
of providing for that kind of certification. There are many 
opportunities for people to change a career path and go into 
science education, and it doesn't always demand that they go 
back to college for four years to get an education degree. It 
is actually an alternate path to science teaching. And every 
state seems to have a different way of going about that. That 
is something else that could really use some coordination 
because obviously in some situations it is more successful than 
in other situations.
    Mr. Carnahan. I guess I will ask this of anyone on the 
panel. Are you aware of any--certainly the state certification 
process varies widely, but are there any sort of best practices 
out there that, you know, a certain state is doing that we 
might try to copy or other states could look to as a leader in 
that area?
    Mr. Lach. One of the problems we have in Chicago is the way 
we certify teachers is complicated, it is bureaucratic, and it 
is not the same as our neighboring states. So I think there is 
possibility for ways to streamline that process and perhaps 
find some commonalities about what a high-school biology 
teacher or middle-grade science teacher ought to know and be 
able to move things ahead.
    Let me speak a moment about your previous question which I 
think is a fascinating one, sort of how would you think this 
through in Missouri or in St. Louis. I think it begins by 
having a clear plan, probably at the state or the LEA level. 
That takes a fair amount of work to put that together and a 
clear theory of action so you would understand why the 
different aspects of the plan might result in a boost in 
student achievement. If you have a plan you can then position 
the various partners to take on different roles of that.
    In Chicago, for instance, a big part of our plan is a core 
curriculum adoption and implementation. UFC does one of our 
math programs, UIC does another, Loyola does our science 
programs. They have become implementation centers within the 
district to move that along.
    The second part of our plan is to increase the content 
knowledge of our teachers by taking university courses. We have 
10 local universities that we provide tuition stipends for so 
teachers can go back to school and earn the state endorsement 
in mathematics or science. In our plan we also have a place for 
this inspirational, this wow factor. We use the tremendous 
museums that are in Chicago, the Museum of Science and 
Industry, the Field Museum, Adler Planetarium, others. We the 
Argonne and Fermilab. We use a lot of the community resources 
to do that inspiration sort of work.
    It has only been in the past year or two when we have had 
this plan and--we have kept with this plan for four years but 
it has only been in the past year or two where I have had 
enough political clout to be able to tell someone, you know, 
those posters that you are providing and those one-shot lesson 
plans, I don't think we really need that. We have got a plan 
that is working, we are sticking to that. But it is very, very 
difficult to do. We don't have a lot of resources in Chicago. 
It is pretty unconscionable to turn them away. Having a plan, 
having lots of partners invested in that plan enables us to 
bring that coherence and that support.
    And the last part of that that I also think that you might 
be able to help with is we need tools to sustain those sorts of 
plans and that kind of work. That means high level of capacity 
in districts and in states for leadership in math and science 
education and the appropriate amount of political cover so 
those people can make the kind of decisions that are going to 
help kids in the long run. It is very, very difficult work. It 
is really difficult to scale, and we need lots of resources and 
help from you all if we are going to give our kids what they 
really deserve.
    Chairman Baird. Thank you. I am going to ask Dr. Weiss a 
somewhat different question but appreciate the tremendous 
insights, and then Dr. Ehlers, and then we will open it up for 
final remarks if anybody has any burning issues. So you will 
get each--if you have got something you just haven't had a 
chance to say, we will get to that, too.
    Just one fairly brief question. Dr. Weiss, questions can be 
brief, the answers often are much longer but the ACC report 
talked about evaluation and the need for a control group 
design, outcome studies. I wonder if you have any--personally I 
have some mixed feelings about that with the internal and 
external validity issues but I would welcome your insights as 
an expert in this field.
    Dr. Weiss. There is no question that we need to be doing a 
more rigorous job of evaluating programs. I think that the 
report ignores or underplays some really key issues, one I 
mentioned earlier in terms of having measures of outcomes of 
interest. Another would be, when people talk about randomized 
control trials, they tend, although the report did talk about 
this, they tend to not realize that we need multiple such 
studies. A program that works in a rich, suburban district, you 
can't just now say it is going to work everywhere else, and 
that has been a problem.
    But the other is the realities of school districts. If we 
were going to try and evaluate let us say a good set of 
instructional materials, you would want to have some teachers 
using it and some other teachers not and you would want to do 
that for a long enough period of time so you could look at the 
differences. Teachers need opportunities to learn how to use 
the materials, practice, get feedback. School districts are not 
willing to do that. They can't have two simultaneous programs 
going on and create whole systems around it, and in these days 
with the pressures, all of the pressures on school districts, 
we are in this not-in-my-backyard. Everybody wants research-
based programs but nobody wants to participate in the research 
that will generate that knowledge. So I think there is a whole 
host of issues, on theoretical grounds you cannot argue. On 
practical grounds you can.
    Chairman Baird. Dr. Ehlers had a question and then we will 
conclude in a second.
    Mr. Ehlers. Just something I wanted to get on the record. 
If there is a lack--first of all, I wanted to ask, if there is 
a lack of coordination among federal agencies regarding STEM 
education programs, how would you recommend solving the 
problem? How should we coordinate it and who should be tasked 
with the coordination. Any ideas on that?
    Chairman Baird. I nominate Mr. Lach.
    Mr. Lach. I was afraid of that. The need is clearly there. 
I think what we found in Illinois is that different districts 
have different needs so I suspect there would have to be some 
sort of statewide localization to address some of those sorts 
of things. I think there also needs to be--I would encourage 
that the work of the coordinating--this coordinating body, I am 
not sure who it should be. I think an important role might be 
to provide really formative work to districts and states to 
help them get better. I get a report card every year when I see 
my test scores, but changing education systems, particular at 
scale, is a very complicated, murky business; and if I had a 
well-regarded report that told me based on the inputs I am 
putting in as well as the outputs, what I need to do a little 
more of, what I need to do a little less of, that would help me 
organize resources, redeploy my people in a way that would help 
sustain that sort of program. In Chicago, we would love that to 
be really transparent. We don't have anything to hide. We think 
we are doing pretty well, but we know we have a long way to go. 
So some sort of public report cards about both the inputs and 
our outputs which I think are already public I think would help 
us improve and would help make sure that mathematics and 
science were really on the agenda of everybody as we move 
things forward.
    Mr. Ehlers. Does anyone else want to respond? Dr. Weiss.
    Dr. Weiss. I think we need research that is focused on a 
smaller number of problems of practice. Right now the research 
enterprise, it is pretty wide open and so it doesn't tend--we 
don't have mechanisms right now for accumulating knowledge on 
key problems. Mr. Carnahan talked about best practice. We don't 
really have mechanisms now for knowing. I thought about the 
question of where are the good, lateral entry programs, and I 
suspect I know the parameters of what an effective approach 
would be but I don't have any data and I don't know that 
anybody has pulled that together. So we need mechanisms for 
accumulating knowledge. But we also need incentives for using 
that knowledge. I was struck by the comment in the ACC report 
that they saw no examples of a federal agency building on the 
knowledge or models of another federal agency. So I think it is 
capacity issues but it is also incentives issues.
    Mr. Ehlers. Who do you think would be the best agency or 
person to coordinate all that?
    Dr. Weiss. Every candidate that comes to mind has baggage, 
so nothing is quite coming to mind right now.
    Chairman Baird. The distinguished Ranking Member would be 
an outstanding choice.
    Dr. Nelson. Can I make one quick comment on that? I 
remember back it must have been in the late '80s there was a 
group called the Fix-it Committee, the federal Coordinating 
Committee on Science and Technology; and it started out with 
great promise I think because it was supported at a very high 
level from many of the different agencies in the--federal 
agencies, and then kind of petered out as the level of 
participation filtered down deeper into the organizations. And 
it seems like a committee like that that could stay at a very 
high level and provide a focus and some level of coordination 
supported somehow by Congress or someway. That is what you guys 
are good at, right? And would be able to maintain that focus 
rather than expecting to--you know, if you could keep a 
committee like that going for long enough, you might be able to 
bring some kind of a coherence and focus to the program.
    Mr. Ehlers. Any other comments? Thank you very much. I 
yield back.
    Chairman Baird. We have time in an outstanding group like 
this. I would open it up if anybody among you has any critical 
insights or issues we haven't had a chance to address 
throughout questioning that you feel would be a shortcoming if 
we didn't raise, let me give you an opportunity now. You don't 
have to, but if you feel like there is something that really we 
should put down.
    Dr. Nelson. I have a brief comment about research that I 
would like to make. There is no doubt that if you have a 
controlled laboratory condition or you can do controlled 
experiments like double-blind drug testing, things that that is 
a great way to learn things, but as a research astronomer, I 
can tell you somehow astronomers learn things and we can't 
control anything. And so it is possible by posing questions 
well and by doing a carefully designed observation and 
analysis, it is important to learn things about complex 
systems. To make a point that we can learn important things 
about the education system by carefully--by designing and 
carrying out careful observations and analysis of existing 
systems, then we can apply so not all research has to be--has 
to fit into this narrow----
    Chairman Baird. I think that is a great example and maybe a 
way of an appropriate analogy but would we have seen some star 
programs ourselves today. We didn't necessarily need a double-
blind study to observe the effectiveness of those stars.
    Dr. Nelson. Certainly they are important.
    Chairman Baird. Let me suggest--we were kicking around as 
this hearing moved forward, I think there is so much 
information that has been useful today that what we are going 
to do, we will have a--we have already scheduled a hearing with 
the mission agencies themselves for June 6th. We will provide 
the heads of those agencies with the testimony provided by you 
folks today because I think it is so outstanding I would hope 
they would incorporate the insights in their own work on the 
educational front. We are also exploring the idea of possibly 
posting this hearing, and Ms. Froschauer, we might like to talk 
to you about posting this hearing in some way where it would be 
accessible to your members. They could share some of the models 
they have heard about how, for example, the science museums are 
working, how the graduate education programs are working, how 
Chicago is making their changes, how they might design their 
research interventions, and then offer comments analogous to 
the approach Dr. Ehlers was talking about so that we could 
actually get further impact of your profound insights but also 
maybe some additional people pitching in and create a little 
bit of a dialogue, and that way we have this tool. So we will, 
if we may, talk to you about if there is a forum to do that, a 
bulletin board kind of model or something like that. Without 
any final comments on your part, Dr. Ehlers?
    Mr. Ehlers. Well, put it on YouTube.
    Chairman Baird. He said we could put it on You Tube and the 
students--well, we do have this extraordinary tool right now. I 
was saying to Dr. Ehlers when I was teaching psychology I came 
up with a pretty neat way to teach about standard deviations, 
little lab experiments you could do, published it in the 
Journal of Teaching of Psych if I remember and gosh, that is a 
rather inefficient way. It was a nifty little thing and it 
worked I think and hopefully some people adopted it and used 
it. But with the Internet you can get those things out there so 
well if there is a coherent way of using it. So we are going to 
try to model that through this hearing itself.
    With that, I want to thank our witnesses and our guests 
today and the Ranking Member and the staff for all their work 
and look forward to continue dialogue; and I am confident this 
will actually have some positive impact and appreciate very 
much your time and expertise, and the hearing stands adjourned. 
Thank you very much.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Linda K. Froschauer, President, National Science Teachers 
        Association

Question submitted by Representative Eddie Bernice Johnson

Q1.  The witnesses provided a range of views on how R&D mission 
agencies can best contribute to STEM education. To what extent is there 
a consensus among panelists about what the agencies can do well and 
what they are less well suited to do?

A1. Federal agencies should focus primarily on improving student 
achievement, teacher quality, and student engagement. Specifically, the 
agencies are well suited to:

    Make scientific laboratory experiences and equipment available to 
teachers and students (Dept. of Energy)

    Encourage scientists to work with teachers to further their content 
knowledge (Dept. of Energy)

    Work with universities, the science community and others on model, 
research-based programs to increase teacher effectiveness that can be 
replicated (Math and Science Partnerships)

    Develop and implement proven, effective, research based 
instructional materials and methods (NSF Instructional Materials)

    Recruit and retain teachers with majors in STEM fields (NSF, Noyce)

    Increase the content knowledge of in service teachers with long-
term, quality professional develop (NSF, Math and Science Partnerships)

    Support activities that encourage under-represented groups to enter 
and remain in the STEM fields (NSF)

    Increase the awareness and interest in STEM through informal 
science activities (NSF)

    Conduct and disseminate key research in all STEM education fields 
(NSF)

    Provide undergraduate grants and loan forgiveness for STEM teachers 
(Dept. of Education)

    The agencies are less well suited to develop curriculum or provide 
professional development. If this is done, it should be accomplished 
through strong partnerships. Although teachers enjoy receiving posters 
and activities for use in their classrooms, these materials do not 
support the development of conceptual understanding through a strong 
curriculum. In addition, many of the federal agency programs sponsor 
smaller, issue based contests and training for educators. These 
programs simply do not reach the number of teachers necessary to have 
an impact on student achievement.
                   Answers to Post-Hearing Questions
Responses by Michael C. Lach, Director of Mathematics and Science, 
        Chicago Public Schools

Questions submitted by Representative Vernon J. Ehlers

Q1.  You mentioned that the Federal Government could provide some 
critical ``political cover'' to decision-makers at local levels to help 
advance STEM education. Do you have any ideas on the best mechanisms to 
provide that cover/leadership?

A1. To best answer this question, let me take a step backwards and 
articulate some of the factors that in my perspective constrain the 
system for improving K-12 STEM education.

        <bullet>  The general public does not understand science or its 
        practice. Sadly, most members of the education establishment 
        (school boards, district offices, administrators, state boards 
        of education, principals, etc.) share this lack of 
        understanding about STEM issues.

        <bullet>  The political dynamics in most school systems work 
        against long term solutions. Given that most school boards are 
        elected to short terms, most superintendents in urban areas 
        last only a few years, it's difficult to institute broad, 5-10 
        year plans.

        <bullet>  We know much about large scale change, but have far 
        from a precise understanding about how to move large systems of 
        schools forward.

    These three factors are at the core of our inability to move 
solutions forward. I think the potential exists for the Federal 
Government to help alleviate some of these issues by establishing:

    Now, imagine if every state superintendent and the board president 
of the 50 largest school districts received a detailed ``audit'' of 
their mathematics and science program once a year. They already receive 
a performance report--in the form of the annual test that the state 
mandates. Yet test data merely tells states and districts what to 
improve, and doesn't help them decide how to improve it. The difference 
is critical.
    Most districts know the general direction they must travel, but 
lack a roadmap that shows them how to get there.
    The audit I'm imagining would be conducted by a well-respected, 
external organization. It would review the output data, certainly, but 
also the inputs--the systems and structures the state or district had 
in place that resulted in the outputs. For instance, there's pretty 
compelling data that shows a ``managed curriculum'' approach--a 
standards set of instructional materials for mathematics and science, 
coupled with workshop professional development and in school coaching 
support--is necessary for significant improvement. Another example is 
local school leadership capacity, as principal understanding of 
mathematics and science improvement strategies and processes also is a 
major contributor to student achievement. This set of standards or 
conditions for state/district improvement would be challenging to 
develop, but I'd posit that there exists enough consensus within the 
education community that they could be established. In the course of 
the audit, a team would visit the state/district, spend some time 
digging into both the achievement data and the programmatic data, and 
then prepare a public report to be shared. Perhaps the audit or report 
uses letter grades or a ranking to indicate the status of key aspects 
of a STEM program, so it is easily understood by the public and news 
media.
    Why would this help? Such a report would highlight both the 
summative and formative aspects of systemic improvement to all 
interested parties. As the reports were issued each year, trends and 
tendencies would emerge, enabling state/district staff to make 
adjustments and new decisions in light of their review. If they are 
issued with regular frequency from an external organization, much of 
the internal politics within states and districts would be muted. If a 
board decided to fire a superintendent and change strategies, they'd do 
so knowing there will be a report forthcoming that will hold them 
accountable to established national understandings. If a superintendent 
decided to put a large portion of next year's budget into a new reading 
program, the shift in resources would likely reflect negatively on 
their STEM education report. A board president could use lukewarm 
ratings on such a report to galvanize support for reform efforts 
throughout the state or city.
    Who could do this work? That's a difficult question, and probably 
the biggest problem with this entire idea. I think a research-focused 
organization like the National Academies could lead the development of 
the standards or conditions for large-scale improvement, probably 
commissioning some additional research in the process. I worry that the 
National Science Foundation doesn't have enough reach to other federal 
agencies--NASA, NIH, DOE, etc.--involved in STEM education, and that 
the Department of Education just doesn't have the respect of the 
scientific community to pull this off. A new not-for-profit entity, 
funded by foundations and business, probably wouldn't have the 
credibility either without really strong connections to the Federal 
Government, and I can't foresee a business model where this work would 
pay for itself in the out years. I'm left thinking that the best 
(though imperfect) answer would be a new agency under the governance of 
the National Academies--there's enough clout there to handle the 
academic needs, and enough impartiality to preserve the inevitable 
political fights that will ensue. But that's a considerably more 
activist role for them that would entail considerable rethinking of 
their organization and mission.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The witnesses provided a range of views on how R&D mission 
agencies can best contribute to STEM education. To what extent is there 
a consensus among the panelists about what the agencies can do well and 
what they are less well suited to do?

A1. I believe that the witnesses exhibited a large degree of agreement, 
particularly about the important role that the federal R&D mission 
agencies have to play in K-12 STEM education, the fact that much of the 
current work merely adds confusion and incoherence to an already 
complicated system, and that partnerships with states and district 
education agencies are essential if the work is going to significantly 
advance student learning.

                   Answers to Post-Hearing Questions

Responses by George D. Nelson, Director of Science, Technology, and 
        Mathematics Education, Western Washington University

Question submitted by Representative Eddie Bernice Johnson

Q1.  The witnesses provided a range of views on how R&D mission 
agencies can best Contribute to STEM education. To what extent is there 
a consensus among the panelists about what the agencies can do well and 
what they are less well suited to do?

A1. I think there is considerable consensus among the panelists. I 
would also like to raise one point where there is not disagreement 
among the panelists, but not consensus either.
    We agreed on the strengths that the R&D mission agencies could 
bring to STEM education:

        <bullet>  A high quality science and engineering, workforce 
        engaged in cutting edge research and technology development.

        <bullet>  World-class laboratories and facilities.

        <bullet>  The capacity to engage in long-term projects.

        <bullet>  Existing partnerships with university and industry 
        researchers focused on mission-related research.

        <bullet>  Charters to disseminate the results of mission 
        research broadly within the government, to industry and to the 
        general public.

    We also agreed on general weaknesses in the agencies with respect 
to STEM education:

        <bullet>  Lack of knowledge of the K-12 education system, now 
        it is structured and regulated.

        <bullet>  Lack of internal expertise in curriculum development, 
        effective instruction, and teacher preparation.

        <bullet>  Lack of expertise in education research and program 
        evaluation.

    If we accept these ideas, then it makes most sense for the agencies 
to target their efforts on informing the public and inspiring the next 
generation of STEM workers through the informal education community--
museums and media. Interactions with the formal K-12 education system 
should involve close partnerships with STEM education professionals and 
education researches/evaluators.
    There is some danger that a group deeply engaged its K-12 STEM 
reform, like our panel, sees the world predominantly through a single 
lens. It brings to mind the old saying, when all you have is a hammer, 
everything looks like a nail. As the only member of the panel with a 
background as a research scientist as well as K-12 STEM education 
reform, I feel I should comment on the role of the R&D mission agencies 
beyond K-12. I believe that the agencies can contribute more 
significantly to increasing the quantity and quality of the STEM 
workforce by focusing their efforts primarily on supporting faculty and 
students to engage in mission-related research.
    Given limited funding and the wide range of STEM education 
activities that can contribute to the goals stated in the recent 
reports Rising Above the Gathering Storm, and the Report of the 
Academic Competitiveness Council, each agency should focus their 
resources where they can have the largest impact. In the case of the 
R&D mission agencies, this is mission-related research as discussed in 
my formal testimony.

                   Answers to Post-Hearing Questions

Responses by Van R. Reiner, President and CEO, Maryland Science Center, 
        Maryland Academy of Sciences

Question submitted by Representative Eddie Bernice Johnson

Q1.  The witnesses provided a range of views on how R&D mission 
agencies can best contribute to STEM education. To what extent is there 
a consensus among the panelists about what the agencies can do well and 
what they are less well suited to do?

A1. The R&D mission agencies should stay away from writing curriculum 
and concentrate on being a content resource. As such, the agencies 
should partner with informal education institutions to help communicate 
the science behind the research and mission. Educating the general 
public will help the formal education institutions by having a 
knowledgeable public to reinforce the students' experience in the 
classroom.

                   Answers to Post-Hearing Questions

Responses by Iris R. Weiss, President, Horizon Research, Inc.

Questions submitted by Chairman Brian Baird

Q1.  The Academic Competitiveness Council recommended in its May 2007 
report that ``Funding for federal STEM education programs designed to 
improve STEM education outcomes should not increase unless a plan for 
rigorous, independent evaluation is in place, appropriate to the types 
of activities funded.'' The report later describes ``rigorous 
evaluation'' methods in a hierarchy with experimental methods, such as 
Randomized Controlled Trials (RCTs), as being the best methodology for 
showing the effectiveness of a program. In cases where an RCT was not 
feasible, the next best methodology would be to use a Well-Matched 
Comparison Group Study.

Q1a.  As an expert in evaluation techniques for STEM education 
programs, do you feel that these evaluation techniques are the most 
appropriate for determining the effectiveness of STEM education 
programs at the federal R&D mission agencies?

A1a. As I noted in my testimony to the Subcommittee, there is no 
question that STEM education programs, including those of the federal 
R&D mission agencies, should have more rigorous evaluations. Randomized 
control trials (RCTs) are an excellent evaluation strategy when 
feasible. However, there are a number of constraints to the feasibility 
of this approach that were, in my view, not adequately addressed in the 
May 2007 report of the American Competitiveness Council (ACC). First, 
random assignment to experimental and control groups, or quasi-
experimental designs with well-matched comparison groups for that 
matter, are of little use unless there are appropriate instruments 
available to measure outcomes of interest. For example, in Goal 2, a 
suggested metric for teacher quality is percentage of teachers 
demonstrating increased competency in a given area. However, there are 
only a handful of measures of teacher competency in specific science 
content areas, and even fewer in areas closely aligned with the 
missions of the federal R&D agencies, so in many cases even the most 
rigorous experimental designs would not provide useful information 
about the impact of a program on teacher knowledge. (I strongly 
recommend that the federal R&D mission agencies identify a set of key 
goals, and that NSF be asked to coordinate the development of 
appropriate measures of those goals so the agencies will be in a better 
position to judge the effectiveness of their programs in the future.)
    Second, in my view the ACC report underestimates the difficulties 
and costs of mounting randomized control trials, especially if the 
intervention is provided over an extended duration or if the impact 
needs to be studied over a substantial period of time. To avoid spill-
over from the experimental to the control group, teachers would need to 
refrain from collaborating with one another, which is directly counter 
to current recommendations for establishing learning communities within 
schools and districts. Alternatively, the school or district rather 
than individual teachers could be the unit of random assignment, but 
that typically results in a larger and much more costly experiment.
    Third, discussions of RCTs as the gold standard for evaluation tend 
to focus primarily on judging impact, downplaying the need to 
understand not just if a program is effective, but also how it works 
and under what conditions. A truly rigorous program evaluation would 
include exploring the nature and quality of implementation, as well as 
both proximal and distal outcomes, in a variety of contexts; one or two 
RCTs or quasi-experimental studies focusing only on the ultimate impact 
of a program, e.g., student achievement, leave many important questions 
unanswered.

Q1b.  What advice would you give the federal R&D agencies for 
developing evaluation methods to help them judge which programs are 
effective and whether proposed programs will be successful?

A1b. There are many, many needs in science education, and many possible 
approaches to improving the situation. But given the magnitude of the 
problems and the scarcity of resources for addressing them, it is 
important that funding be limited to programs that will make a 
substantial difference. In my view, the first step is for each proposed 
program--and continuations/modifications of existing programs--to 
specify its goals, in effect describing what would count as success. 
Agencies would be held accountable for achieving their specified goals, 
so there would be an incentive to identify goals that are both 
realistic and measurable.
    Once the goals of a proposed program are specified, the agency 
should describe the theory of action underlying the program design--how 
the planned activities are expected to lead to the desired outcomes--
citing available evidence that supports particular elements of the 
program design. For example, teacher professional development programs 
do not directly affect student attitudes, aspirations, or achievement. 
If a professional development program's goals include impact on 
students, then a case needs to be made how the program activities will 
result in those impacts. A sample theory of action might be: 
Professional development activities will focus on concepts A, B, and C 
(a small number of important concepts addressed in national standards 
for the target grade range that are relevant to the mission of the 
agency), providing opportunities for teachers to explore these science 
concepts, to learn about applications of these concepts in the work of 
the agency, and to consider how their instructional materials can best 
be used to develop student understanding of these concepts. Teachers 
will gain a better understanding of the content, applications of the 
content, and use of their instructional materials, and be able to use 
their enhanced knowledge in their instruction. Improved instruction 
will enable students to see the relevance of the targeted content, 
motivate them to learn these concepts, and lead to improved student 
knowledge of those science ideas.
    Is the program well designed to achieve its goals? Prior to 
expending resources on implementation, it would be important to have 
the program design, theory of action, and evidence presented in support 
of the design critiqued by a small number of external experts, similar 
to the process used by the National Research Council for review of 
committee reports. Program designers' responses to these critiques, 
indicating how reviewers' concerns will be addressed, would be reviewed 
by program managers with input from another external expert acting as 
``monitor''; only those programs that appear to have responded 
adequately to reviewers' concerns should be allowed to go forward.
    The next step that should take place before program implementation 
is the design of an evaluation to assess both the quality of 
implementation and its impact, using the program's theory of action as 
a guide. Suggested connections, for example between program activities 
and teacher content knowledge, or between teacher content knowledge and 
classroom practice, can be considered as hypotheses to be tested, and 
the evaluation plan should describe how that testing will take place. 
(It is important to note that an evaluation plan needs to specify both 
the measures to be used and the research design that will enable the 
evaluation to make the case that any gains that are found are due to 
the program and not extraneous influences.) Only programs that can be 
adequately evaluated should be considered for funding. It makes little 
sense to devote resources to an endeavor if you won't be able to 
determine if it is successful.
    If a program has a promising design, and can be evaluated, it 
should be piloted on a small scale to see if it can be implemented with 
quality and to check to see if the proposed measures are sensitive to 
the interventions. If not, there may be problems with the program and/
or there may be problems with the instruments, the program should not 
be scaled up until these problems are identified and resolved.
    Only when a program has cleared these hurdles--a program design 
that seems promising based on prior evidence, can be implemented with 
quality, and can be adequately evaluated--does it merit broader 
implementation, and then it needs to be carefully evaluated to see if 
the program is in fact achieving its goals, and under what conditions.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The witnesses provided a range of views on how R&D mission 
agencies can best contribute to STEM education. To what extent is there 
a consensus among the panelists about what the agencies can do well and 
what they are less well suited to do?

A1. I believe there was considerable consensus on a number of issues:

        <bullet>  The federal R&D mission agencies have an important 
        role to play in the informal education arena--including museums 
        and science centers--in increasing students' interest in 
        science, encouraging them to consider science careers, and 
        enhancing science literacy of the general public.

        <bullet>  It is typically not helpful for the agencies to 
        develop posters and activities for classroom use. Even if these 
        materials are very well aligned with national and state 
        standards, and many are not, they add noise to an already noisy 
        system, making it less likely that students will encounter a 
        coherent science curriculum.

        <bullet>  If the agencies are going to be involved in teacher 
        professional development, they need to partner with groups that 
        have expertise that goes beyond content knowledge to include 
        developing teacher pedagogical content knowledge and skill in 
        applying what they learn to the classroom using the 
        instructional materials selected by their districts.

Q2.  How would these programs need to be designed so that they can 
achieve classroom effectiveness?

A2. The teacher professional development programs carried out by the 
federal R&D mission agencies have the potential to enhance teacher 
content knowledge. (It is difficult to know the extent to which they 
have actually done so, as in the absence of appropriate measures, 
evaluations of these and many other programs have had to rely on 
teacher self-report to assess impact.) Getting transfer to classroom 
practice has proven to be more difficult. The evidence we have 
available suggests that to foster improved classroom instruction, 
professional development needs to be sustained over time, include a 
focus on pedagogical content knowledge, such as common student 
misconceptions in a specific content area, how to assess student 
understanding of the target concepts, and how to use that information 
to improve teaching and learning. In my view, the agencies are not 
well-positioned to provide sustained, professional development focused 
on helping teachers not only learn content, but also apply that content 
to their instruction, but if they are going to do so, it would be 
helpful if the agencies partnered with groups that have the necessary 
expertise.
    In contrast, I believe the agencies could make an important 
contribution by providing opportunities for prospective secondary 
science teachers to have an authentic research experience as part of 
their pre-service, or lateral entry, preparation, a much less expensive 
and potentially more scalable strategy than current programs targeted 
at that goal. Each of the agencies could develop research modules 
relevant to their mission and aligned with national standards that 
could be incorporated into existing college/university courses, with 
college/university faculty and/or agency scientists serving as mentors 
depending on the context.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    FEDERAL STEM EDUCATION PROGRAMS

                              ----------                              


                        WEDNESDAY, JUNE 6, 2007

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:40 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Jerry 
McNerney [Acting Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    Federal STEM Education Programs

                        wednesday, june 6, 2007
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    The purpose of the hearing is to review the K-16 science, 
technology, engineering, and mathematics (STEM) education activities of 
federal agencies and to explore current efforts for the improvement of 
interagency coordination and evaluation of programs. In addition, 
agencies will be asked to respond to the witness testimonies given on 
May 15, 2007, about the educators' views on the STEM education programs 
at federal R&D mission agencies. The witnesses provided Subcommittee 
Members with their suggestions for how those agencies could best 
contribute to STEM education nationwide and strongly recommended 
closely collaborating with educators in the field when developing 
programs.

Witnesses

Dr. Cora Marrett, Assistant Director, Directorate for Education and 
Human Resources, National Science Foundation; Co-Chair, Education and 
Workforce Development Subcommittee, National Science and Technology 
Committee

Dr. Joyce Winterton, Assistant Administrator, Office of Education, 
National Aeronautics and Space Administration

Mr. William Valdez, Director, Office of Workforce Development for 
Teachers and Scientists, Office of Science, Department of Energy

Dr. Bruce Fuchs, Director, Office of Science Education, National 
Institutes of Health

Overarching Questions

        <bullet>  What steps have agencies taken to improve 
        coordination with other federal agencies' STEM education 
        activities and, in particular, what is the status of the new 
        coordinating committee under the National Science and 
        Technology Committee (NSTC)? To what extent do agencies 
        collaborate with educators in the states and school districts 
        in developing STEM education programs?

        <bullet>  The recent report of the Academic Competitiveness 
        Council reinforces the need for better evaluation and 
        performance metrics for federal STEM education programs. What 
        plans do agencies have to improve evaluation of STEM programs?

        <bullet>  The Subcommittee received testimony at a hearing on 
        15 May on how the R&D mission agencies could improve the 
        effectiveness of their STEM education programs. The witnesses 
        were skeptical of the ability of the R&D mission agencies to 
        develop curricular materials for formal classroom instruction 
        and questioned the effectiveness of their teacher professional 
        development programs to improve teacher classroom performance, 
        while suggesting that the agencies' most important role is in 
        informal STEM education. The witnesses also strongly 
        recommended closer collaboration by the agencies with educators 
        in the field when developing STEM programs. What are agencies' 
        responses to the recommendations from these witnesses?

        <bullet>  How do the agencies determine priorities for their K-
        16 STEM education portfolios? Have the agencies' balance of 
        programs at graduate/post doctoral, undergraduate, K-12, and 
        informal education changed much over the past few years? Is 
        there a likelihood of a change in that balance in the future?

        <bullet>  How do agencies disseminate information about STEM 
        education programs? What organizations, both government and 
        private, have agencies partnered with to reach educators in the 
        field?

Background

STEM Education Funding
    In an effort to identify the contributions of federal agencies to 
improving STEM education, the Academic Competitiveness Council (ACC) 
was created in the Deficit Reduction Act of 2005 (P.L. 109-171) and 
charged with creating an inventory of STEM education programs across 
federal agencies, identifying the effectiveness of those programs, 
determining areas of overlap or duplication among programs, identifying 
target populations served by the programs, and recommending processes 
to integrate and coordinate those programs. After a year long study, 
the ACC released a report containing an inventory of $3.12 billion in 
funding for Fiscal Year (FY) 2006 for 105 STEM education programs. This 
inventory showed that nearly 50 percent of funding was directed toward 
Graduate/Post Doctoral programs ($1.4 billion) and another 30 percent 
was directed toward Undergraduate Programs ($943 million). K-12 
programs received approximately $574 million in funding and informal 
education programs received $137 million in funding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The agencies under the jurisdiction of the Committee on Science and 
Technology showed a similar balance of funding for STEM education 
programs with about two-thirds of funding going to post-secondary 
programs. The National Institutes of Health, whose representative has 
been included as a witness in this hearing due to agency's large 
investment in STEM education, reported a total of $856 million in FY06 
funding with 89 percent dedicated to the Kirschstein National Research 
Service Award for graduate/post doctoral fellowships ($761 million). 
NIH provided approximately $52 million for K-12 programs (six percent), 
$37 million for undergraduate programs (4.4 percent), and $5 million 
for informal education programs (0.6 percent).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The ACC set parameters of its inventory, limiting the programs for 
inclusion to those ``primarily intended to provide support for, or to 
strengthen, science, technology, engineering, or mathematics 
education.'' The Subcommittee on Research and Science Education, 
realizing that many educational activities carried out by the federal 
R&D mission agencies are contained within larger programs, worked with 
those agencies to provide a more in-depth view of those efforts. 
Excluding graduate education programs which already dominate mission 
agencies' STEM funding, an additional $256.65 million in FY06 
appropriated funds for K-12, undergraduate, and informal education 
activities was identified for a total of $1.01 billion in K-16 funding 
at NSF and the federal R&D mission agencies. (EPA reported no FY06 
funding for K-16 STEM education activities.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As can be seen in the table in Figure 3 K-16 STEM Ed FY06 
Appropriated Funds, roughly an equal amount of funding is dedicated to 
undergraduate activities as K-12 and informal education activities 
combined.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Evaluation of Programs
    Another consistent criticism of federal STEM education programs is 
a lack of evaluation methods which would show the level of 
effectiveness of a program. The ACC studied evaluation processes used 
by the identified STEM education programs and concluded in its report 
that ``there is a general dearth of evidence of effective practices and 
activities in STEM education.'' The ACC recommended that funding for 
any program should not be increased until it can show effectiveness as 
determined by rigorous evaluation methods. The report points to 
randomized control trials or, when that is not feasible, well-matched 
comparison group studies as the optimal methods for determining if a 
program is effective.
    This sentiment was echoed by the witnesses at the Subcommittee's 
hearing on May 15, 2007, Federal STEM Education Programs: Educators' 
Perspectives, who explained to Members that the absence of consistent 
performance measurements makes choosing among the vast array of 
programs difficult and time-consuming. Although all of the witnesses 
agreed that evaluations should be improved, two stated that they did 
not think that research methodologies such as randomized controlled 
trials would be practical or necessary for the majority of programs. 
Instead, they recommended that programs focus on developing design 
critiques of proposed programs and formative evaluations of current 
programs to guide decisions for building highly effective programs.
Coordination and Collaboration
    The federal agencies have also been criticized for their lack of 
coordination and collaboration between agencies and with state and 
district education agencies when developing programs. All of the 
witnesses in the May 15th hearing agreed strongly with the need for 
more effort by the federal agencies to work with educators in the 
field. The Mathematics and Science Director of Chicago Public Schools 
explained that materials and programs developed by federal agencies 
that do not fit into the district's curriculum and the state standards 
only add confusion and distract from the successful program they have 
built. The Director of Science, Technology, and Mathematics at Western 
Washington University commented, ``There is a huge inventory of poorly-
designed and under-evaluated mission-related curricula, posters, and 
lesson plans and associated professional development rarely used in 
classrooms and with no natural home in a coherent standards-based 
curriculum. The constant barrage of new resources adds to the noise in 
the system and contributes to the mile-wide, inch-deep problem.''
    In response to this issue, the ACC recommended that the National 
Science and Technology Committee (NSTC), which serves as the principal 
body for coordinating federal research and development, re-establish 
the Education and Workforce Development subcommittee to encourage the 
agencies to share knowledge and develop a federal strategic plan for 
effectively increasing STEM proficiency nationwide. The NSTC recently 
announced the subcommittee will be co-chaired by NSF, the Department of 
Education, and the National Institutes of Health. Dr. Cora Marrett, as 
the Co-Chair from NSF, has been asked to provide an update on the 
status of the NSTC subcommittee in this hearing.

Specific Questions for the Witnesses

Dr. Marrett

        <bullet>  As Co-Chair of the NSTC Subcommittee on Education and 
        Workforce Development, please describe the make up of the 
        group, current activities, and planned activities.

        <bullet>  What steps has your agency taken to improve its 
        coordination with other federal agencies' STEM education 
        activities? How has your agency improved its collaboration with 
        states and districts in developing STEM education programs? 
        Please describe your agency's commitment to establishing formal 
        mechanisms to improve in these areas.

        <bullet>  The ACC report reinforces the need for better 
        evaluation and performance metrics for federal STEM education 
        programs. How has your agency made improvements in its 
        evaluation of programs? How has this affected your agency's 
        funding for STEM education programs?

        <bullet>  How does your agency determine priorities for its K-
        16 STEM education portfolio? Has your agency's balance of 
        programs at graduate/post doctoral, undergraduate, K-12, and 
        informal education changed? Do you foresee a change in that 
        balance in the future?

        <bullet>  How does your agency disseminate information about 
        its STEM education programs? What organizations, both 
        government and private, have you partnered with to reach 
        educators in the field?

Dr. Joyce Winterton

        <bullet>  What steps has your agency taken to improve its 
        coordination with other federal agencies' STEM education 
        activities? To what extent does your agency collaborate with 
        educators in the states and school districts in developing STEM 
        education programs?

        <bullet>  The recent report of the Academic Competitiveness 
        Council reinforces the need for better evaluation and 
        performance metrics for federal STEM education programs. What 
        plans does your agency have for improvements in its evaluation 
        of its STEM programs?

        <bullet>  The Subcommittee received testimony at a hearing on 
        15 May on how the R&D mission agencies could improve the 
        effectiveness of their STEM education programs. (Witness 
        statements and video of the hearing can be downloaded at http:/
        /www.science.house.gov/publications/hearings<INF>-</INF> 
        markups<INF>-</INF>details.aspx?NewsID=1814). The witnesses 
        were skeptical of the ability of the agencies to develop 
        curricular materials for formal classroom instruction and 
        questioned the effectiveness of their teacher professional 
        development programs to improve teacher classroom performance, 
        while suggesting that the agencies' most important role is in 
        informal STEM education. The witnesses also strongly 
        recommended closer collaboration by the agencies with educators 
        in the field when developing STEM programs. What is your 
        response to the recommendations from these witnesses?

        <bullet>  How does your agency determine priorities for its K-
        16 STEM education portfolio? Has your agency's balance of 
        programs at graduate/post doctoral, undergraduate, K-12, and 
        informal education changed much over the past few years? Do you 
        foresee a change in that balance in the future?

        <bullet>  How does your agency disseminate information about 
        its STEM education programs? What organizations, both 
        government and private, have you partnered with to reach 
        educators in the field?

Mr. William Valdez

        <bullet>  What steps has your agency taken to improve its 
        coordination with other federal agencies' STEM education 
        activities? How has your agency improved its collaboration with 
        states and districts in developing STEM education programs? 
        Please describe your agency's commitment to improving in these 
        areas.

        <bullet>  The ACC report reinforces the need for better 
        evaluation and performance metrics for federal STEM education 
        programs. How has your agency made improvements in its 
        evaluation of programs? How has this affected your agency's 
        funding for STEM education programs?

        <bullet>  In response to the testimonies given on May 15th by 
        STEM educators, what do you recommend as the most effective 
        role your agency can play in improving STEM literacy?

        <bullet>  How does your agency determine priorities for its K-
        16 STEM education portfolio? Has your agency's balance of 
        programs at graduate/post doctoral, undergraduate, K-12, and 
        informal education changed? Do you foresee a change in that 
        balance in the future?

        <bullet>  How does your agency disseminate information about 
        its STEM education programs? What organizations, both 
        government and private, have you partnered with to reach 
        educators in the field?

        <bullet>  Please describe the process you utilized to gather 
        information for creating a strategic plan for the OWDTS 
        education programs. Include a synopsis of the information 
        gathered.

Dr. Bruce Fuchs

        <bullet>  What steps has your agency taken to improve its 
        coordination with other federal agencies' STEM education 
        activities? To what extent does your agency collaborate with 
        educators in the states and school districts in developing STEM 
        education programs?

        <bullet>  The recent report of the Academic Competitiveness 
        Council reinforces the need for better evaluation and 
        performance metrics for federal STEM education programs. What 
        plans does your agency have for improvements in its evaluation 
        of its STEM programs?

        <bullet>  The Subcommittee received testimony at a hearing on 
        15 May on how the R&D mission agencies could improve the 
        effectiveness of their STEM education programs. (Witness 
        statements and video of the hearing can be downloaded at http:/
        /www.science.house.gov/publications/hearings<INF>-</INF> 
        markups<INF>-</INF>details.aspx?NewsID=1814). The witnesses 
        were skeptical of the ability of the agencies to develop 
        curricular materials for formal classroom instruction and 
        questioned the effectiveness of their teacher professional 
        development programs to improve teacher classroom performance, 
        while suggesting that the agencies' most important role is in 
        informal STEM education. The witnesses also strongly 
        recommended closer collaboration by the agencies with educators 
        in the field when developing STEM programs. What is your 
        response to the recommendations from these witnesses?

        <bullet>  How does your agency determine priorities for its K-
        16 STEM education portfolio? Has your agency's balance of 
        programs at graduate/post doctoral, undergraduate, K-12, and 
        informal education changed much over the past few years? Do you 
        foresee a change in that balance in the future?

        <bullet>  How does your agency disseminate information about 
        its STEM education programs? What organizations, both 
        government and private, have you partnered with to reach 
        educators in the field?
    Mr. McNerney. Welcome to today's hearing, entitled 
``Federal STEM Education Programs.'' I personally want to thank 
everyone for coming here today. It is a nice audience for the 
proceedings of the Subcommittee on Research and Science 
Education.
    This hearing is part of an ongoing assessment that the 
Committee is undertaking to determine the role of the Federal 
Government in science, technology, engineering, and math 
education. We will be hearing today from four federal agencies 
about their progress in improving STEM programs. As a 
mathematician and someone who believes strongly in the need to 
expand educational opportunities for the next generation, 
today's hearing holds particular importance for me.
    In the past few months, this committee has done a 
commendable job in drawing attention to the difficulties that 
our country will face if we are unable to increase the number 
of future scientists and researchers. From the difficult but 
not insurmountable challenges laid out in the National 
Academies' ``Rising Above the Gathering Storm'' report, to 
witness testimony from businesses and universities, we have 
heard time and again that we need more STEM education graduates 
and teachers if we are to compete successfully in the global 
economy.
    This committee, under the leadership of Chairman Gordon, 
has succeeded in passing legislation that will pay significant 
future dividends, and will be a great legacy for this Congress. 
The issues we are discussing today are no less important. By 
hearing from educators on the front lines of the educational 
system, as well as the federal agencies that must implement 
STEM programs, we are laying out the groundwork for how to 
maximize the benefits of existing programs, which will 
invariably lead to future initiatives.
    Last month, the Subcommittee held a hearing with local STEM 
educators to learn their perspectives on federal programs. 
During witness questioning, I made a point to highlight what I 
believe to be one of the most important aspects of any 
discussion on STEM education, and that is how we can reach more 
students, and make sure that the United States is not only 
keeping up with the rest of the world, but is outpacing other 
countries. It is hard work to earn a degree in math or physics, 
as our Ranking Member might testify, and we need to make sure 
that our federal policies first and foremost benefit our 
students.
    Our previous witnesses shared with us their recommendations 
for STEM education improvements. That included working with 
states and districts to align federal programs to local 
standards. The witnesses also expressed frustration that there 
are currently no consistent guidelines for evaluating STEM 
programs across government agencies, and we have asked today's 
witnesses to respond to the comments and recommendations from 
the previous panel.
    In addition, the week before last month's hearing, the 
Academic Competitiveness Council released a comprehensive 
report on federal STEM education programs. Not surprisingly, 
the ACC assessment was the same as that of our witnesses. 
Collaboration between agencies and with State and local 
governments needs improvement. Programs should be designed 
around best practices, and a wide variety of educational 
measurements should be simplified into common ones. Each of the 
agencies invited to testify this afternoon were deeply involved 
in the ACC's process, and we have asked each of them to 
communicate today what changes they have made over the past 
year in order to achieve these goals.
    I am hopeful that today's witnesses will shed some light on 
how we have been spending scarce federal dollars on STEM 
education, and how we can improve our current practices so that 
we are benefiting students from kindergarten all the way up. I 
look forward to the discussion with our witnesses and how their 
agencies are planning, coordinating, and evaluating their 
efforts to improve STEM education.
    The Chair now recognizes Dr. Ehlers for an opening 
statement.
    [The prepared statement of Vice Chairman McNerney follows:]

           Prepared Statement of Vice Chairman Jerry McNerney

    Good afternoon, and thanks to everyone for attending today's 
proceedings of the Subcommittee on Research and Science Education. This 
hearing is part of an ongoing assessment that the Committee is 
undertaking to determine the role of the Federal Government in science, 
technology, engineering, and math education. We'll be hearing today 
from four federal agencies about their progress improving STEM 
programs. As a Mathematician, and someone who believes strongly in the 
need to expand educational opportunities for the next generation, 
today's hearing holds particular importance for me.
    In the past few months, this committee has done a commendable job 
in drawing attention to the difficulties our country will face if we 
are unable to increase the number of future researchers and scientists. 
From the difficult--but not insurmountable--challenges laid out in the 
National Academies' Rising Above the Gathering Storm report to witness 
testimony from businesses and universities, we've heard time and again 
that we need more STEM educated graduates and teachers if we can 
compete in a global economy.
    This committee--under the leadership of Chairman Gordon--has 
succeeded in passing legislation that will pay significant future 
dividends, and will be a great legacy for Congress. The issues we're 
discussing today are no less important. By hearing from educators on 
the front lines of the education system as well as the federal agencies 
who must implement STEM programs, we're laying the groundwork for how 
to maximize the benefit of existing programs, which will invariably 
improve future initiatives.
    Last month, the Subcommittee held a hearing with local STEM 
educators to learn their perspectives on federal programs. During 
witness testimony and in questioning, I made it a point to highlight 
what I believe to be one of the most important aspects of any 
discussion on STEM education and that is how we can reach more students 
and make sure that the United States is not only keeping up with the 
rest of the world, but out-pacing other countries. It is hard work to 
earn a degree in math or physics, and we need to make sure that our 
federal policies--first and foremost--benefit students.
    Our previous witnesses shared with us their recommendations for 
STEM education improvements that included working with states and 
districts to align federal programs to local standards. The witnesses 
also expressed frustration that there are currently no consistent 
guidelines for evaluating STEM programs across government agencies, and 
we have asked today's witnesses to respond to the comments and 
recommendations from the previous panel.
    The week before last month's hearing, the Academic Competitiveness 
Council released a comprehensive report on federal STEM education 
programs. Not surprisingly, the ACC assessment was the same as that of 
our witnesses--collaboration between agencies and with State and local 
governments needs improvement, programs should be designed around best 
practices, and a wide array of evaluation measurements should be 
simplified into common ones. Each of the agencies invited to testify 
this afternoon were deeply involved in the ACC's process and we have 
asked each of them to communicate today what changes they have made 
over the past year in order to achieve these goals.
    I'm hopeful that today's witnesses will shed some light on how 
we've been spending scarce federal dollars on STEM education, and how 
we can improve on current practices so that we're benefiting students 
from kindergarten and up. I look forward to the discussion with our 
witnesses on how their agencies are planning, coordinating, and 
evaluating their efforts to improve STEM education.

    Mr. Ehlers. Thank you, Mr. Chairman. It is a pleasure to be 
here to participate in yet another event centered on STEM 
education. You and I, I think, have both spent a good part of 
our lives dedicated to education, particularly science, 
technology, engineering, and math education.
    I do have to clarify that what the S, T, M, and E stand 
for, even though everyone in here should be familiar with it, 
but I have to do that for anyone who isn't familiar, because 
tomorrow, we are going to have debate, discussion, and votes on 
two stem cell bills, and so, all the papers are going to talk 
about for the next few days is votes on stem cell bills. We are 
not talking about a stem cell bill here today. In fact, I think 
this is, for the future of our nation, probably considerably 
more interesting.
    STEM education is a priority for this nation. It has to be 
if our nation is to survive, to continue to improve in the 
welfare of its own citizens, and frankly, also in the welfare 
of the world. Thanks to constantly increasing understanding of 
the importance of STEM education to our national 
competitiveness, I no longer have to go into a lot of details 
on this, but even with this improving awareness of STEM 
education, there is still more that the Federal Government can 
do to improve K-12 STEM education in the United States, and we 
clearly need improvement, because we are still ranked near the 
bottom of the developed countries in STEM education.
    The Academic Competitiveness Council was created by 
Congress to catalog and coordinate the STEM education projects 
and programs currently supported by the Federal Government. I 
commend the agencies that participated in this endeavor. For 
some time, I have been very concerned about the fact that the 
Federal Government and its agencies and also some private 
entrepreneurs in industry are developing these fantastically 
good programs, but there is no overall correlation of how they 
should be used in the classroom, how they fit in with the 
curriculum, and I think we should be working on that.
    I commend the agencies that have participated in this 
endeavor. The charge to the Academic Competitiveness Council 
was a challenging one, and the report reflects the breadth and 
depth of programs that exist at our federal agencies. From the 
start, I harbored a general concern that the ACC might 
overzealously seek out seemingly duplicative programs, and 
inadvertently encourage their demise, which happened a few 
years ago with the Math Science Partnerships. Someone in the 
basement of the White House noticed that we had two Math 
Science Partnerships, one in the National Science Foundation, 
one in the Department of Education, and said, ``A ha, 
duplication, we must get rid of one.'' Fortunately, this has 
not happened in your case on these issues.
    I think the ACC report sheds light on the diversity and 
uniqueness of the programs that are developed, and sends a 
clear message that Congress must authorize adequate evaluation 
capacity for federal STEM education programs. It is crucial 
that we evaluate these programs with the most appropriate and 
rigorous techniques available. Overall, the ACC report provides 
a useful foundation for future coordination and collaboration, 
so that federal agencies can work together to leverage STEM 
resources and communicate successes as well as failures.
    I am pleased that the recently reestablished National 
Science and Technology Council Subcommittee on Education and 
Workforce Development will follow through on actions 
recommended by the ACC.
    I look forward to hearing from our witnesses today about 
how they are moving towards increasing collaboration, as well 
as becoming more educated about the STEM education programs at 
their respective agencies.
    With that, I yield back the balance of my time.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    STEM education is a priority for this nation. Thanks to a 
constantly increasing understanding of the importance of STEM to our 
national competitiveness, I no longer must define what the ``S,'' 
``T,'' ``E'' and ``M'' stand for; today, my colleagues are familiar 
with the acronym. Even with this improving awareness of STEM, there is 
still more that the Federal Government can do to improve K-16 STEM 
education in the U.S.
    The Academic Competitiveness Council (ACC) was created by Congress 
to catalog and coordinate the STEM education projects and programs 
currently supported by the federal government. I commend the agencies 
that participated in this endeavor. The charge to the Council was a 
challenging one, and the report reflects the breadth and depth of 
programs that exist at our federal agencies. From the start, I harbored 
a general concern that the ACC might overzealously seek out seemingly 
duplicative programs and inadvertently encourage their demise. Instead, 
I think the ACC report sheds light on the diversity and uniqueness of 
programs, and sends a clear message that Congress must authorize 
adequate evaluation capacity for federal STEM education programs. It is 
crucial that we evaluate these programs with the most appropriate and 
rigorous techniques available.
    Overall, the ACC report provides a useful foundation for future 
coordination and collaboration, so that federal agencies can work 
together to leverage STEM resources and communicate successes as well 
as failures. I am pleased that the recently re-established National 
Science and Technology Council (NSTC) will follow through on actions 
recommended by the ACC.
    I look forward to hearing from our witnesses today about how they 
are moving toward increased collaboration, as well as becoming more 
educated about the STEM education programs at their respective 
agencies.

    Mr. McNerney. Thank you. The Chair thanks the gentleman 
from Michigan. If there are any Members, I don't see any here, 
but if there are any Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman.
    Today's hearing will be valuable to determine how to help the 
federal science agencies become more efficient in working together in 
their efforts toward STEM education.
    As you know, the Academic Competitiveness Council recently studied 
evaluation processes used by the various federal STEM education 
programs and concluded in its report that ``there is a general dearth 
of evidence of effective practices and activities in STEM education.''
    The ACC recommended that funding for any program should not be 
increased until it can show effectiveness as determined by rigorous 
evaluation methods.
    Witnesses at the May 15, 2007, Subcommittee hearing on ``Federal 
STEM Education Programs: Educators' Perspectives'' concurred with this 
sentiment.
    The absence of consistent performance measurements makes choosing 
among the vast array of programs difficult and time-consuming.
    Mr. Chairman, it can safely be said that all Members of this 
subcommittee care deeply about our scientific enterprise and are 
committed to supporting and streamlining it to most responsibly use 
taxpayer dollars.
    We hope to determine, from witness feedback, how to work toward 
that goal.
    Again, welcome to today's witnesses. Thank you, Mr. Chairman. I 
yield back.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman, thank you for hosting this hearing to examine the 
participation of federal agencies in STEM education and investigate 
approaches to improving coordination and evaluation of their programs.
    As we have all mentioned time and again, the Rising Above the 
Gathering Storm report provided us with both the knowledge that our 
nation's standing as the global leader in the STEM field is at risk as 
well as solid tools for policy-makers to counteract this worrisome 
trend. Chairman Gordon, you have been a tremendous advocate for 
improving STEM education in this nation. I am proud to be a Member of 
the Committee on Science and Technology--under your leadership we have 
successfully moved four major innovation initiatives through the House 
just in these past couple months.
    I am pleased that today's hearing again focuses on the important 
task of ensuring that our STEM programs are working to the best of 
their abilities.
    I am eager to hear our witnesses' assessments of these agencies' 
contributions to STEM education programs so that we can reflect on the 
successes and inefficiencies of the programs and seek to make 
modifications for improvement. Your first-hand experiences are vital to 
maximizing the resources we are offering our nation's aspiring 
students.
    To all the witnesses--thank you for taking time out of your busy 
schedules to appear before us today. I look forward to hearing your 
testimony.

    Mr. McNerney. At this time, I would like to introduce our 
distinguished witnesses. First, we have Dr. Cora Marrett, is 
that being pronounced correctly? She is the Assistant Director 
for the National Science Foundation Directorate for Education 
and Human Resources. Dr. Marrett is also the Co-Chair of the 
Education and Workforce Development Subcommittee under the 
NSTC. Welcome aboard, Dr. Marrett, and she is going to be 
chairing the new subcommittee, so it is a big burden on your 
shoulders, and I am looking forward to your words.
    Our second panelist is Dr. Joyce Winterton. She is the 
Assistant Administrator of NASA's Office of Education. Welcome.
    Third, we have Mr. Bill Valdez, Director of Office for 
Workforce Development for Teachers and Scientists at the 
Department of Energy. Welcome, this afternoon.
    And finally, we have Dr. Bruce Fuchs, and he is the 
Director of the Office of Science Education at the National 
Institutes of Health.
    Welcome all, and as our witnesses know, spoken testimony is 
limited to five minutes each, after which each Member of the 
Committee will have five minutes to ask questions. We will try 
and limit you to five minutes, but I understand if you have a 
few extra minutes to run over, but we do want to keep things in 
line.
    So, we will start with Dr. Marrett at this point. Would you 
begin your testimony?

STATEMENT OF DR. CORA B. MARRETT, ASSISTANT DIRECTOR, EDUCATION 
  AND HUMAN RESOURCES DIRECTORATE, NATIONAL SCIENCE FOUNDATION

    Dr. Marrett. Thank you very much, Chairman McNerney, and 
Ranking Member Ehlers. I do appreciate the opportunity today, 
and want to express my gratitude to the entire Subcommittee, 
for your longstanding support for excellence in science, 
technology, engineering, mathematics education, or STEM.
    The National Science Foundation appreciates the interest 
expressed by this subcommittee and others in coordination and 
evaluation of STEM-centered activities. In fact, the National 
Foundation, or NSF, takes pride in the actions we have 
undertaken over the years to enhance excellence across all 
levels of education and all fields of science and engineering.
    We owe our successes to the interactions we have had with 
communities of researchers, educators, diverse organizations, 
and indeed, other agencies. Those interactions have shaped 
significantly the content of our efforts, our evaluation of 
them, and our dissemination strategies. We are aware, however, 
that we must revisit continually the approaches and connections 
we cultivate.
    This said, these are some of the ways in which we are 
looking at what is the current situation, and how we respond to 
the challenges that now exist. The reconstitution of the 
Subcommittee on Education and Workforce Development of the 
National Science and Technology Council, to which you have just 
referred, that reconstitution should help us in NSF strengthen 
our ties to other federal agencies. I should note we already 
have a number of ties. One of our most recent is a partnership 
through a memorandum of understanding with NASA, and I am 
delighted that Dr. Winterton and I had an opportunity quite 
recently to host a conference in which we had participation 
from our other colleagues here at the table and other agencies.
    The subcommittee, the reconstituted subcommittee of the 
NSTC, the membership for it will come from the agencies 
represented on NSTC's larger Committee on Science. The 
representatives are to possess substantive knowledge of their 
STEM education portfolio within the agency, and these 
representatives are to have experience with evaluation research 
and, possibly, with the development and application of 
performance measures. So, in looking at what we need for that 
committee, we realize it is knowledge both of what agencies are 
doing, but familiarity to work on these very important issues 
of evaluation research performance measures.
    The subcommittee that I am referring to will address a 
broad range of issues related to STEM education. To use a 
phrase that is often heard these days, this will be attending 
from K to gray, because the education portfolio does indeed 
cover all phases of education and workforce activities. The 
subcommittee will provide a forum for exchanges of information 
and expertise regarding research and evaluation. On the one 
side, then, we have the development, the reconstitution of the 
Subcommittee on Education and Workforce Development.
    Another important development, of course, is the report you 
have referred to from the Academic Competitiveness Council, or 
the ACC. As we look at the report, it certainly serves to 
enhance our attention to evaluation. Now, within the National 
Science Foundation, there has been a requirement that there is 
evaluation associated with every program within the Directorate 
of Education and Human Resources. In fact, Congress had a lot 
to do with the directive that set this as expected.
    We have responded and indeed now have a requirement that 
all such programs within this part of the organization do have 
to be subject to evaluation. But we have other work to do, and 
we see ourselves as attending increasingly to such matters as 
clarifying the objectives of particular programs. Evaluation 
must depend on how clear is the intent of any activity. We see 
ourselves as attending far more perhaps to the definition of 
concepts, and ensuring that those definitions are shared, 
especially with the other agencies that must be involved. These 
become fundamental issues to ensure that we will be able to 
conduct the rigorous evaluations that we agree must be 
essential for determining how resources are being used. In 
collaboration with others, we will strive to enhance the 
capacity for and knowledge base of such evaluation. There is a 
need for expanding the community, the experts who can, in fact, 
bring to the matter of evaluation and research the strong 
conceptual theoretical work that is essential.
    There are, in addition to these matters of evaluation, 
extensive possibilities for expanded opportunities to improve 
STEM education, opportunities for engaging with others on 
research, for example. The hearing that you had with STEM 
educators, the inquiries we have received from foundations, 
lots of private foundations, industrial groups, the 
responsiveness we have received from school districts and 
higher education associations, all of these developments prompt 
our heightened attention and commitment to collaboration, 
collaboration in the cause of excellence.
    In closing, then, we at the National Science Foundation 
will not rest on our past achievements. Rather, we will 
continue to foster and tap the creativity this Nation needs for 
the success of our citizenry in the years ahead. I am willing, 
of course, to respond to questions. This could be nothing more 
than a quick snapshot of what we have in mind, what we have 
done, and where we intend to go at the National Science 
Foundation.
    Thank you.
    [The prepared statement of Dr. Marrett follows:]

                 Prepared Statement of Cora B. Marrett

    Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee. Thank you very much for inviting me to testify before you 
today on science, technology, engineering, and mathematics (STEM) 
education.
    This subcommittee's commitment to excellence in STEM education at 
the National Science Foundation (NSF) is well known, and we are 
extremely appreciative of your long-standing support.
    As you are well aware, the NSF provides leadership at the federal 
level to advance learning and discovery in all disciplines of science 
and engineering and to foster connections among the disciplines. The 
Director of NSF, Dr. Arden Bement, has presented the case eloquently: 
``Our job is to keep science and engineering visionaries focused on the 
furthest frontier, to recognize and nurture emerging fields, to prepare 
the next generation of scientific talent, and to ensure that all 
Americans gain an understanding of what science and technology have to 
offer.''
    The questions for today's hearing center on the coordination of 
STEM-related programs, the evaluation of those programs, and the 
dissemination of information about effective strategies. These long 
have been central concerns for NSF, as is evident in activities we have 
undertaken over the years. But we are cognizant of changes looming on 
the horizon that will require heightened attention to coordination, 
research and evaluation as well as dissemination.

On Coordination and Collaboration.

    The National Science Foundation works in partnership with the 
research and education community to promote excellence. Hence, for us 
effectiveness is indicated in no small part by the connections we 
establish and maintain with researchers and educators as well as with 
agencies and organizations that share our commitment to excellence in 
STEM education. We seek opportunities to foster exchanges on matters 
critical to such excellence. An example: the conference held recently 
on state standards for mathematics. What gave rise to the conference 
were the development by states of different standards, the efforts of 
several national organizations to align those standards, and the 
interest of state supervisors of mathematics in exchanging ideas and 
experiences. The conference, held in February 2007, featured 
presentations on recommendations regarding standards and engaged 
``users'' of standards--State and district curriculum specialists, 
textbook and assessment publishers, K-12 district and teacher leaders, 
and representatives from higher education and business. The National 
Science Foundation served as a co-sponsor of the conference, along with 
Achieve, Inc., the American Statistical Association, the College Board, 
the Mathematical Association of America, and the National Council of 
Teachers of Mathematics. The idea for the conference emerged from an 
NSF-sponsored entity: the Center for the Study of the Mathematics 
Curriculum at Michigan State University. That Center organized the 
conference, in concert with the State Supervisors of Mathematics. The 
case illustrates that NSF takes a broad approach to the challenges 
associated with coordination and collaboration.
    Our approach to coordination and collaboration extends beyond the 
formal education sector to include important activities in promoting 
understanding of science in the wider public. Towards that end, NSF 
organized in March 2007 a workshop on informal science activities 
conducted through science centers, museums, community projects and the 
media. The workshop brought designers of informal science initiatives 
together with program evaluators, to generate guides for the evaluation 
of such initiatives. The workshop included representatives from other 
federal agencies. Again, the action reinforces the theme that NSF 
supports coordination through outreach--to various communities and 
agencies--on matters relevant to STEM educational policies and 
practices.
    The informal science workshop demonstrates, too, that NSF both 
endorses and seeks to provide leadership on program evaluation. The 
evaluation efforts are tailored to the goals and state of development 
for any given program. Moreover, NSF invests in research and 
evaluation, not just to assess outcomes, but also to build knowledge 
about and a community prepared to advance STEM research and evaluation.
    A distinctive feature of the NSF STEM education portfolio is its 
breadth. Not only does it incorporate program development as well as 
research, and the informal as well as formal sectors; it addresses the 
pre-college realm, undergraduate and graduate education, post-doctoral 
experiences, and the STEM workforce of the Nation. This breadth has 
profound implications for the collaborations NSF undertakes, the 
evaluations it supports, and the dissemination strategies it pursues.

Subcommittee Questions

    Having provided a general context for the questions central to this 
hearing, let me now turn more specifically to those questions.

1.  As Co-Chair of the NSTC Subcommittee on Education and Workforce 
Development, please describe the make-up of the group, current 
activities, and planned activities.

    In response to the Academic Competitiveness Council (ACC) report, 
the Subcommittee is being re-constituted through representation from 
the agencies that comprise the Committee on Science of the National 
Science and Technology Council (NSTC). The representatives are to 
possess (1) substantive knowledge of STEM education programs within the 
given agency's portfolio, and (2) experience with evaluation research 
and/or the development and application of performance measures. These 
requirements will enable the Subcommittee to meets its initial goal to 
coordinate and facilitate implementation of the ACC recommendations. 
The Subcommittee is also expected to address a range of issues related 
to STEM education at all levels.

2.  What steps has your agency taken to improve its coordination with 
other federal agencies' STEM education activities? How has your agency 
improved its collaboration with states and districts in developing STEM 
education programs? Please describe your agency's commitment to 
establishing formal mechanisms to improve in these areas.

    Past coordination activities include formal memoranda of 
understanding with the Department of Education (ED) and the National 
Institutes of Health (NIH) in 1992 and with the Department of Energy in 
1995. Through the Interagency Educational Research Initiative, launched 
in 1999, NSF, NIH, and the U.S. Department of Education sponsored a 
program of research designed to develop and/or investigate the 
effectiveness of educational interventions in classrooms across the 
United States.
    Earlier this year, NSF signed a memorandum of understanding on STEM 
education cooperation with National Aeronautics and Space 
Administration (NASA). The goal of this partnership is to support the 
development of a creative and diverse engineering workforce that 
comprehends the technical and social impacts of technology applications 
and needs in a rapidly changing environment. Interactions with NASA 
precede the memorandum, however, and include our joint participation on 
a task force ``to examine the feasibility and benefits of using a 
portion of the International Space Station payload resources and 
accommodations for education.''
    Among the ways in which NSF cooperates with the Department of 
Education, these especially warrant notice. A memorandum of 
understanding enabled the NSF and ED to fund jointly two of the large 
projects in our Math and Science Partnership (MSP) programs. Moreover, 
almost two-thirds of the sites in the NSF portfolio have some 
involvement as well with the state MSP projects that ED supports.
    In 2005 the U.S. Department of Education and the Education and 
Human Resources (EHR) Directorate of the National Science Foundation 
began collaborating on a Mathematics Education Toolkit. The Toolkit 
provides resources for state and district leaders on how to improve 
mathematics teaching and learning for Title I students. The Toolkit 
represents a response to concerns that states and districts have 
expressed. The workshop on standards, cited earlier, provides another 
example of the NSF connections beyond the federal level.
    The coordination challenges in the years ahead will extend beyond 
those found among federal agencies. Increasingly, foundations and 
corporations are investing in STEM education and the workforce. The 
National Science Foundation has a leadership role within the ACC and is 
committed to establishing whatever connections and mechanisms offer 
heightened possibilities for innovation in STEM education within the 
United States.

3.  The ACC report reinforces the need for better evaluation and 
performance metrics for federal STEM education programs. How has your 
agency made improvements in its evaluation of programs? How has this 
affected your agency's funding for STEM education programs?

    The emphasis in NSF on program evaluation precedes the ACC report. 
A Congressional mandate in 1992 set in motion a systematic plan for 
assessment of programs within the EHR portfolio. The approach has 
evolved quite significantly over time, from one focused largely on the 
monitoring of developments to evaluations of impacts. The evolution has 
reinforced the importance of enhanced capacity for evaluation of STEM 
programs and accounts, then, for investments NSF has made in increasing 
expertise on evaluation.
    EHR education programs require project and program evaluations, and 
there is now greater emphasis on collecting evaluation information at 
the start of a program. The evaluation of a program's value, worth, and 
impacts is based on a multiplicity of assessment and review studies. 
NSF evaluation efforts range from periodic measures of project 
activities to in-depth analyses of a program's success. Quantitative 
and qualitative data are obtained to measure a program's success in 
achieving its goals.
    Our current approach encompasses a multiple method evaluation 
framework that combines theory and research to better understand and 
assess the R&D educational investment. This methodological pluralism 
enables programmatic decision-making to be based on the preponderance 
of the evidence from external studies. Through the NSTC, we will work 
to improve evaluation for STEM education initiatives across the Federal 
Government, including at NSF, to ensure that the most rigorous methods 
appropriate are used to assess federal programs.

4.  How does your agency determine priorities for its K-16 STEM 
education portfolio? Has your agency's balance of programs at graduate/
post doctoral, undergraduate, K-12, and informal education changed? Do 
you foresee a change in that balance in the future?

    Issues for the K-16 STEM education portfolio emerge from various 
sources. The staff within NSF consists of specialists on STEM education 
within given disciplines, researchers with on-going connections to 
resources and knowledge, and experts on trends in STEM education in the 
United States and elsewhere. The panels that review proposals, the 
Committees of Visitors for our programs, and the Advisory Committees 
for each directorate keep us abreast of developments and interests. In 
recent years, reports on STEM education have yielded many 
recommendations, as have the priorities established in both the 
Executive and Legislative branches. In determining priorities for NSF 
funding, consideration is given to the capacity of external communities 
to pursue given lines of inquiry, the activities underway through other 
agencies and organizations, and the appropriateness of the topics for 
the NSF portfolio.
    The Foundation strives to address a broad portfolio for STEM 
education, but does not have a formula for investments at each 
educational level. The substance of those investments does not remain 
static, however, for it must reflect changes over time in knowledge, 
national needs, and capacities within our communities and NSF.

5.  How does your agency disseminate information about its STEM 
education programs? What organizations, both government and private, 
have your partnered with to reach educators in the field?

    The National Science Foundation disseminates information about its 
programs and the results of its investments through various channels. 
There are websites for particular programs. These include IGERT.ORG, a 
website produced by the Integrative Graduate Education Research and 
Traineeship (IGERT) program that seeks to attract to STEM research 
groups now under-represented in science and engineering. Communication 
and collaboration among MSP partners is promoted through MSPNet. 
Similarly, the Center for Learning in Out of School Environments 
(UPCLOSE) at the University of Pittsburgh serves to link researchers 
and educators who want to enhance teaching and learning in informal 
environments.
    Publications from the National Academy of Sciences serve to share 
widely the results from NSF-investments. Among these: the path-breaking 
volumes, Adding It Up: Helping Children Learn Mathematics, and Taking 
Science to School.
    Our outreach efforts are extensive. What we intend to undertake in 
the near future is an assessment of the effectiveness of our strategies 
in reaching under-served communities--of educators, researchers, and 
institutions. Such an assessment, to be pursued in connection with our 
panels, advisory communities, and public and private partners, may 
result in modifications to our outreach efforts.
    We in NSF will not rest on past achievements or accolades. Rather, 
we will continue to strive to foster and tap the creativity this nation 
needs for the success of our citizenry in the years ahead.

                     Biography for Cora B. Marrett

    Dr. Cora B. Marrett is the Assistant Director of the Directorate 
for Education and Human Resources (EHR) at the National Science 
Foundation (NSF). She leads the NSF's mission to achieve excellence in 
U.S. science, technology, engineering and mathematics (STEM) education 
with oversight of a budget of approximately $800 million and a staff of 
150. EHR is the principal source of federal support for strengthening 
STEM education through education research and development (R&D).
    Prior to her appointment at the NSF, Dr. Marrett served as the 
Senior Vice President for Academic Affairs in the University of 
Wisconsin System. Her NSF position is in conjunction with the UW-
Madison Department of Sociology, where she remains a tenured faculty 
member.
    Earlier, she held the post of Senior Vice Chancellor for Academic 
Affairs and Provost at the University of Massachusetts-Amherst.
    Her current position represents a return to NSF. From 1992-1996, 
she served at NSF as the first Assistant Director of the Directorate 
for Social, Behavioral and Economic Sciences. She received the NSF's 
Distinguished Service Award for her leadership in developing new 
research programs and articulating the scientific projects of the 
directorate.
    In addition to her faculty appointment at the University of 
Wisconsin-Madison, she has been a faculty member at the University of 
North Carolina and Western Michigan University.
    Dr. Marrett holds a B.A. degree from Virginia Union University, and 
M.A. (1965) and Ph.D. (1968) degrees from UW-Madison. She has an 
honorary doctorate from Wake Forest University (1996). She is a Fellow 
of the American Association for the Advancement of Science, the 
American Academy of Arts and Sciences, and Sigma Xi, the Science 
Research Society.
    In 2005, Dr. Marrett received the Erich Bloch Distinguished Service 
Award from the Quality Education for Minorities (QEM) Network, given 
annually to an individual who has made singular contributions to the 
advancement of science and to the participation of groups under-
represented in science, technology, engineering and mathematics. She is 
widely published in the field of sociology, and has held a number of 
public and professional service positions.

    Mr. McNerney. Thank you, Dr. Marrett. Now, we will 
recognize Dr. Winterton.

 STATEMENT OF DR. JOYCE L. WINTERTON, ASSISTANT ADMINISTRATOR, 
      OFFICE OF EDUCATION, NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Dr. Winterton. Thank you, Chairman McNerney and Congressman 
Ehlers. I appreciate the opportunity to testify today, and have 
a discussion that we know is so important around STEM 
education.
    NASA certainly recognizes the role that education has in 
providing that next generation of scientists, engineers, and 
people that are experts in technology, that will really advance 
the Nation's economic well-being. The United States does have a 
tremendous need to sustain our competitive international 
collaborations, and we want to keep United States' preeminence 
in that area. NASA certainly serves as a contributor towards 
that goal.
    As was mentioned by Dr. Marrett, we have a growing number 
of agency collaborations: our memorandum of understanding with 
the National Science Foundation; also, we recently signed a 
memorandum of understanding with the Federal Aviation 
Administration. So, it was very rewarding, as we signed that, 
to see a group of middle school students experiencing our Smart 
Skies Initiative, that is a simulated online resource, where 
students get a feeling of what it is like to actually land a 
sequence of planes safely, using mathematics as part of that 
learning, and it was very interesting to see their motivation 
of seeing the real world context, and how you apply your math 
in a type of job that is in demand.
    I do serve on the interagency taskforce to revitalize the 
aerospace workforce that has been mandated by Congress, and 
through that, we are collaborating with the U.S. Department of 
Labor, the NSF, NIH, Department of Energy, Department of 
Defense, and looking forward to a substantial look at where we 
are currently since the Gathering Storm report, and what needs 
to be done to reenergize, and make sure we are on target with 
those.
    We certainly look at how we can work with other agencies. 
For instance, recently, at Johnson Space Center, we conducted a 
teacher-to-teacher training that is part of the U.S. Department 
of Education's initiative to provide professional development, 
and I think we had over 350 teachers who signed up and 
participated in that effort in Texas.
    As are other agencies, we have a renewed effort to re-look 
at what are vigorous metrics to evaluate the effectiveness of 
our program, the efficiency, but also, the long-term impact. 
How do we know that we are really investing our dollars in the 
right place? So, we actually have a specific schedule of how we 
will be looking at each of our major programs, and looking at 
the impact of those, as well.
    So, we are looking forward to our National Academies study 
on our pre-college programs that will be available in November, 
and again, that will be another opportunity for us to see how 
we are doing with those programs, how we can improve, and how 
we are meeting our customers' needs.
    The role of our agency certainly includes professional 
development. Being a former high school teacher, that is close 
to my heart, and a teacher educator. And it is very important 
for NASA to work closely with educators as we develop resources 
in a formal K-12 setting, or as we work with our informal 
partners in museums and community-based groups like Boy Scouts, 
Girl Scouts, and 4-H.
    Some of the things that we are doing, for instance, with 
our educator astronaut, who is a mission specialist, and will 
be part of our STS-118 launch in August, we have worked with 
the International Technology Education Association and the 
National Science Teachers Education, to develop resources so 
students can actually develop a growth chamber. They can do the 
engineering. Obviously, that is a skill we may need some day if 
we plan to go back to the Moon and beyond. So, students can use 
their science background, their engineering, at an elementary, 
middle school, and high school level to develop growth 
chambers, and then, we actually have basil seeds that will be 
flying on the Shuttle, that they can test, and see if their 
growth chamber will actually work. So, that is an example of 
the collaboration, making sure that we are connecting to the 
existing curriculum, bringing our resources that fit the 
standards, and what teachers can afford to do, both cost-
effective and time-wise, because we know that is very important 
in the curriculum today.
    Our NASA Explorer Schools is an example of how, over three 
years, we work with a team within a school. That is a 
competitive process. Those educators help us determine what are 
the needs in that particular school, how we can meet their 
needs, but also, how we sustain that afterwards. In fact, at 
the National Science Teachers Association Conference, I had a 
teacher from Kentucky come up to me and say, ``I was part of an 
Explorer School. I am teaching at a different school now, but I 
can tell you I changed the way I teach because of that 
experience. I am teaching more real world, using NASA content, 
with my students today, so they see where they are going to 
apply their science and math.'' She said it has made such a 
difference in the responsiveness and interest of her students 
in STEM.
    Now, we certainly use our Digital Learning Network, which 
is an opportunity for us to connect schools to our engineers 
and scientists at our centers. That is really what NASA has to 
add, our content that is new and relevant, and information that 
may or probably isn't in a textbook, our facilities and our 
experts and our people. So our Digital Learning Networks, for 
instance, I saw a school from the State of Washington in a 
dialogue with the scientists at Johnson Space Center. So 
through that vehicle, we can reach every school in every state, 
even if they are not within a radius where they can travel to 
one of our NASA centers, although we certainly encourage that.
    We balance our portfolio, looking at higher education, 
undergraduate, graduate, and the K-12 as a really important 
part of our continuum, to have a pipeline to our workforce, not 
only for NASA, but also our contractors. And informal education 
is certainly a way to engage the public at large. We look 
forward to more opportunities to work with our counterparts in 
other agencies, educators, to really make sure we are on target 
meeting the needs of educators and students today.
    Thank you.
    [The prepared statement of Dr. Winterton follows:]

                Prepared Statement of Joyce L. Winterton

    Chairman Baird and Members of the Subcommittee, thank you for the 
opportunity to appear before the Subcommittee today to discuss NASA 
activities that support K-16 science, technology, engineering, and 
mathematics (STEM) educational programs.
    NASA recognizes the important role education plays in developing 
the diverse scientific and technological workforce required to advance 
this Nation's economic leadership. The United States has a tremendous 
need to build, sustain, and deploy the skilled talent that will be 
required to continue America's preeminence in space and aeronautics 
research and development in the coming decades. NASA serves as a 
contributor for achieving such goals.
    To ensure our future explorers will be ready to continue the 
journey, NASA is working with one of its most vital partners--
educators. This summer, NASA will ignite the flame of knowledge with 
the first space flight of one of NASA's most famous educator. Mission 
Specialist and Educator Barbara Morgan will engage students and 
educators worldwide from 240 miles above Earth aboard the International 
Space Station.
    NASA Administrator Michael Griffin recently stated, ``The greatest 
contribution that NASA makes in educating the next generation of 
Americans is by providing worthy endeavors for which students will be 
inspired to study difficult subjects like math, science and engineering 
because they too share the dream of exploring the cosmos.''
    To this end, NASA educational investments are designed to:

        1.  Strengthen NASA and the Nation's future workforce--NASA 
        will identify and develop the critical skills and capabilities 
        needed to ensure achievement of exploration, science, and 
        aeronautics.

        2.  Attract and retain students in STEM disciplines through a 
        progression of educational opportunities for students, 
        teachers, and faculty--To compete effectively for the minds, 
        imaginations, and career ambitions of America's young people, 
        NASA will focus on engaging and retaining students in STEM 
        education programs to encourage their pursuit of educational 
        disciplines critical to NASA's future engineering, scientific, 
        and technical missions.

        3.  Engage Americans in NASA's mission--NASA will build 
        strategic partnerships and linkages between STEM formal and 
        informal education providers. Through hands-on, interactive, 
        educational activities, NASA will engage students, educators, 
        families, the general public, and all agency stakeholders to 
        increase America's science and technology literacy.

    Experience has shown that exciting and compelling NASA missions 
truly can inspire the next generation of explorers, innovators, and 
leaders. NASA's unique program content, people, and facilities can be 
leveraged to spark interest, capture imaginations, and guide students 
toward careers in STEM fields while increasing their scientific and 
technologic literacy to the benefit of the Nation.
    To prepare future generations to manage and lead the cutting-edge 
research of tomorrow, strategic planning is essential. NASA has 
identified strategic goals and objectives that align its portfolio of 
education programs with the Human Capital Initiatives under the 
President's Management Agenda to build the workforce needed to meet 
core competences. All of NASA's education efforts are part of an 
integrated Agency-wide approach to human capital management.
    NASA Education Programs support multiple goals and sub-goals in the 
2006 NASA Strategic Plan. Specifically, the education programs of the 
Agency contribute to the following outcomes:

        <bullet>  Outcome 1: Contribute to the development of the STEM 
        workforce in disciplines needed to achieve NASA's strategic 
        goals through a portfolio of programs.

        <bullet>  Outcome 2: Attract students and retain them in STEM 
        disciplines through a progression of educational opportunities 
        for students, teachers, and faculty.

        <bullet>  Outcome 3: Build strategic partnerships and linkages 
        between STEM formal and informal education providers that 
        promote STEM literacy and awareness of NASA's mission.

NASA Education Programs

    The manner in which the Agency will achieve these outcomes is 
detailed in the NASA Education Strategic Coordination Framework. The 
Framework was approved by the NASA Strategic Management Council in 2006 
and guides the planning, implementation, assessment and validation of 
the following portfolio of programs:

The Higher Education Program focuses on supporting institutions of 
higher education in strengthening their research capabilities and 
providing opportunities that attract and prepare increasing numbers of 
students for NASA-related careers. The research conducted by the 
institutions contributes to the research needs of NASA's Mission 
Directorates.

The Minority University Research and Education Program (MUREP) engages 
under-represented populations through a wide variety of initiatives. 
Multi-year grants are awarded to engage minority institutions, faculty 
and students in research pertinent to NASA missions. The program 
focuses on retaining under-represented and under-served students in 
STEM disciplines through completion of undergraduate or graduate 
degrees and entry into the scientific and technical workforce.

The Elementary and Secondary Education Program provides K-12 educators 
with tools, experiences, and opportunities to further their education 
and participate in unique NASA learning experiences to enhance their 
knowledge of STEM and inspire pursuit of STEM careers. The program 
supports the role of educational institutions, which provide the 
framework to unite students, families, and educators for educational 
improvement.

Education Technology and Products (e-Education) sustains the research 
and development of technology applications, products, services and 
implementation of technology-enriched infrastructure in facilitating 
the appropriate and effective technology based applications to enhance 
the educational process for formal and informal education. In addition, 
e-Education identifies projects that will meet the objective of the 
President's Management Agenda to provide citizen-centric services 
related to NASA Education efforts.

The Informal Education Program is focused on increasing learning, 
educating students, educators and the general public on specific STEM 
content areas, and expanding the Nation's future STEM workforce. 
Projects within the program produce supplemental educational materials 
that are standards based and designed to support facilitators who are 
trained or qualified in STEM education fields, and are actively working 
with participants to further enhance their understanding. Informal 
Education Programs also develop content based on educational standards 
and learning objectives to supplement and enrich an experience, visual, 
or activity.
    The breadth of our portfolio, and how these programs have been 
implemented nationally, can be illustrated through the following 
examples:

        <bullet>  Attracting students to the teaching profession, the 
        NASA Educator Astronaut project uses the visibility and 
        educational opportunities created by the activities of the 
        Educator Astronauts to inspire greater K-12 STEM achievement, 
        promote STEM careers, and elevate public esteem for the 
        teaching profession. In selecting Educator Astronauts, NASA 
        identified and trained hundreds of our country's top educators 
        who are members of the Network of Educator Astronaut Teachers 
        (NEAT). Approximately 180 NEAT members are now in communities 
        across America, each conducting workshops that reach about 90 
        educators per session. These efforts result in strengthening 
        the STEM skills of approximately 10,000 teachers annually.

        <bullet>  NASA Explorers Schools (NES) provide intensive 
        training and on-site professional development to teachers in 
        classrooms across the country. The NES project assists middle 
        schools with improving teaching and learning in STEM education 
        through professional development, stipends, grants, and 
        curricular support based on NASA resources. In 2006, 5,339 
        teachers received intensive training as part of the NES 
        project. Additionally, our Aerospace Education Services 
        personnel conducted sessions across the Nation, reaching 13,938 
        educators in other schools.

        <bullet>  In addition to in-service workshops based on our 
        missions, NASA is committed to the pre-service training of our 
        future educators. Through the National Pre-Service Teacher 
        Conference, Pre-Service Teacher Institutes and Online 
        Professional Development, NASA recruits STEM teachers to 
        develop the confidence and skills to effectively teach 
        mathematics and science using cutting-edge technology and 
        educational materials. Such efforts have led to 200 STEM-
        enhanced teachers instructing an average of 25 students per 
        classroom for three years, impacting a projected total of 
        15,000 students.

        <bullet>  NASA's four Mission Directorates provide 
        opportunities for students to engage in NASA mission related 
        experiences. For example, within NASA's Science Mission 
        Directorate, a broad spectrum of education activities are 
        sponsored, ranging from kindergarten to post-graduate levels. 
        All of NASA's science missions and programs are required to 
        have an education and public outreach component. Through a 
        competitive, peer-review selection process, NASA provides 
        funding dedicated to education and public outreach to 
        researchers. NASA also sponsors graduate and post-doctoral 
        fellowship opportunities. In addition, the Agency is looking 
        for new ways to provide increased opportunities for students to 
        gain greater experience developing and launching their own 
        science instruments, either in conjunction with science 
        missions or through its suborbital rocket and balloon programs.

        <bullet>  Launched in January 2006 as part of the New Horizons 
        Mission, the Student Dust Counter is the first student-built 
        instrument selected by NASA to fly on a planetary mission. 
        Built by students at the University of Colorado at Boulder, the 
        counter will monitor the density of dust grains in space. This 
        data is of particular interest to researchers. Given the nine-
        year travel time, discoveries from this mission will engage 
        today's elementary school student until college when this 
        spacecraft encounters Pluto.

        <bullet>  Aeronomy of Ice in the Mesosphere (AIM) began its 
        two-year mission on April 25, 2007, after a flawless ride to 
        Earth orbit aboard an Orbital Sciences Pegasus XL rocket. AIM 
        is the first mission dedicated to exploring mysterious ice 
        clouds that dot the edge of space in Earth's polar regions. 
        With AIM, Hampton University in Virginia has become the first 
        Historically Black College and University to lead a NASA 
        satellite mission. Undergraduate and graduate students from 
        various STEM disciplines will have an opportunity to join 
        faculty researchers in the analysis of collected data.

        <bullet>  In February 17, 2007, NASA launched five Time History 
        of Events and Macroscale Interactions during Substorms (THEMIS) 
        microsatellites to study the Earth's magnetosphere. THEMIS will 
        help scientists understand how and why space storms create 
        havoc on satellites, power grids, and communication systems. 
        Students will work with scientists to unravel a variety of 
        scientific mysteries.

        <bullet>  NASA's support of higher education students is 
        embodied by the National Space Grant College and Fellowship 
        Program, which continues to provide fellowships and 
        scholarships to students across the country. Recent statistics 
        show that, of the pool of students who completed their degrees, 
        31 percent were employed in STEM careers and 48 percent 
        continued their education to the Master's, Ph.D., or post-
        doctoral levels. Many consortia have implemented hands-on, 
        university student-led projects in aeronautics, rocketry, 
        scientific ballooning, rocketry, and nano- and micro-satellite 
        development. These types of projects provide the professional 
        training that enable students to be fully prepared to enter the 
        STEM workforce.

Portfolio Management Process

    Such a diverse portfolio requires effective management of the 
Agency's education portfolio both internally and externally, with clear 
roles and responsibilities. As the Assistant Administrator for 
Education, I am responsible for ensuring that the Education Outcomes as 
reflected in the 2006 NASA Strategic Plan are achieved. I serve as both 
the head of the Office for Education, managing all responsibilities 
assigned to the Office and also as the Chair of the Education 
Coordinating Committee (ECC), ensuring the overall planning, 
coordination, and integration of the Agency's entire education 
portfolio.
    NASA's ECC is a collaborative structure that maximizes NASA's 
ability to maintain an integrated education portfolio and strategically 
manage the implementation of numerous programs, projects and activities 
in a distributed system. The committee consists of representatives of 
the Agency's Office of Education, the four Mission Directorates that 
provide mission related content, and the ten NASA Center Education 
Offices, among others. The committee develops education strategy and 
supports me in coordinating education efforts throughout the Agency. 
The ECC also provides checks and balances for effective internal 
control and ensures the successful achievement of education goals and 
portfolio effectiveness.

Collaboration and Coordination with Other Federal Agencies

    NASA's Office of Education is continually engaged in collaboration 
with other federal agencies, including: the Department of Education, 
National Science Foundation, Federal Aviation Administration, 
Department of Commerce, Smithsonian Institution, Department of the 
Interior, and Department of Energy. Additionally, NASA collaborates 
with state STEM education coalitions, through the National Alliance of 
State Science and Mathematics Coalitions, the District of Columbia, 
Puerto Rico, and the U.S. territories. Each of our Centers works 
closely with State and local departments of education to ensure that 
our resources are tailored to support the needs of the education 
community. We have worked hard to ensure that we understand and can 
respond to the needs of State or local districts.
    Collaboration and coordination also occur in a number of forums in 
the Federal Government to ensure that NASA's activities in K-16 STEM 
education are complementary and not redundant with the programs of 
other federal agencies. Additionally, NASA has actively participated in 
the Congressionally-mandated Academic Competitiveness Council (ACC), 
which found there is a dearth of evidence of effective practices and 
activities in STEM education and made recommendations to integrate and 
coordinate federal STEM programs.
    In February 2007, NASA and the National Science Foundation (NSF) 
signed an historic agreement to work together and coordinate efforts to 
expand opportunities for promoting STEM education and to broaden the 
participation of the under-represented in those areas. The Memorandum 
of Understanding (MOU) between NASA and NSF promotes a comprehensive 
knowledge base to be shared between the agencies to address national 
challenges and manage the agencies' resources more effectively. It 
reflects the goals of the Administration's American Competitiveness 
Initiative, whose cornerstone is a commitment to increase investments 
in basic research in the physical sciences and engineering, strengthen 
K-12 math and science education, and build a well-educated, skilled 
workforce. One of the first results of the collaboration was a three 
day joint NASA-NSF Research Education Opportunity Conference for 
Principal Investigators, Faculty, and Partners. Over three hundred 
members of the academic community gathered to be trained on ways to 
strengthen their ability to compete for research grants and to leverage 
their partnerships with the agencies.
    Earlier this month, NASA and the Federal Aviation Administration 
(FAA) signed an MOU to foster the development of students' skills in 
STEM. The agreement supports the FAA's mission to provide the safest, 
most efficient airspace system in the world and NASA's mission to 
pioneer the future in space exploration, scientific discovery and 
aeronautics research. The partnership includes a broad range of 
cooperative outreach activities. The agencies' initial focus is on a 
NASA resource called, ``Smart Skies.'' Smart Skies is an online air 
traffic control simulator for students in fifth through ninth grades. 
It offers a fun and exciting way to learn math and skills central to 
air traffic control while providing multiple modes of problem solving 
for students who learn in different ways. The agreement unites the 
strengths of both agencies to provide the best of aviation-related 
educational products and experiences to the widest possible population 
of students and educators.

Sharing Best Practices

    Through our work with the ACC, we are strengthening our evaluation 
methodologies and sharing some of our best practices, for example:

The Harriett G. Jenkins Pre-doctoral Fellowship Program (JPFP) is a 
model of a STEM education pipeline program that can be replicated by 
other agencies as a best practice. While the success of the JPFP can 
easily be quantified by counting the number of students participants 
(121), the number of awards provided to conduct research at a NASA 
center (90) or the number of successful mentoring relationships that 
were established through this program (121), the greatest 
accomplishment of the program is an exceptionally diverse group of 
under-represented STEM scholars who are excited about pursuing NASA-
related advanced degrees that will equip them to participate in the 
space exploration workforce. To date, the Jenkins project has produced 
34 M.S. degrees and 32 Ph.D. degrees in NASA-related disciplines.

Another stellar NASA project identified as a best practice is the 
Science, Engineering, Mathematics, and Aerospace Academy (SEMAA). The 
Ash Institute for Democratic Governance and Innovation at Harvard 
University's John F. Kennedy School of Government announced that SEMAA 
was among the top eighteen programs in the 2007 Innovations in the 
American Government Awards competition. Selected from a pool of nearly 
1,000 applicants, these initiatives are being recognized as the 
government's best efforts for their novelty and creativity, 
effectiveness at addressing significant issues, and potential to be 
replicated by other jurisdictions. Finalists presented before the 
National Selection Committee at the Kennedy School on May 15, 2007, and 
winners will be announced in September.

Evaluation of NASA Education Programs

    The Agency's many Education initiatives have not been evaluated in 
a comprehensive, rigorous manner to indicate how well all of our 
programs are performing in support of our outcome goals. We are 
committed, however, to enhancing and improving our evaluation 
procedures.
    The Agency has taken several major steps to improve the evaluation 
function by:

        (a)  incorporating a detailed evaluation plan into its 
        Education Strategy Framework;

        (b)  defining an enhanced set of outcome-based performance 
        measures; articulating specific roles and responsibilities to 
        ensure accountability; and,

        (c)  allocating the resources necessary to support rigorous 
        evaluations and the overall evaluation function.

    A range of processes will be used to capture the total picture of 
education across NASA and to assess the education portfolio for its 
effectiveness in: achieving the stated outcomes; establishing linkages 
within the framework; and determining the level of quality, impact and 
comprehensiveness of the portfolio. The ECC will employ an appropriate 
mix of methodologies, ranging from basic quantitative data to 
qualitative information, to assess the overall condition of the 
education portfolio.
    Coincident with the adoption of a new education framework and 
outcomes in FY06, NASA developed a corresponding set of objectives and 
outcome measures. Baselines for these measures are being established 
with FY07 data. The outcome measures include, but are not limited to 
the following:

        <bullet>  Percentage of student participants employed by NASA, 
        aerospace contractors, universities, & other educational 
        institutions.

        <bullet>  Percentage of undergraduate students who move on to 
        advanced education in NASA-related disciplines.

        <bullet>  Level of student interest in science and technology 
        careers resulting from elementary and secondary NASA education 
        programs.

    The most significant improvement NASA is making to its evaluation 
efforts is to make use of independent, credible evaluators to measure 
the effectiveness of education investments. Project-level evaluations 
will be conducted on three to five of our major projects each year, 
with the objective of evaluating each project at least once every five 
years. In collaboration with the National Science Foundation and the 
Office of Management and Budget, we are working to determine the best 
ways to apply a Randomized Controlled Trial (RCT) model of evaluation 
to demonstrate the impact of our portfolio of programs. Projects that 
cannot be reliably evaluated using RCT methods will be evaluated in an 
objective and credible manner, conforming to the standards of 
professional practices.

Public Awareness and Access to NASA Education Programs

    NASA Education is a cross-cutting process that engages the public 
in shaping and sharing the experience of exploration and discovery. The 
President's FY 2008 budget request for NASA's Education program is 
$153.7 million. Through the Office of Strategic Communications, the 
Agency is building and maintaining public awareness for the activities 
and goals focusing on science, education, aeronautical research and 
exploration.
    As part of the Agency's long-term strategy in promoting public 
awareness, National Education Campaigns designed to build a 
comprehensive education initiative that engage diverse audiences with 
tailored modes of interaction have become common practice for assisting 
the Agency with public engagement and the formation of national and 
international visibility and recognition. STS-118, the first Space 
Flight of an Educator Astronaut, is a good example of a National 
Education Campaign designed not only to engage students and educators 
but also increase America's science and technology literacy.
    NASA disseminates its education content including STEM-related 
materials through resources designed to reach all education audiences--
formal, informal and the public at-large--as well internal 
dissemination networks such as Aerospace Education Services Program 
(AESP) and Space Grant.
    The NASA Portal opens the door to all the resources that NASA has 
available. From there, educators can either download materials for use, 
or obtain copies from the Central Operations of Resources for Educators 
(CORE). CORE is a worldwide distribution center for NASA's educational 
material.

The Role of Partnerships

    Strategic alliances with non-governmental organizations provide an 
immediate springboard as unfunded collaborators to produce, market, and 
distribute educational information about NASA's projects and programs. 
NASA's partnership with the International Technology Education 
Association is one of many venues the Agency uses to reach students and 
educators across the country. Other organizations include the National 
Science Foundation, National Institute of Aerospace, National Science 
Teachers Association, AOL's Kids On-Line, the Girl Scouts of the USA, 
Imaginary Lines, and Reader's Digest.
    Imagine, with the right partners, what NASA can do to strengthen 
and support STEM education. Powerful technologies can enable new 
learning environments using simulations, visualizations, immersive 
environments, game playing, intelligent tutors and avatars, learner 
networking, and usable building blocks of content. These capabilities 
can create rich and compelling learning opportunities that meet the 
needs of learners while empowering educators to unlock the potential in 
each student's heart and mind. NASA can unite with the technology and 
education communities in dialogue, understanding and action. Students 
and educators can have access to a new renaissance of learning for the 
benefit of the Nation and the world.

Conclusion

    I would like to commend the Subcommittee for its efforts to improve 
K-16 STEM education. The educational achievement of America's next 
generation is an issue that reaches our nation at all levels. NASA will 
continue to partner with federal, industry, State and local 
organizations and invest our resources toward a shared vision to secure 
those jobs critical to the 21st century workforce. This means not only 
inspiring the next generation of leaders and explorers but also 
providing educators with unique resources to support educational 
excellence in STEM while improving scientific literacy.
    The President, Administrator Griffin, and all of NASA share the 
belief that a highly educated and well-prepared workforce has been and 
continues to be essential to this country and the Agency. NASA's 
investment in education is indeed an investment in America's future.
    Thank you for the opportunity to participate in this important 
hearing. I am prepared to respond to any questions you may have.

                    Biography for Joyce L. Winterton

    Dr. Joyce Leavitt Winterton, NASA's Assistant Administrator for 
Education, directs the development and implementation of the Agency's 
education programs that strengthen student involvement and public 
awareness of its scientific goals and missions. In this role, she leads 
the agency in inspiring interest in science, technology, engineering, 
and mathematics, as few other organizations can through its unique 
mission, workforce, facilities, research and innovations. As Assistant 
Administrator for Education, Winterton chairs the Education 
Coordinating Committee, an agency-wide collaborative structure that 
maximizes NASA's ability to manage and implement its education 
portfolio. The ECC works to ensure that the Agency's education 
investments are focused on supporting the Nation's education efforts to 
develop the skilled workforce necessary to achieve the Agency's goals 
and objectives. Before coming to NASA, Winterton served as the Director 
of Education Programs for USA TODAY, and developed educational 
strategies, resources and partnerships for its K-12 and collegiate 
programs. During her nine years at USA TODAY, she created innovative 
cross-curricular educational approaches, including case studies, 
content development and on-line collaborations. She was the founder and 
President of Winterton Associates, a consulting firm that specializes 
in working on joint projects with business and industry, education, and 
government. The firm has served as the evaluator for National Science 
Foundation projects and U.S. Department of Education-funded programs, 
including six national skill standards projects since 1991. Winterton's 
previous experience includes serving as the team leader for partner 
development for the National Future Farmers of America student 
organization, where she planned and developed partnerships and 
strategies to communicate the benefits of agricultural education and a 
student organization with over 450,000 members. She has also been an 
education training consultant for FranklinCovey Inc. where she 
facilitated time management and personal effectiveness workshops for 
national student leadership organizations. In 1986, Winterton became 
the executive director of the National Council on Vocational Technical 
Education, a Presidential Advisory Council providing recommendations to 
the President, Congress and the Secretary of Education. Additionally, 
Winterton served as the deputy assistant secretary for vocational and 
adult education in the United States Department of Education and was 
the first Director of the Presidential Academic Fitness Awards program. 
She also was a professional staff member for the U.S. Senate Committee 
on Labor and Human Resources. She has served on a number of national 
education boards and advisory panels. Winterton has been a high school 
teacher, a teacher educator and a home economist in business. She 
received the Lawrence Prakken Professional Cooperation award from the 
International Technology Education Association and was recognized as an 
outstanding alumna from Colorado State University and also the Family, 
Career and Community Leaders of America. She earned her Bachelor's and 
Master's degrees in home economics education from Utah State University 
in Logan. In 1978, she completed her doctorate in teacher education and 
administration at Colorado State University in Fort Collins.

    Mr. McNerney. Thank you, Dr. Winterton. Mr. Valdez.

    STATEMENT OF MR. WILLIAM J. VALDEZ, DIRECTOR, OFFICE OF 
 WORKFORCE DEVELOPMENT FOR TEACHERS AND SCIENTISTS, OFFICE OF 
                 SCIENCE, DEPARTMENT OF ENERGY

    Mr. Valdez. Thank you. Mr. Chairman and Mr. Ehlers, thank 
you for inviting me to testify at this important hearing.
    I have submitted written testimony that makes three points. 
First, federal S&T mission agencies, such as the Department of 
Energy, have enormous resources that could be devoted to STEM 
education and workforce development. Those resources naturally 
complement what is offered by the Department of Education and 
the National Science Foundation. We are developing partnerships 
with other federal agencies, NSF, the Department of Education, 
and other organizations that have a strong interest in STEM 
education, as a way to leverage our resources within the 
Department of Energy.
    Second, the Office I manage, Workforce Development for 
Teachers and Scientists, has a great deal of work to do in the 
area of program evaluation. We are in the process of developing 
a comprehensive and rigorous evaluation program that builds 
upon the recommendations of the Academic Competitiveness 
Council, and what experts told this committee at the May 15 
hearing.
    Third, my Office is engaged in an extensive planning 
process that is leading to a reprioritization of our programs 
to meet today's challenges in STEM education and workforce 
development. We are now developing business plans for all of 
our programs that describe their goals, resource requirements, 
and connection to the DOE mission.
    These three points are discussed in more detail in my 
written testimony, and I welcome an opportunity to answer any 
questions you might have about them. But I would like to take a 
moment to discuss one of the questions that you asked in your 
May 29 letter of invitation to this hearing. What do you 
recommend as the most effective role your agency can play in 
improving STEM literacy?
    I have had literally dozens of conversations with experts 
in the field on this question, including most of my colleagues 
at this table, and just in the past two weeks with Frank Owens 
of the National Science Teachers Association, Sally Shuler of 
the National Science Resource Center, and Iris Weiss of Horizon 
Research, who testified at this hearing on May 15. The 
conversations I had with these experts, who I consider to be 
among the thought leaders in STEM education in the United 
States, have led me to the following observations.
    All three agreed that DOE programs, which emphasize 
experiential learning, hands-on opportunities for students and 
educators, and rigorously designed programs at our National 
Laboratories, fill a critical void in STEM education and 
workforce development. Iris Weiss, for example, said that DOE 
needs to provide an authentic research experience well beyond 
the brief cookbook experience that students and educators tend 
to get even at the undergraduate level. Students and educators 
learn by doing. We provide them with an opportunity at our 
National Laboratories to learn with some of the best mentor 
scientists in the world, but, and this is a very big caution, 
our programs must be properly designed to maximize their 
effectiveness. This is why we are developing business plans for 
all of our programs, and will have those plans reviewed by 
outside experts. Our program design must be open, transparent, 
and conform with the best standards known to the STEM education 
community. Iris Weiss asked me if we really would take their 
suggestions and criticisms to heart, and my answer was, ``Of 
course.''
    All three experts were firm in their belief that we must 
find a way to sustain our programs, and link them to what 
matters to educators and students. Frank Owens suggested that 
DOE partner with NSTA to help develop voluntary national 
science certification standards for educators. This would take 
two forms: first, making a structured laboratory research 
experience part of the voluntary national certification 
standards that NSTA is developing; and second, utilizing DOE's 
world-class scientific talent to partner with NSTA to develop 
their online science content modules.
    NSTA will propose a partnership structure to accomplish 
this with the Department of Energy. Iris Weiss suggested that 
we also work with the Council of State Science Supervisors and 
other groups, which we will do. Finally, every expert we have 
spoken with has said that we must carefully evaluate our 
programs. Iris Weiss and Sally Shuler, who really know this 
business inside and out, agree that we currently are only able 
to measure improvements to content knowledge and interest in 
pursuing a science career after participation in the kinds of 
experiential learning programs that we manage, but we currently 
cannot measure whether those increases lead to improved test 
scores and an ability to perform science. I am very interested 
in talking with NSF and my colleagues at the table and other 
experts about ways to fill these gaps in knowledge and improve 
our program evaluation.
    Overall, all three experts agree that federal S&T agencies 
need to do a better job of talking with one another, sharing 
best practices, and leveraging resources. They expressed 
enormous frustration that we don't have a ``one-stop shopping'' 
resource for programs, evaluation techniques, and outreach. 
Even the simple things, such as a common application for K-12 
educators who want to enter into a research experience, would 
be a big help, they said. The series of hearings that this 
committee is holding should help in that regard.
    I would like to thank you, Mr. Chairman, and other Members 
of the Committee, for investing your time and energy into 
studying this challenge. I look forward to working with you and 
your staff, and answering any questions you might have.
    [The prepared statement of Mr. Valdez follows:]

                Prepared Statement of William J. Valdez

    Thank you, Mr. Chairman and Members of the Subcommittee, for this 
opportunity to discuss the role that the Department of Energy's (DOE) 
Office of Science plays in scientific and technical workforce 
development and education. We appreciate your strong commitment to 
improving science and math education and training in the United States.
    The Office of Science is the Federal Government's largest supporter 
of civilian basic research in the physical sciences. This basic 
research supports the Department's missions in energy, the environment, 
and national security. The Office of Science manages 10 national 
laboratories and more than 30 major scientific user facilities that 
provide the scientific community with state-of-the-art research tools 
that help accomplish the Department's goals and maintain U.S. 
competitiveness in science and technology.
    The Department's most significant contribution to the development 
of a scientific and technical workforce has been through the support of 
graduate students pursuing advanced degrees, post-doctoral students who 
work on research projects, and, to a much smaller degree, hands-on 
research opportunities for undergraduate students and K-12 educators 
and informal experiential learning opportunities for K-12 students. 
These individuals utilize DOE research facilities and work side-by-side 
with the scientific and technical staff at the national laboratories.
    Those national laboratories are unique settings for research, 
mentoring, and collaboration. Through structured and unstructured 
workforce development and science education programs at DOE's 17 
national laboratories, the power authorities and other DOE facilities, 
the Department engages with more than 250,000 students of all ages and 
19,000 K-12 educators on an annual basis.
    The Office of Workforce Development for Teachers and Scientists 
(WDTS), which I manage, is the only program office in DOE that has a 
specific mission in science, technology, engineering and mathematics 
(STEM) workforce development and education. Our programs reach 600 
undergraduate students, 16,000 K-12 students, and 150 K-12 educators 
annually. We do this with an $8 million annual budget and under 
specific statutory authority (Public Laws 93-438 and 101-510, and most 
recently the Energy Policy Act of 2005).
    The 17 DOE national laboratories, the power authorities and other 
DOE facilities use WDTS funding as ``seed money'' to develop 
complementary programs that are designed to meet their local needs. Our 
programmatic philosophy is ``nationally designed programs, locally 
delivered.'' This model has relied on partnerships within the 
Department of Energy and with external organizations.
    While WDTS directly funds 600 undergraduate students for summer 
internships, the total number of undergraduate research interns at all 
of the DOE laboratories is 4,100. Similarly, WDTS directly funds 150 K-
12 educators, but a total of 19,300 K-12 educators are involved in 
programs at DOE laboratories and facilities.
    Partnerships enable WDTS to coordinate with and leverage the 
resources and capacity of the Office of Science (SC). SC works with 
more than 300 of the top universities in the Nation, manages 10 of the 
biggest national laboratories in the Federal Government, and deals 
directly with hundreds of high technology companies.
    In recognition of widespread concern about STEM workforce 
development, the Secretary of Energy, in 2006, commissioned a review by 
the Secretary of Energy Advisory Board of the Department's activities 
in STEM education. That review concluded that DOE has a clear role in 
STEM education and that partnerships are the primary vehicle we should 
use to achieve our goals. The Board stated:

         ``[A] review of the Department's educational programs as well 
        as a review of the educational efforts in other federal 
        agencies, leads us to our conclusion that DOE has a significant 
        opportunity to enhance STEM education in the Nation. Moreover, 
        it is clear from our review (as well as from the GAO reports) 
        that the educational activities of DOE and other federal 
        agencies could benefit from increased cooperative activities 
        with one another, with industry, with colleges and 
        universities, and with science teachers' professional 
        organizations. In both nationwide influence and in cooperative 
        partnerships, DOE is already positioned to take a leadership 
        role. DOE's national laboratories are geographically 
        distributed over the country, allowing access to teachers 
        across the Nation. Moreover, the network of national 
        laboratories is also tightly linked with industrial and 
        academic resources, giving DOE the ability to forge educational 
        partnerships that can extend its reach, and therefore also its 
        capacity to enhance STEM education nationwide.''

    As a result of its stakeholder meetings and other outreach efforts, 
WDTS has had discussions with a wide range of organizations proposing 
partnerships. Let me give you four examples of partnerships that could 
make our programs more effective:

        <bullet>  WDTS has an existing partnership with the National 
        Science Foundation (NSF) that illustrates how federal resources 
        can be effectively leveraged. DOE has the 17 national 
        laboratories, but NSF has greater access to undergraduate and 
        educator populations. Our agreement with NSF enables us to 
        share programs, with a result that in FY 2006 NSF supported 195 
        educators and students at seven of our national laboratories. 
        (Table 1)

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

           This is a beginning, but we could do more. DOE mentor 
        scientists who participate in Office of Science and other DOE 
        programs have a long history of working with students, and many 
        have indicated they are eager to expand their efforts. One 
        resource that could help is the federal laboratory system. The 
        Federal Government owns more than 250 national laboratories 
        across the Nation, and many of these have STEM workforce needs 
        similar to those of DOE. Thus, WDTS could partner with USDA 
        labs, for example, to prepare the future workforce to support 
        the expanding bio-fuels industry, or with Department of Defense 
        laboratories to develop our national security workforce.

        <bullet>  WDTS is engaged in extensive discussions with the 
        Department of Education on better support for the 
        Administration's Adjunct Teacher Corps initiative. The mentor 
        scientists at DOE's national laboratories could constitute a 
        promising potential core of the Adjunct Teacher Corps. Sandia 
        National Laboratories, which is part of the National Nuclear 
        Security Administration within DOE, is taking a leadership role 
        with WDTS to structure a program that would enable us to work 
        with the Department of Education to achieve the 
        Administration's goal of placing 30,000 adjunct teachers in the 
        Nation's classrooms by 2015. If Sandia's pilot program with the 
        Department of Education is successful, the concept could be 
        expanded to other federal agencies with national laboratories 
        and pools of mentor scientists.

           Secretary of Education Margaret Spellings on May 9, 2007 
        commented on this emerging partnership: ``When I was in Senator 
        [Jeff] Bingaman's state of New Mexico I visited a local high 
        school where scientists from Sandia Labs were teaching 
        chemistry. We need to make this the norm around the country.''

        <bullet>  The core element of WDTS's programs and other 
        programs carried out at the DOE laboratories is providing 
        educators and students with hands-on research experience. These 
        research experiences supplement what students learn in the 
        classroom and help educators better understand the process of 
        science. Thus, we want to partner with organizations like 
        universities and corporate laboratories that have similar 
        infrastructure to that of the DOE national laboratories. As a 
        start, we have entered into discussions with a university and a 
        major non-profit science educational group in Boston about 
        pilot programs that would share resources and capabilities.

        <bullet>  WDTS is developing what we are calling a ``trusted 
        partners'' approach to reach under-represented populations. 
        Students and educators tend to learn about our programs 
        primarily through recommendations from individuals and 
        organizations whose opinions the students and educators 
        themselves trust. This is particularly true of students and 
        educators from under-represented populations who have not built 
        a trust relationship with the Department of Energy. As a 
        result, we are exploring partnerships with several national 
        organizations to help identify their most promising students 
        and educators for our programs. We have had discussions, for 
        example, with a major Hispanic communications network about 
        developing innovative approaches that reach the best and 
        brightest Hispanic students and teachers for our programs.

Evaluation

    I would now like to turn to the need for evaluation and intelligent 
program design.
    In this regard, I would like to commend the Department of Education 
and the Office of Management and Budget (OMB) for the work they have 
done through the Academic Competitiveness Council (ACC). The catalogue 
of existing STEM education programs in the Federal Government and the 
emphasis the ACC Report places on the need for rigorous evaluation 
catalyzed a discussion in Washington, D.C. policy circles about the 
need for rigorous evaluation of STEM education and workforce programs.
    The ACC Report's recommendations were influential in the 
development of WDTS's future direction. This was a discussion that was 
much needed because, frankly, WDTS has done a poor job over the past 10 
years of rigorously evaluating our programs. As a result, and under the 
specific direction of Under Secretary for Science Raymond Orbach, we 
are committed to improving our ability to evaluate the impact and 
effectiveness of our programs.
    We have data that indicate our experiential learning programs are 
yielding good results (i.e., promoting interest in STEM fields). We are 
in the process of developing a plan for more rigorous study of the 
program that will enable us to demonstrate the program's impact. Based 
on the results, we will be able to refine the program and pursue the 
most effective strategies going forward.
    One lesson that was reinforced by the ACC process is that 
evaluation and assessment are crucial to the effective design of STEM 
workforce programs. For example, during the 1980s and 1990s, the 
Department funded rigorous longitudinal workforce studies that enabled 
program managers to identify specific future workforce needs. WDTS is 
in the process of re-invigorating that effort and within the next 12 
months will have completed a pilot workforce study that identifies the 
workforce needs, by scientific discipline, for the Office of Science 
federal and national laboratory staff.
    This workforce study is being done in collaboration with the 
National Nuclear Security Administration (NNSA). By including the 10 
national laboratories managed by the Office of Science and the three 
defense national laboratories managed by NNSA (Lawrence Livermore 
National Laboratory, Sandia National Laboratories, and Los Alamos 
National Laboratory) in the study, we will account for the majority of 
the R&D performed by the Department. In future years, we hope to 
include other DOE laboratories and R&D programs in this effort.

Identifying gaps

    Rigorous evaluation of programs and the use of workforce data from 
the analysis that we will do over the next 12 months will enable WDTS 
to identify opportunities to improve our STEM workforce development and 
education efforts.
    WDTS currently manages nine programs for students and educators. 
Those programs emphasize experiential learning opportunities for 
students and educators, such as the Academies Creating Teacher 
Scientists (ACTS) program; and world class celebrations of scientific 
achievement for students, such as the National Science Bowl. We have 
two decades of experience managing these types of programs and believe 
that they are effective and are contributing to our nation's efforts to 
improve STEM education and proficiency, although more rigorous 
evaluations are in order.
    But conversations with our stakeholders and our own internal 
analysis have revealed that there are opportunities for our programs to 
better achieve their objectives. Let me give you two examples:

        <bullet>  One potential gap is in the development of talent in 
        our federal workforce. While one of our goals is to encourage 
        students to join federal service, we do not have programs in 
        place that provide a clear link for them to seek employment 
        with the Department, such as helping them navigate the 
        difficult federal hiring process. In addition, we do not have 
        the workforce assessment tools in place that would inform us 
        about whether we need more physicists, chemists, or engineers. 
        The workforce assessment we are doing will help in that regard. 
        We are also working with DOE's Chief Human Capital Officer, Dr. 
        Jeff Pon, to develop programs specifically targeted at the 
        federal STEM workforce.

        <bullet>  Another area for improvement is our collective need 
        to better align agency STEM efforts with larger federal mission 
        needs. Representatives from various federal agencies have 
        emphasized the need to work collaboratively to solve our mutual 
        STEM education and workforce challenges. One result is that my 
        colleague, Dr. Joyce Winterton of NASA, has taken the 
        initiative to form a brown bag lunch group of federal science 
        and technology agencies as a forum for discussion and 
        collaboration. I am also talking with the Federal Laboratory 
        Consortium, the Triangle Coalition and a host of other groups 
        about partnerships designed to bring federal agencies together 
        with the educational community and industry. We need to work 
        together and, in fact, a grassroots process supported by 
        federal S&T agencies has already begun.

Conclusion:

    I would like to conclude by highlighting several statistics:

        <bullet>  $135 billion--the annual federal investment in R&D 
        that is managed by 34 agencies

        <bullet>  257--federal laboratories that belong to the Federal 
        Laboratory Consortium and are active in communities nationwide

        <bullet>  206,000--federal scientists and engineers (not 
        including contractors)

    When all of these numbers are put together, it is evident that we 
have excellent resources for a coordinated federal response to the 
Nation's STEM education challenge.
    The 34 federal R&D mission agencies--such as NASA, NOAA, DOD, NIH, 
USDA and EPA--have a long-term and enduring interest in their 
workforces and STEM education. This has been a strong federal resource 
that can continue to support our efforts to address the national 
challenge of educating the future U.S. workforce and helping to prepare 
our citizens for the emerging era of scientific discovery and 
innovation.
    Thank you for offering me this opportunity to provide a perspective 
on this important issue. I look forward to answering the Committee's 
questions.

                    Biography for William J. Valdez

    Bill Valdez is the Director of the Office of Workforce Development 
for Teachers and Scientists within the Department of Energy's Office of 
Science. His responsibilities include developing workforce strategies 
for the Department's scientific and technical workforce, and creating 
opportunities for students and educators to participate in the Nation's 
research enterprise as a means to improving the competitiveness of U.S. 
industry and overall scientific literacy.
    In addition, Mr. Valdez has been leading an interagency effort, 
coordinated by the White House Office of Science and Technology Policy, 
that is designed to establish credible outcome measures for basic 
research, create new evaluation methods that focus on systems level 
analysis, and promote business models that will enable federal R&D 
managers to improve investment decisions.
    Previously, Mr. Valdez was the Director of Planning and Analysis at 
the Department of Energy's Office of Science. His responsibilities 
included corporate strategic planning, R&D evaluation, and federal S&T 
policy development.
    Mr. Valdez was elected as a Fellow of the American Association for 
the Advancement of Science in 2006 and is Vice Chair of the Senior 
Executive Association's Board of Directors. He was elected to the Board 
of Directors of the Senior Executive Association in 2005.
    Mr. Valdez has held various positions at the Department of Energy 
since 1994, including serving as Executive Director of the DOE R&D 
Council and developing evaluation techniques for technology transfer 
programs. Mr. Valdez also served at the White House Office of Science 
and Technology Policy from 1998-99. His responsibilities included co-
authoring a report on strategies designed to improve the future 
scientific workforce as the Nation's demographics change, developing 
interagency technology initiatives, and advising on international 
energy initiatives.
    Prior to working at DOE, Mr. Valdez worked as a Senior Project 
Manager in private industry where he provided strategic planning 
services to Asian and European multi-national corporations.
    Mr. Valdez received a Bachelor of Arts from the University of Texas 
and his Master of Arts in International Economics and Energy Policy 
from the Johns Hopkins School of Advanced International Studies.

    Mr. McNerney. Thank you, Mr. Valdez. Dr. Fuchs.

 STATEMENT OF DR. BRUCE A. FUCHS, DIRECTOR, OFFICE OF SCIENCE 
            EDUCATION, NATIONAL INSTITUTES OF HEALTH

    Dr. Fuchs. Thank you, Chairman McNerney and Congressman 
Ehlers. I want to thank you for this invitation to appear 
before you to discuss some of NIH's STEM programs. It is an 
honor for me to appear before this subcommittee that has worked 
so hard to improve STEM education in this nation.
    I will apologize for the PowerPoint. I am an old professor, 
and old habits are hard to break. I would like to briefly 
discuss some of the things that I believe federal agencies can 
do to help with STEM education in this country. First, we can 
partner with outside agencies and experts to design exemplary 
model programs for a variety of things, instructional 
materials, teacher professional development, and then 
rigorously evaluate those programs. It is not that every agency 
should get involved in each activity, but I think every agency 
can select something to do well. We need to know what works, 
what doesn't, and most importantly, why. This kind of in-depth 
design and evaluation research is unlikely to come either from 
states or private industry working alone.
    Second, I believe that the responsible federal agencies, 
and this is primarily NSF, Department of Education, and NIH 
through its National Institute on Child Health and Development, 
need to support high-quality, scientifically based education 
research. Unfortunately, we have scientific evidence to support 
only a small number of items related to math and science 
teaching that we didn't know 25 years ago. We must not be in 
the same situation 25 years from now.
    Lastly, I would like to suggest that federal scientists, 
because of their many interactions with students and scientists 
from around the world, have an important insight into what it 
takes to compete in today's world. This insight should be used 
to help define the world-class standards to which our schools 
must aspire. Sadly, many of our states' science and math 
standards cannot presently be considered to be world-class.
    I would like to tell you briefly about two programs that we 
have at the NIH, and illustrate how they are working with 
educators in the states. The first is a grants program known as 
the Science Education Partnership Award. This is a peer-
reviewed program located within NIH's National Center for 
Research Resources. These grants are used to establish 
partnerships within a community to enhance the teaching of 
science within that community. For example, a partnership might 
be developed between a university and a science museum, or a 
university and a school district. There are currently 70 active 
SEPA grants in 39 states, a number of which focus on 
underserved populations within those communities.
    The second program I would like to highlight is the NIH 
Curriculum Supplement Series. I must say that I agree with the 
testimony that you received last month relating to how 
difficult it is to develop high-quality instructional 
materials. This is a time-consuming and an expensive process. I 
believe that we have avoided the pitfalls described by forming 
appropriate partnerships. In short, we know what we know, and 
we know what we don't know. We have been able to combine the 
scientific insights of some of the world's leading scientists, 
people like Dr. Anthony Fauci and Dr. Francis Collins, with the 
professional expertise of some of the most highly respected 
curriculum development organizations in this country.
    We are currently engaged in aligning our supplements to the 
science, math, health, and language arts standards for each 
state. We have included, in an online appendix, a sample of 
alignments for a number of sample states, and I have included 
for Committee Members some examples of curriculum supplements 
for you to review. We believe that this project is one way that 
we can bring some of the excitement, hope, and promise of NIH 
research to schools around the Nation. But they won't help if 
they don't get out there, so I would like to close with a brief 
discussion of dissemination.
    We have worked very hard to let educators know about the 
availability of our now 16 different curriculum supplements 
aimed at elementary, middle, and high school. At the end of 
May, we had had requests from more than 70,000 teachers from 
across the country, for almost 285,000 supplement titles. In 
the online appendix, I have included maps showing the number 
and location of these requests for some sample states. I think 
if you, each of you, would look at your home state, as I do, 
you can look simply from the requests, and identify various 
towns.
    I don't have time to show you all these state maps, but I 
can give you, show you a national map that gives you a sense of 
this. This map places one blue dot in each zip code from which 
we have received one or more requests for an NIH curriculum 
supplement. Each blue dot could represent one curriculum 
supplement or hundreds, but the map does give you a good sense 
of where the orders have come from.
    The next map is actually a NOAA satellite image of the U.S. 
at night, with lights showing approximately the population 
distribution across the U.S. Now, if I can successfully toggle 
this back and forth, I will give you some sense of how well we 
have done at finding people where they live and connecting them 
with our curriculum supplement project.
    Thank you very much for the opportunity to discuss a few of 
our STEM programs. I will be happy to answer any of the 
questions that the Committee Members might have.
    [The prepared statement of Dr. Fuchs follows:]

                  Prepared Statement of Bruce A. Fuchs

    Chairman Baird and Members of the Committee, it is a privilege to 
accept your invitation to participate in this hearing and provide you 
with information about STEM education efforts at the National 
Institutes of Health (NIH), an agency of the Department of Health and 
Human Services.
    The mission of the NIH is to uncover new knowledge that will lead 
to better health for everyone. NIH has long been involved in directing 
programs for the collection, dissemination, and exchange of information 
in medicine and health, including the development and support of 
medical libraries and the training of medical librarians and other 
health information specialists. In 1991, the NIH formed an Office of 
Science Education Policy (now the Office of Science Education under the 
Office of Science Policy) in the Office of the Director because of 
concerns surrounding the state of science education in the Nation.
    The NIH Office of Science Education (OSE) coordinates a program to 
strengthen and enhance efforts of the NIH to attract young people to 
biomedical and behavioral science careers and to improve science 
literacy in both adults and children. The function of the OSE is to: 1) 
develop, support, and direct program activities at all levels, with 
special emphasis on targeting students in grades kindergarten to 16, 
their educators and parents, and the general public; 2) advise NIH 
leadership on science education issues; 3) examine and evaluate 
research and emerging trends in science education and literacy for 
policy-making; 4) work closely with the NIH extramural, intramural, 
women's health, laboratory animal research, and minority program 
offices on science education special issues and programs to ensure 
coordination of NIH efforts; 5) work with NIH Institutes and Centers to 
enhance communication of science education activities; and 6) work 
cooperatively with other public- and private-sector organizations to 
develop and coordinate activities.
    NIH contributes to K-16 STEM education in three main ways: 1) by 
partnering with educators on high-quality model programs to create 
instructional materials, conduct teacher professional development, and 
support informal science education in museums and science centers; 2) 
by conducting rigorous research into science and mathematics learning 
and teaching through NIH's National Institute of Child Health and Human 
Development (NICHD); and 3) because of its interactions with scientists 
and students from around the world, by helping to understand the 
``world class standards'' our students will need to compete in today's 
world.

1a.  What steps has your agency taken to improve its coordination with 
other federal agencies' STEM education activities?

    NIH was actively engaged in the Academic Competitiveness Council 
(ACC) deliberations. NIH Director Elias Zerhouni joined the ACC at the 
invitation of Secretary Spellings and made clear his support for the 
process. NIH participated in all three ACC working groups: K-12, 
Graduate/Postgraduate, and Outreach and Informal Education.
    Dr. Zerhouni has also committed NIH to a leadership role on the new 
National Science and Technology Council (NSTC) Subcommittee on STEM 
Education that will follow through on the ACC recommendations. Dr. 
Zerhouni appointed Dr. Duane Alexander, NICHD Director, to serve as one 
of the co-chairs of the subcommittee, along with Dr. Cora Marrett, 
National Science Foundation, and Dr. Russ Whitehurst, Department of 
Education.
    Additionally, the NIH is in discussions with the Department of 
Defense and the National Aeronautics and Space Administration (NASA) 
about ways to extend the ACC database (ACC Recommendation #1). By 
expanding the program database to include project-level information, 
federal program managers with shared interests (e.g., teacher 
professional development) would be able to find one another in order to 
share information.

1b.  To what extent does your agency collaborate with educators in the 
states and school districts in developing STEM education programs?

    Some of the resources that teachers request from the NIH were not 
originally targeted for classroom use. Most of the large number of 
publications created by NIH are directed to specific health conditions 
or are directed at specific audiences, such as patients, family 
members, and health care professionals. However, once these 
publications were discovered by science teachers, they began to be 
requested for use in classrooms as well. (Two popular examples are of 
this type of publication are Inside the Cell, available at http://
publications.nigms.nih.gov/insidethecell/, and Understanding the Immune 
System, at http://www.niaid.nih.gov/publications/immune/
the<INF>-</INF>immune<INF>-</INF>system.pdf.)
    However, today the majority of NIH programs and resources requested 
by educators were created expressly for, and with, teachers. Below are 
two examples of NIH resources currently available to science educators.
    First, the NIH National Center for Research Resources Science 
Education Partnership Award (SEPA) Grant Program is the largest single 
K-12 (and informal) science education program at NIH. SEPA's goals are: 
1) to stimulate career opportunities in basic science and clinical 
research by providing inquiry-based curricula to K-12 students, 
teachers, and parents; and 2) through SEPA projects at science centers 
and museums, to increase the public's understanding of NIH-funded 
medical research and to provide information about healthy life style 
choices. Because these awards are made to a community organization, the 
projects can be specifically designed to meet the needs of that 
community. For examples of SEPA-funded projects in selected States, see 
Appendix A at http://science.education.nih.gov/HSTC, and for additional 
information about SEPA, see http://www.ncrr.nih.gov/
science<INF>-</INF>education<INF>-</INF>partnership<INF>-</INF>awards/.
    Second, OSE has collaborated with a number of NIH Institutes and 
Centers to create a series of free curriculum supplements (currently 16 
titles) for science educators (available at http://
science.education.nih.gov/supplements). Teachers have input into the 
development, writing, and editing of each supplement. The supplements 
are field-tested by teachers across the Nation and modified to address 
their concerns before being released to the public. Our state-level 
collaborations have included working with state departments of 
education and state-wide education advocacy groups (in New York, North 
Carolina, Ohio, Missouri, and Tennessee) to determine whether a 
supplement meets a need in the state-wide science curriculum and to 
help with state health education standards development. The North 
Carolina Department of Public Instruction has recommended one of the 
NIH supplements as a primary resource for their eighth-grade science 
teachers since 2005. (http://www.dpi.state.nc.us/docs/curriculum/
science/middlegrades/8thsciencesupport.pdf.)

2.  The recent report of the Academic Competitiveness Council 
reinforces the need for better evaluation and performance metrics for 
federal STEM education programs. What plans does your agency have for 
improvements in its evaluation of its STEM programs?

    NIH supports the ACC goal of conducting increasingly rigorous 
evaluations of its STEM education activities using multiple evaluation 
strategies. These strategies will include working toward conducting 
randomized controlled trials where appropriate.
    NIH has agreed to align its goals and metrics to those defined 
through the ACC process. The first NIH-wide meeting of K-12 project 
directors was held in April 2007 to discuss this alignment as well as 
ways to begin collaborating on increasingly rigorous evaluations.
    The science education grants programs at NIH (for example, SEPA 
grants) are currently considering changes in their funding opportunity 
announcements to require increasingly rigorous project evaluations. 
While this process will take some time, OSE is committed to helping the 
community (extramural grantees and NIH intramural project managers) 
solve the problems it may encounter on the road to rigorous 
evaluations.

3.  The Subcommittee received testimony at a hearing on 15 May on how 
the R&D mission agencies could improve the effectiveness of their STEM 
education programs. The witnesses were skeptical of the ability of the 
agencies to develop curricular materials for formal classroom 
instruction and questioned the effectiveness of their teacher 
professional development programs to improve teacher classroom 
performance, while suggesting that the agencies' most important role is 
in informal STEM education. The witnesses also strongly recommend 
closer collaboration by the agencies with educators in the field when 
developing STEM programs. What is your response to the recommendations 
from these witnesses?

    Several witnesses expressed concerns at the May 15 hearing 
regarding the potential pitfalls related to developing curricular 
materials for formal classroom instruction. Mr. Michael Lach made 
comments about the problems of ``adding more topics to cover'' and of 
parochial projects' being ``harder to connect to our work'' in terms of 
curriculum materials. Dr. Nelson noted, ``There is a huge inventory of 
poorly designed and under-evaluated mission-related curricula (posters 
and lesson plans and associated professional development) rarely used 
in classrooms and with no natural home in a coherent standards-based 
curriculum. Effective curriculum development requires a deep 
collaboration with a team of professional curriculum developers, 
education researchers, and classroom teachers.''
    We could not agree more. Development of high-quality instructional 
materials is a difficult, time-consuming, and expensive undertaking. It 
is true that well-meaning scientists have unwittingly added to Dr. 
Nelson's ``huge inventory of poorly designed and under-evaluated'' 
curricula. We believe that OSE has avoided these pitfalls by proceeding 
slowly, doing our homework, understanding where we have expertise, and, 
most importantly, understanding where we do not have expertise.
    Before starting the NIH Curriculum Supplements Series, we conducted 
nearly two years of research, discussions, and interviews with leading 
curriculum developers across the U.S. We also conducted focus groups 
with educators at a number of conferences around the Nation to 
determine whether there was interest in having NIH create supplemental 
materials for the classroom. (There was.) We discussed with educators 
the topic areas where they felt they needed help and how these might be 
fit into biology courses. Interestingly, the teachers also strongly 
warned us ``not to let our scientists write the curricula,'' advice 
that we took to heart.
    When considering what NIH can bring to the creation of supplemental 
instructional materials, it is important to note that our employees 
include some of the world's leading scientific minds. Dr. Anthony 
Fauci, Director of the National Institute of Allergy and Infectious 
Diseases, and Dr. Francis Collins, Director of the National Human 
Genome Research Institute, are only two such individuals who have 
contributed their scientific understanding and foresight to the NIH 
Curriculum Supplements Series. However, while NIH has this kind of 
scientific expertise in abundance, we do not have in-house expertise in 
instructional materials development.
    Instead, we have sought out professional curriculum development 
organizations that are as well known and respected in their field of 
expertise as NIH is in its own. We have contracted with BSCS 
(Biological Sciences Curriculum Study) and EDC (Educational Development 
Corporation), two of the most highly respected science instructional 
materials developers in the Nation. Both of these organizations rely on 
research into how children learn science, use professional curriculum 
developers, and depend on classroom teachers as advisors, writers, and 
field-testers. Both of these organizations trace their genesis back to 
the early post-Sputnik days and have established long track records of 
creating innovative and effective curricula.
    NIH curriculum supplements were designed from the start to align 
with the National Science Education Standards (NSES). Most States have 
used the NSES to create their own standards documents. Since 
implementation of the No Child Left Behind Act, alignment to the NSES 
is no longer sufficient. As a result, we are undertaking the task of 
aligning each of our 16 curriculum supplement titles to each state's 
science, mathematics, health, and language arts standards (34 States 
and the District of Columbia are done so far; see Appendix B at http://
science.education.nih.gov/HSTC for samples of alignments of one 
supplement to selected States). When this project is complete, we will 
be able to demonstrate for each state how a specific NIH curriculum 
supplement directly addresses the science and cross-curricular content 
standards that educators are expected to cover.
    Many educators have reported being especially excited to receive 
materials that can transmit some of the thrill and sense of discovery 
arising from the latest NIH research as a way to inspire and motivate 
their students. Each supplement provides activities for students to 
investigate science content knowledge they can apply directly to some 
aspect of their daily lives. The fact that the materials cover the 
biological concepts that teachers are required to cover but do it 
through references to human health and disease is seen as a strong 
positive. For instance, in general, children do not get very excited by 
studying onion root tips. It is far more engaging to study the 
mechanisms that control cell growth by relating it to a human disease 
like cancer.
    In creating these instructional materials, we were also motivated 
by the fact that research into the poor performance of our students in 
international comparisons has concluded that curricula in the U.S. are 
``a mile wide and an inch deep'' and that content is often years out of 
date. The American Association for the Advancement of Science Project 
2061 has evaluated many middle and high school science textbooks and 
found all of them wanting. None of the 10 evaluated high school biology 
textbooks received even a ``good'' rating. We were convinced that 
teachers would benefit from free, accurate, interesting, standards-
based instructional materials that incorporate the latest research into 
how people learn, so we developed curriculum supplements that allow 
students to think like present-day researchers and engage in practical 
applications.
    The extent to which we have created a curriculum series that is of 
interest to educators is indicated by the fact that as of late May 
2007, more than 70,000 educators have requested almost 285,000 
supplements across the Nation. We would like to emphasize that each of 
these supplements has been shipped out in response to a specific 
request for that title coming in from an educator. In other words, each 
of these requests is a record of a positive action taken by an educator 
to come to our website, fill out a post card, send us an e-mail, etc. 
(See Appendix C at http://science.education.nih.gov/HSTC for 
distribution maps showing how many, and from where, requests have come 
for selected States.)
    We are also proud to report that NIH curriculum supplements are 
frequently used as exemplary instructional resources by university-
based professors engaged in teaching future science teachers in 
``methods'' courses. The middle school supplement Doing Science: The 
Process of Scientific Inquiry has been especially well received by this 
audience. To our knowledge, very few other entities have created 
educational materials that are deemed so useful that they are requested 
both by STEM teachers and by the university-based professors who train 
them.
    We created the NIH curriculum supplements as models for how 
challenging content can be combined with engaging, realistic situations 
to give students the opportunity to think like scientists. For a report 
on how the instructional model underpinning the NIH curriculum 
supplements aligns with current research into how people learn, see 
Appendix D at http://science.education.nih.gov/HSTC.
    Last, although we share an enthusiasm for informal science 
education, we are concerned by the inequities that would result if it 
were our only approach. Many educators, particularly those in small, 
rural, or impoverished urban school districts, cannot afford a field 
trip to a science center or museum, nor is every school district within 
driving distance of a museum, major university, or federal laboratory 
installation. We must not forget those teachers and students who 
cannot, for financial or other reasons, travel to a wonderful science 
museum, or have a scientist visit the classroom. These teachers and 
students also deserve to have access to high-quality science 
experiences.
    I would like to illustrate this last point with a personal 
anecdote. I was one of those rare individuals who knew from early 
childhood that he wanted to be a scientist. Undoubtedly, this was due, 
at least in part, to the post-Sputnik efforts that allowed my parents 
to order me pictures of astronauts, rockets, and stars from NASA. 
However, living where I did in central Illinois, I was a senior in high 
school before I got to meet my first working scientist--after a four-
hour bus ride to Argonne National Laboratory. We have designed the NIH 
curriculum supplements to bring some of the excitement, promise, and 
hope of NIH research to any school--urban or rural, rich or poor, with 
the best laboratory facilities or none at all.

4.  How does your agency determine priorities for its K-16 STEM 
education portfolio? Has your agency's balance of programs at graduate/
post doctoral, undergraduate, K-12, and informal education changed much 
over the past few years? Do you foresee a change in that balance in the 
future?

    Approximately 95 percent of the education activities (in dollar 
terms) that NIH submitted to the ACC inventory fell into the 
``Graduate/Postgraduate'' category. NIH has no plans to change that 
balance.
    In the future, this priority setting will be more formal and 
coordinated. As previously mentioned, NIH has agreed to align its goals 
and metrics to those defined through the ACC process. The first NIH-
wide meeting of K-12 project directors was held in April 2007 to 
discuss this alignment as well as ways to begin collaborating on 
increasingly rigorous evaluations.

5.  How does your agency disseminate information about its STEM 
education programs? What organizations, both government and private, 
have you partnered with to reach educators in the field?

    OSE has created a web site specifically designed to help educators 
find NIH resources that meet their needs (http://
science.education.nih.gov). We also responded to input from teachers 
regarding the ways that they search for materials (for example, by 
topic, by grade level, by resource format). As OSE identifies new NIH 
resources, it codes them using this scheme to facilitate easy retrieval 
by teachers.
    Shortly before our last web site redesign, we began using the 
evaluation services of the American Consumer Satisfaction Index (ACSI), 
which publishes an e-government Satisfaction Index. ACSI is a cross-
industry measure of consumers' satisfaction. It measures the 
performance of over 200 private-sector companies as well as many 
government agencies, using scores calculated on data gathered from 
voluntary online surveys of randomly selected site visitors. For the 
past few years, the OSE web site has been one of the top 10 sites in 
the entire government in terms of customer satisfaction.
    Since March 2000, site traffic has increased from 17,000 visitor 
sessions per month to well over 250,000 visitor sessions per month. Web 
pages viewed each month have increased over the same time period from 
36,000 to almost 2.5 million.
    For the past two years, OSE coordinated an ``NIH Research Zone'' at 
National Science Teachers Association (NSTA) national conferences. This 
year, eight NIH Institutes and Centers joined OSE, along with the 
Society for Neuroscience and other organizations. This effort has been 
greatly appreciated by the NSTA members. NSTA President Linda 
Froschauer cited it as a good example of how NSTA benefits from 
interactions with federal agencies in her May 15, 2007, testimony 
before this committee. OSE also attends the National Association of 
Biology Teachers meetings, the National Middle School Association 
meetings, and, on occasion, state meetings of science teachers.
    Thank you for this opportunity to discuss NIH's STEM education 
efforts with you. I will be happy to answer any questions you may have.

                      Biography for Bruce A. Fuchs

    Dr. Bruce A. Fuchs is currently the Director of the National 
Institutes of Health's (NIH) Office of Science Education (OSE). Dr. 
Fuchs is responsible for monitoring a range of science education policy 
issues and providing advice to NIH leadership. He also directs the 
creation of a series of K-12 science education curriculum supplements 
that highlight the medical research findings of the NIH. The NIH 
Curriculum Supplement Series is designed to meet teacher's educational 
goals as outlined in the National Science Education Standards and is 
available free to teachers across the Nation. The office also actively 
creates innovative science and career education web resources, such as 
the LifeWorks career exploration site, accessible to teachers and 
students across the Nation. These resources are available at http://
science.education.nih.gov.
    Dr. Fuchs is serving on the Education and Workforce Development 
Working Group of the National Science and Technology Council and on 
working groups of the Department of Education's Academic 
Competitiveness Council. He was a member of the K-12 education focus 
group for the National Academy of Science's report Rising Above the 
Gathering Storm, which was utilized in the Administration's development 
of the American Competitiveness Initiative, which President Bush 
introduced in his 2006 State of the Union address. In 2005, the 
Department of Education asked Dr. Fuchs to serve as the U.S. 
representative to the Asian Pacific Economic Cooperation meeting on 
Best Practices in Math and Science Education. For a number of years, 
Dr. Fuchs was the NIH representative to the Department of Education's 
National Education Research Policy and Priorities Board. That 
experience led to his continuing interest in the debate over how to 
make educational research more effective.
    Before coming to NIH, Dr. Fuchs--an immunologist who did research 
on the interaction between the brain and the immune system--was a 
researcher and teacher on the faculty of the Medical College of 
Virginia. He had grant support from both NIH's National Institute of 
Mental Health and the National Institute on Drug Abuse. He has a B.S. 
in Biology from the University of Illinois and a Ph.D. in Immunology 
from Indiana State University. He was born and raised in Springfield, 
Illinois.

                               Discussion

    Mr. McNerney. Thank you, Dr. Fuchs. And I want to thank all 
the witnesses for making the effort. I know it is a challenge 
to come over here and prepare yourselves and all, and sit in 
front of this committee, so it is very good testimony.
    At this point, we will open our first round of questions, 
and the Chair recognizes himself for approximately five 
minutes, or maybe a little bit longer.
    I think the purpose of this hearing is really to give this 
committee comfort in what is about to happen in STEM education, 
and I see it as this committee's--that is about to be formed, 
or is already formed--responsibility to make sure that this is 
executed in a way that takes advantage of the resources that 
are available. I think it is a large responsibility, so I 
applaud, again, all of you for wanting to participate.
    I see Dr. Marrett as the leader of this effort, rightly or 
wrongly, and so I am going to be picking on you a little bit 
more than the others perhaps, but there is no malicious intent 
here. Will the subcommittee be developing a strategic plan for 
federal STEM education programs to help guide the priorities of 
the agencies? Is that something you see a part of your charter?
    Dr. Marrett. Yes, I do. This is an important question, 
because we are, at this point, developing the charter for the 
committee. And as I see it, yes, there has got to be, we must 
undertake some activities that will strengthen, enhance what is 
taking place with agencies, that will recognize some of the 
distinctiveness, but will also work towards the level of 
coordination that is going to be expected.
    When you ask, then, should there be some impact, some sense 
of what the impact should be, we will certainly be looking for 
how to think about the entire enterprise, and what is the role 
of the individual agencies within that? I am saying this, 
expressing to you our desire to have any suggestions, any 
questions and ideas, as we develop both the charter and the set 
of activities.
    Mr. McNerney. Well, will you be developing an annual plan, 
then, or some sort of an organization chart that we can look 
at? I know that prior to this meeting, the ACC report had 
catalogued the way that money is being spent in K-12 education. 
That is very important, I think that is, in some sense, the 
relatively easy part of this task. We can find out where we are 
through a certain amount of research, and we can determine what 
our plans are. The real hard part is evaluating what we are 
going to get once we start doing it, and I was appreciating Dr. 
Winterton's discussion of how some programs had worked, and 
they were exciting, and the kids got involved.
    It would be nice to have that sort of thing, not codified, 
but in some sort of description that people can refer to in a 
way that will be helpful. But then again, the question of 
evaluation, I think Dr. Valdez mentioned that we can evaluate 
programs after they are done, but the problem is that we need 
sort of a feedback mechanism, so that when a program is in 
progress, we can tell if it is working or not. So, the 
evaluation is really the most difficult aspect, in my opinion, 
here. So, can we have a comment, Dr. Marrett?
    Dr. Marrett. Several comments. I will try to keep them 
brief.
    One of the things that you also heard during the testimony 
is the imperative for enhanced research, STEM education 
research, understanding a lot more of what works, under what 
conditions, for whom, and through what processes. Since we know 
we have got to enhance that a lot more, and I am very 
encouraged when I hear my colleagues indicate what that will 
mean. That will have to play into the plans for evaluation.
    So, on the one hand, we will be proceeding, building on the 
knowledge that does exist about evaluation, having those 
conversations of what are the appropriate kinds of measures, of 
indicators. How do we develop indicators that would be common 
enough across the agencies? We will do that, but we won't, I 
won't promise that we will have everything on an annual basis 
at the beginning, just because there are these very thorny but 
important questions about how do we build the knowledge base, 
the knowledge base that will be so important for the way the 
evaluation activities will have to take place.
    Mr. McNerney. Well, I like the sound of using the 
scientific method in evaluating this scientific education, but 
honestly, that is going to be our challenge. How do we know 
when we are succeeding? How do we make sure that the program is 
organized well? I think it is going to be important to see that 
plan to move forward.
    Mr. Valdez, a question, if I have time. I understand that 
you have been developing a strategic plan for the Department of 
Energy education programs, to ensure that they align with STEM 
workforce needs for the future. Would you tell the subcommittee 
the process you underwent to determine those educational needs, 
and how you used that information to create your strategic 
plan?
    Mr. Valdez. Yes, the strategic plan, as most strategic 
plans, is based on what our stakeholders think we should be 
doing, and aligning that to the mission of the Department of 
Energy. So, for example, we had a series of nine focus groups, 
involving 110 stakeholders, everything from the educational 
community to corporate America, to groups representing 
underrepresented populations, in a very structured way, talking 
about how the Department of Energy, which is a mission agency, 
could participate in STEM education and workforce development.
    And I think this gets to the heart of what this hearing is 
all about. Why would an agency like the Department of Energy be 
involved in this? And the reason is because we care about our 
future workforce. We support specific disciplines and specific 
areas of industrial competitiveness that are important to the 
Nation, and as a result, we have to work with the educational 
community at all levels, not just K-12, but undergraduate, 
postdoc, graduate school, and then continuing lifelong 
learning.
    So, we developed a process where we brought in members of 
all those communities, to help us rationalize the resources 
that we have within the Department of Energy, to more 
effectively use them. And frankly, our most effective use is 
through the National Laboratories. You, Mr. Chairman, were at 
Sandia National Labs, and you know that these National 
Laboratories are embedded in the communities. They work with 
local school districts. They are the experts; and so, we 
deliver our products and services through them, and we try to 
align the strategic plan in a way that makes full and maximum 
use of our National Laboratories.
    Mr. McNerney. Thank you, Mr. Valdez. The Chair now 
recognizes Dr. Ehlers for five minutes.
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, Dr. Fuchs, you mentioned as an old professor, 
you felt compelled to use PowerPoint. Let me point out, as a 
younger professor, that I think you did the right thing. I have 
read a number of these articles about how terrible it is to use 
PowerPoint, and we shouldn't use them so much, et cetera. I 
have decided all of those are written by people who don't know 
how to prepare good slides.
    Dr. Marrett, first question for you. You described, you are 
going to reconstitute the NSTC, the National Science and 
Technology Council's Subcommittee on Education and Workforce 
Development, for which I applaud you. It should never have been 
disbanded. You described the necessary qualifications as 
knowledge and experience.
    So, would it also be helpful for you, in that process, to 
ensure that a minimum level of experience, or maybe the better 
word is stature within their agency, their seniority or 
whatever, be required, so that you can ensure that the 
appropriate individuals will be at the NSTC's disposal through 
this means? And I think you know what I am getting at. I have 
nothing against junior personnel. They usually have the best 
ideas, but you need some upper level people there to really 
make sure that this gets carried out, and that when someone on 
your subcommittee goes back home, and says well, we really 
should do this, that you don't have some other person there who 
frowns and says, well, we really don't have the money in the 
budget. But what is your response?
    Dr. Marrett. My response is that the way this is being set 
up is through the Committee on Science. The Committee on 
Science consists of the principals from the agencies. Hence, 
when we have asked for their nominees, the assumption is that 
whatever the level of the person, that person will have direct 
access to the top of the agency. You are quite right that it 
will be very important that there will be access to the centers 
of communication, to funding, but this is what we anticipate 
the direct, the process should help enhance that.
    Mr. Ehlers. Okay. I hope you are right. You may want to 
build something into the structure to ensure that.
    Next question, I know what the ranking of the budgets of 
the agencies are. Obviously, Dr. Fuchs, you have the richest 
agency, and then, we go down to NASA, then Energy, and then, 
finally, NSF. And we could have lots of arguments of how it 
should be. But I am curious how much is spent on education in 
each of your agencies. And we will go right to left, and ask 
Dr. Fuchs, what does NIH spend on these educational issues? 
What is your budget?
    Dr. Fuchs. I believe we submitted to the ACC around $800 
million worth of activity, and that would have been in the year 
when our total budget was about $28 billion.
    Mr. Ehlers. Yeah. Okay.
    Dr. Fuchs. The majority, 95 percent of that, was actually 
graduate, postgraduate activity.
    Mr. Ehlers. Okay. And how much, any estimate how much is K-
12?
    Dr. Fuchs. We submitted $36 million worth of K-12 
activities, and about $6 million worth of informal education.
    Mr. Ehlers. Okay. Mr. Valdez.
    Mr. Valdez. My Office has a budget of $8 million per year. 
Through appropriated funds, we think the Department spends 
about $20 to $25 million per year on educational activities; 
and then, through the National Laboratories, both through 
overhead, other kinds of activities, partnerships with industry 
and other groups, there is probably about another $30 million 
that is spent by the National Laboratories. So that is a total 
of about $50 to $60 million.
    Mr. Ehlers. Okay. And Dr. Winterton, I know NASA spends a 
huge amount of money on educational activities. What is yours?
    Dr. Winterton. Well, we do spend on education, in various 
places within NASA, so within the Office of Education, we plan 
on spending about spending about $153 million. Then, we also 
have each of our Mission Directorates, who also invest in 
education, because it ties, again, directly back to their 
missions.
    Mr. Ehlers. Right.
    Dr. Winterton. So, for the Science Mission, it is about $72 
million, for Explorations, $4.8, Aeronautics, $2.8, and our 
Space Operation Mission Directorate spends and supports 
activities directly of the centers, so if you want those 
specifics, I can provide that as well, so----
    Mr. Ehlers. I think this gives me a general idea. And 
finally, Dr. Marrett, what is----
    Dr. Marrett. Yes. For NSF, across the board, it is nearly 
$1 billion, but this includes what is spent inside the 
Directorate for Education and Human Resources, as well as 
outside. So the Directorate itself has a budget of just over 
$700 million, but this is where I would again indicate that 
there are efforts, every part of the Foundation has education 
outreach public service activities that relate to education, 
and so, it comes to about nearly $1 billion.
    Mr. Ehlers. Okay. That is very helpful. It gives me some 
perspective, and I may have to speak to Dr. Bodman or Mr. 
Rohrabacher about pumping up your budget, Mr. Valdez. I really 
appreciate what you have done. I have encountered, in my 
experience in the schools, the K-12 schools, products of what 
you have done, and I think it is outstanding.
    The one part that bothers me, which I have tried to correct 
legislatively, but so far have not had enough support, is the 
inability of teachers to locate what they may want or need at a 
particular time, and so what I have advocated is a 
clearinghouse, where all of the programs that you have 
available for schools would be listed, and this would be on a 
website, and any teacher who wanted to could access that, if 
they had a particular unit they were working on, and wanted to 
just look at what was available, that teacher could go on the 
website, type that in, the units would be displayed.
    And I really advocate an Amazon.com type of approach, where 
teachers who have used something would then evaluate, and just 
write a short evaluative statement, give a ranking from one to 
four, and this would be very useful. I hope that we can get 
that passed, because I think that would be immensely useful to 
the teachers, and would give much greater exposure to what you 
have done and what you have solved.
    With that, I yield back.
    Mr. McNerney. Thank you, Mr. Ehlers. The Chair now 
recognizes my good friend and mentor from Illinois, Mr. 
Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I would like to 
thank all of the witnesses for their testimony today, and the 
work that they are doing. I don't know if there is anything 
really more important in ensuring America's future than to 
improve our STEM education. I think it is very critical for our 
country. I have a degree in mechanical engineering, and I 
always point to, and many people have heard this now, my 
physics teacher when I was a junior in high school, who really 
is the one who inspired me to go ahead and go to college and 
major in mechanical engineering, really got me interested and 
excited in studying engineering.
    A couple of things that I wanted to ask about. First, Dr. 
Marrett, the new NSTC Subcommittee on STEM Education is a 
subcommittee of the NSTC Committee on Science. Do you think 
that this is a sufficiently high level organization to get the 
agencies' attention, or do you think there should be something 
at a higher level than that?
    Dr. Marrett. I am quite willing to try it at the level 
where it is. There was, in fact, a previous committee that did 
exist. The charter expired in last December, and so, it is not 
as if this is a brand new activity, and my colleagues, who were 
involved before, will know that we have some items that should 
come onto that agenda. I know there has been this question of 
what should be the level. I think that we can be effective when 
there is the level of conversation that is needed, the 
planning, wherever, as long as, as Chairman McNerney indicated, 
there is the strong connection to the top of agencies and to 
the conversations that must take place across and within 
agencies. But I am not bothered by the fact that this is being 
structured as a subcommittee of the Committee on Science.
    Mr. Lipinski. Now, back in November, I spoke to the 
National Science Board. They were in Chicago meeting, talking 
about STEM education, and right now, we are awaiting their 
report and recommendation on what to do on STEM education. I 
understand it has been delayed now, until August.
    Dr. Marrett, or if any other witnesses have any, do you 
have any ideas about what is going to be coming out of this, or 
where do you see this going?
    Dr. Marrett. Well, let me first thank you very much for the 
presentation that you made, and in fact, I heard that it was an 
impressive set of comments that you gave. The National Science 
Board Committee is in the process of redrafting the report. 
That is why I am not sure my colleagues have seen what is 
still, for now, an internal document for the National Science 
Board, thus it would be difficult for me to describe where 
everything is likely to lead, except that I would say it, 
again, is likely to reinforce the imperative for our 
coordinated efforts, for our heightened attention for what must 
take place. So, to that extent, I see it as responding to and 
helping to clarify many of the issues this committee has dealt 
with, as well as the several reports that people have referred 
to.
    Mr. Lipinski. Well, I am very much looking forward to 
seeing that, as I know all of us are. In my last bit of time 
here, I wanted to ask Mr. Valdez about some of the programs 
that are going on with the DOE labs in helping with STEM 
education. I have talked to the Museum of Science and Industry 
in Chicago, who is working and has more plans to work with 
Argonne National Lab, to try to bring students down to the 
Museum to really get them interested, excited about these 
various areas.
    Now, a couple things that you talked about in your 
testimony. First, you describe activities that support K-12 
teachers who are involved in research activities at the 
National Labs. Has there been an evaluation that DOE has done 
about the effectiveness of doing this?
    Mr. Valdez. We have not done a specific evaluation of that 
program. It is a relatively new program. It is a three year 
program. The first cadre of teachers completed their 
participation in the program just this past summer, and we have 
been developing the evaluation techniques that will enable us 
to track what happens to them after they finish the program, 
and what they have learned through the program. So, it is too 
soon to say whether or not we have evaluated it right.
    Mr. Lipinski. Well, I definitely want to support that. I 
think that is something we should be doing more of, and also, 
in addition, something you talked about was that Sandia 
National Lab, if the Chair will indulge me to ask one last 
question here, at Sandia National Lab, you mentioned how there 
is a pilot program for the Administration's Adjunct Teacher 
Corps Initiative. Can you explain how this works?
    Mr. Valdez. Well, the Adjunct Teacher Corps has a goal of 
putting 30,000 adjunct teachers into classrooms by the year 
2012 or 2013, I forget which one, and the Department of 
Education came to the Department of Energy and said, ``We don't 
have the ability to recruit adjunct teachers the way that you 
do,'' because adjunct teachers would come from industry, 
National Laboratories, working scientists, retired scientists. 
We were very excited about working with them, and Sandia 
stepped up to the plate, and decided they would pilot the 
concept. And so, over the next fiscal year, we are going to 
take a look at what Sandia does, and then see if we can model 
this to the other 17 National Laboratories in the DOE system.
    I think that illustrates what we do at the Department of 
Energy. We work, we design programs nationally, but we 
implement them locally through the National Laboratories, and 
through our other partners. And if you do that, even though our 
budget is small, Dr. Ehlers--and I do appreciate your voice of 
support for this--the fact of the matter is we reach a lot of 
people. You know, through our National Laboratories, we touch 
250,000 K-12 students every year, and 19,000 K-12 educators. 
The National Laboratories use the money that we have at 
Department of Energy headquarters as seed money to then go out 
and work with industry, local school districts, and everybody 
else, to implement the programs, and it is a very effective 
model, and one that I think could be useful for other federal 
agencies.
    Mr. Lipinski. Thank you. Thank you, Mr. Chairman.
    Mr. McNerney. Thank you, Mr. Lipinski. I believe the 
Committee was interested in another round of questions, so I 
will recognize myself for another five minutes.
    Dr. Marrett, will the subcommittee develop and maintain a 
catalogue of the federal STEM education programs, as the ACC 
did? I think that is important, at least having a quantifiable, 
a really quantifiable way to understand the connection and how 
money is being spent, whether there is overlap, waste, and so 
on.
    Dr. Marrett. Because the committee is still being put 
together, I have to hesitate to answer some questions about 
what the committee will do, but this one, I can be confident 
about, because we have already had the conversations that said 
yes, the ACC report had, of course, had recommended this kind 
of continued compendium of programs, and that will be done. So, 
that part is going to certainly be continued, as related to the 
ACC process.
    I think it is likely, too, that we will come back to an 
issue that had been on the table earlier, and that is trying to 
understand what the very concepts mean in the programs. As my 
colleague Dr. Fuchs has said, that sometimes the term that is 
used to describe a program need not mean the same thing from 
one place to another. So, as we try to develop a useful 
compendium of what takes place, that will mean looking very 
much at how the programs are defined to develop something that 
will be across the agencies, too, on that front. But yes, we 
will be a source of trying to provide that information about 
what takes place.
    Mr. McNerney. What about priorities? How are we going to go 
ahead, or how is the committee going to go ahead and determine 
what the priorities are, in terms of resource usage?
    Dr. Marrett. I am a bit hesitant to answer that one, on 
behalf of all of my colleagues from the committee yet to be 
established. I think I would say with some level of confidence 
we certainly will be looking at matters of priorities, paying 
attention to a lot of the information that is already around 
about what the Nation's needs are for now and into the future, 
this cannot be just looking at what might have been appropriate 
some 20 years ago, but exactly how those will evolve is to be 
determined, through a process that we intend to be as engaging 
and engaged as possible. For that, I would say we would welcome 
any observations you might have.
    Mr. McNerney. Well, it was interesting to hear Dr. 
Winterton's testimony, because she was talking about inspiring 
kids, and that is critically important, because no matter how 
many resources we offer, if the generation doesn't accept the 
offer and get engaged in the process, then we are not going to 
get as far as we need to get.
    And I see some of our national challenges as being a tool 
for getting kids engaged, the threat of global warming, for 
example, a great national and international threat that cannot 
only show challenge, in terms of risk, and the fear that that 
might bring, but also, the opportunity for intellectual 
achievement, for financial success, and so on. So some of these 
great national challenges ought to be involved in some way, if 
we can get that as a part of the program. I don't know exactly 
how, but perhaps Dr. Valdez, you have, or Dr. Winterton, have a 
comment on that?
    Dr. Winterton. I think, especially, as we have the 
opportunity to engage faculty and students directly with our 
scientists, through our science missions, or through our space 
exploration, so students see the real world application, and we 
provide mentorship, so even in high school, students are 
working at Goddard Spaceflight Center, and actually doing 
research with our scientists.
    So, I think it is that really, understanding, you really 
have to be very good, not only when you work in our labs, but 
when you are working on the International Space Station, with 
international colleagues, that they really apply themselves in 
their math and their science classes, that they start seeing a 
career for them within the aerospace industry, and understand 
that it is a great opportunity, that they see the kind of 
skills they need, and the competencies to be there.
    Mr. Valdez. I am a big fan of prioritizing things, and I 
think you need to go back to what are the core capabilities and 
the core missions of the federal agencies, and in the case of 
the federal mission agencies, I think it really comes down to 
two things.
    First, we need to be supportive of the workforce and the 
missions that we have been entrusted to us by the Congress and 
by the U.S. taxpayer. And so, for the Department of Energy, it 
is support for energy, environment, national security, and 
basic discovery science. And that helps inform what kinds of 
programs we should have for STEM education and STEM workforce.
    And then, we have a larger responsibility through the 
American Competitiveness Initiative, to support STEM education 
and literacy in general. And I think this is where your notion, 
Mr. Chairman, of having students become excited about science 
plays in, and agencies are uniquely placed to have students 
become excited, whether it is by going to a DOE National 
Laboratory, and seeing the Advanced Photon Source, or riding 
the National Oceanographic and Atmospheric Administration's 
ship, you know, an Antarctic ship.
    I mean, there are ways that we can do this, but we need to 
set those priorities, and rationalize the resources in the 
appropriate way.
    Mr. McNerney. Well, I agree with the idea, but that only 
reaches a fairly small segment of the population, I mean, in 
terms of children in inner city schools, I mean, they are not 
going to get out to the labs. We need to find a way to reach 
out and show them the national need, the national priority, and 
the need for them to get engaged for our nation's future, and 
that is something that the Committee might consider in its 
future debates.
    Dr. Marrett. Well, I would say that the Committee will need 
to look at a number of options, because what is also been 
represented a bit here, and even more so, with some of our 
agencies not at the table, is that we work to enhance the level 
of excitement, the motivation, through a number of informal 
processes, through the activities with Boy Scouts, for example, 
with community groups. One is not constrained to the very 
formal kinds of settings, and that is where we are also very 
interested in what is appropriate for the other kinds of 
settings, because we do not intend to leave behind segments of 
the population we know that must be important for where the 
Nation moves.
    Mr. McNerney. Well, my time has expired. I am going to 
recognize Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, let me just make a comment, Mr. Chairman. I 
have been through many hearings over the years, and I have been 
working on improving math, science education in the K-12 system 
for close to 50 years now, but especially in the last 14, in 
the Congress. This is the biggest and best audience we have 
ever had for this, so I think, Mr. Chairman, we are finally 
getting the word out, and people are interested in the topic. I 
find that very heartening.
    I know that the National Science Foundation declares 
education and public outreach as part of research proposals 
that are submitted. Is that common in your other agencies as 
well, when investigators submit a request for proposal? Do they 
have to also include a statement about the educational aspects 
that will come out of that?
    Dr. Fuchs. It is not a feature in the NIH. It was 
considered for a while back in the 1990s, under the previous 
Director, and the decision was not to make that similar 
requirement, so we don't have that.
    Mr. Ehlers. Okay. Mr. Valdez.
    Mr. Valdez. No, it is not part of the Department of 
Energy's grant programs.
    Mr. Ehlers. Okay. And Dr. Winterton.
    Dr. Winterton. It is part of our Science Mission 
Directorate, so each of their principal investigators with 
their science missions are required to do an education and 
public outreach plan and implement that.
    Mr. Ehlers. And the two agencies that do this, is there the 
proposal of how they are going to implement that education and 
outreach? Is that considered in deciding whether or not to give 
the grant, or is that just sort of an automatic add-on?
    Dr. Marrett. No, for NSF, it is critical for what takes 
place, because we have got the criteria of intellectual merit 
and broader impacts, and in that context of broader impacts, 
this is where, generally, the outreach efforts, the education 
activities, are to be undertaken. Those, then, become critical 
in the decisions made about the awarding of grants. We wrote 
this process, trying to think of some ways to make sure that we 
can evaluate effectively the outcomes from those efforts.
    Mr. Ehlers. Okay. So, if someone submits a proposal for an 
experiment to measure Einstein's effect in general relativity, 
that, the educational part, is considered as well as the 
scientific part. Is that true in NASA also, Dr. Winterton?
    Dr. Winterton. It is a really critical part of their plan, 
and we work closely, and offer our assistance in the Office of 
Education, to assist in educational outreach and dissemination 
of those opportunities as well.
    Mr. Ehlers. Okay. And I would just encourage Energy and NIH 
to consider doing the same thing. It is a very useful thing. I 
also just, Dr. Winterton, you mentioned something about a 
mathematical exercise relating to flying. Do you use flight 
simulators at all your programs for the schools?
    Dr. Winterton. We do have----
    Mr. Ehlers. Commercially available flight simulators.
    Dr. Winterton. We provide those opportunities through our 
centers. Now, the type of simulation the students were doing, 
and I know you are a budding pilot, and you might want to try 
this simulator, to make sure we are getting the right mission 
control experts, is----
    Mr. Ehlers. I have already flown a Shuttle.
    Dr. Winterton.--is a computer-based simulation, so that 
part is available at any school.
    Mr. Ehlers. Yeah.
    Dr. Winterton. So, we like that combination of affordable, 
readily available, but you can also go to a center to do the 
simulation as well.
    Mr. Ehlers. Okay.
    Dr. Winterton. And I think through some of our university 
and our space grants, that certainly is another opportunity to 
provide that in a broader sense.
    Mr. Ehlers. Okay. And I can't give commercials, but I am 
fascinated with the potentials of the X-Plane program, because 
it actually allows students to construct their own airplane, 
and you have to be fairly sophisticated, at least junior high, 
perhaps higher, but it is an incredibly good educational 
experience, and the program is $50 or something like that, so 
any school could afford to have that.
    Well, thank you, Mr. Chairman. This has been an excellent 
hearing. The only missing component, and I don't want to 
criticize, even though I should, since I am part of the 
minority, and that is our job, but there is one other agency 
that spends a huge amount of money on K-12 education, and that 
is the Defense Department. It is a smaller fraction of their 
budget than any of these agencies, but we might want to hear 
from them some time, too, about what they are doing.
    And they, incidentally, one plus factor of the Defense 
Department is their Army Schools, which are located around the 
world--I shouldn't say Army--the schools are for their 
employees' children--consistently rank higher than the average 
American school, particularly in the science and technology, 
and also, often equal the countries, the record of the 
countries that they are in. So, obviously, the Defense 
Department is doing something right in their schools, and we 
might be interested in talking to them about that some time.
    With that, I will conclude, and thank you again, Mr. 
Chairman, for having this hearing.
    Mr. McNerney. Well, the Chair thanks the Ranking Member for 
his thoughtful comments, and I think that is something that we 
would want to move forward with.
    And before closing, I would like to thank the witnesses 
for, again, spending their afternoon, and also, the members of 
the audience. It is a nice day out there, so it is appreciated 
that you would come in here to hear our testimony.
    And the record will remain open for additional questions 
that Subcommittee Members may ask of the witnesses, so be 
prepared for that.
    And the witnesses are excused, and the hearing is now 
adjourned.
    [Whereupon, at 4:00 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Cora B. Marrett, Assistant Director, Education and Human 
        Resources Directorate, National Science Foundation

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Dr. Marrett, the new National Science and Technology Council 
(NSTC) subcommittee on STEM education is a subcommittee of the NSTC 
Committee on Science. Is this of a sufficiently high level 
organizationally to get the agencies' attention? Because of the widely 
recognized importance of STEM education, shouldn't this be constituted 
as a new, independent NSTC committee?

A1. The membership of the STEM Education Subcommittee has now been 
established. The timely response from the agencies to the request for 
names and the responsibilities of the persons designated suggests that 
the subcommittee structure can be effective. The persons selected to 
represent their agencies have sufficient oversight for personnel and 
budgets to act on behalf of their organizations.
    There are substantive reasons for an arrangement that connects STEM 
education to the larger Committee on Science (COS). First, the agenda 
on STEM education must reflect current developments in the wider realm 
of STEM research and development. The connection to the COS, the body 
charged with the broader world of research and development, helps 
ensure that the priorities for STEM education are aligned with the 
directions at the federal level of science, technology, engineering, 
and mathematics. Second, within the agencies STEM education is 
integrated into and not isolated from the objectives agencies have 
identified for science and engineering. The subcommittee structure, 
then replicates the pattern that agencies employ and have found to be 
beneficial.
    The structure does not signal that the subcommittee is of secondary 
importance in the NSTC complex. The principals for the Committee on 
Science regard STEM education as of profound significance for the 
Nation and consequently anticipate regular exchanges about the work of 
the subcommittee. They, in turn, are committed to facilitating and 
participating in exchanges between the subcommittee and any other 
relevant NSTC bodies. Likewise, the co-chairs of the subcommittee have 
ready access to the principals and aim to work cooperatively with them. 
In sum, then, the subcommittee has obtained from the agencies and the 
Committee on Science the support it will need to be an effective force 
in the pursuit of excellence for education in science, technology, 
engineering, and mathematics.

Q2.  The Academic Competitiveness Council (ACC) has recommended that no 
funding should be increased for a STEM education program ``unless a 
plan for rigorous, independent evaluation is in place,'' which is 
defined in the report as being Randomized Controlled Trials or, when 
that is not feasible, Well-Matched Comparison Group Studies. One of our 
witnesses at the May 15th hearing, Dr. Weiss, stated that this approach 
would not be practical for the majority of programs in the federal R&D 
mission agencies. I would like to ask our witnesses to respond to Dr. 
Weiss' opinion. Is this a practical way of evaluating programs at NASA, 
Energy, and NIH? What other types of evaluation methods might be better 
suited?

A2. The Academic Competitiveness Council (ACC) report does indeed 
recommend no additional funding to STEM education programs, in the 
absence of plans for rigorous, independent evaluation. The report 
points out, however, that ``no single design or evaluation methodology 
is appropriate for all education studies,'' and ``the appropriate 
methodology should be selected based on the maturity of the activity'' 
(p. 13). Furthermore, it acknowledges that programs can be arrayed 
along a continuum that starts ``generally with small-scale studies to 
test new ideas and generate hypotheses, leading to increasingly larger 
and more rigorous studies to test the effects of a given intervention 
or activity on a variety of students and in a variety of settings'' (p. 
13). Thus, the report does not advocate for the premature use of 
experimental or quasi-experimental methods to determine causality. It 
is also important to remember as well that the ACC discussion is 
centered on measuring the impact of an educational activity on student 
outcomes (p. 15), not educational differences at the institutional or 
system level.
    The National Science Foundation recognizes the importance of using 
randomized controlled trials (RCTs) to establish cause-and-effect 
relationships between education programs and student outcomes. As Dr. 
Weiss stated, and the ACC report supports, RCTs and well-matched 
comparison group studies are not always feasible and applicable, 
nonetheless. For short-term outreach efforts or efforts to enhance the 
institutional structure for STEM education, some activities cannot be 
standardized and controlled. For projects federal agencies and others 
undertake, the randomized assignment of participants is not always 
feasible, practical, or ethical. Thus, the use of RCTs is appropriate 
depending on the program design and the research question. The ACC 
report recognizes this point; Dr. Weiss sought especially to reinforce 
it.
    Policy-making bodies frequently draw on evidence from multi-year 
studies that use mixed methods. What seems significant for the making 
of policy is the rigor of the approach that is taken, coupled with 
attention to the question or problem that is central to analysis.
                   Answers to Post-Hearing Questions
Responses by Joyce L. Winterton, Assistant Administrator, Office of 
        Education, National Aeronautics and Space Administration (NASA)

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The Academic Competitiveness Council (ACC) has recommended that no 
funding should be increased for a STEM education program ``unless a 
plan for rigorous, independent evaluation is in place'' which is 
defined in the report as being Randomized Controlled Trials or, when 
that is not feasible, Well-Matched Comparison Group Studies. One of our 
witnesses at the May 15, 2007, hearing, Dr. Weiss, stated that this 
approach would not be practical for the majority of programs in the 
federal R&D mission agencies. I would like to ask our witnesses to 
respond to Dr. Weiss' opinion. Is this a practical way of evaluating 
programs at NASA, Energy, and NIH? What other types of evaluation 
methods might be better suited?

A1. Establishment of standards for the evaluation of Federal STEM 
education programs was extensively discussed within the ACC working 
groups. A hierarchy of study designs, weighted in favor of a research-
oriented model focused on Randomized Control Trials (RCTs), was 
adopted. However, several concerns were raised by NASA and other 
working group members. The main concern is that RCTs are primarily 
applicable to interventions, defined broadly by the education 
evaluation community, as projects with highly specific features that 
target a precisely defined audience in order to achieve a specific 
outcome under controlled, standardized conditions. There are a variety 
of other reasons why RCT models are not practical for some of NASA's 
portfolio, including: (a) schools are not typically prepared to match 
control and treatment groups; (b) RCTs are complex and costly to 
properly implement; and, (c) some of NASA's education projects are not 
specific interventions according to the above definition but are 
instead designed to enhance the capabilities of the education and 
outreach community (e.g., the NASA Explorer Institutes project seeks to 
enhance the ability of science centers and museums to use NASA's unique 
resources).
    NASA is in full agreement that sound, rigorous evaluations should 
be implemented to provide the best possible evidence of effectiveness 
but the methodologies must be appropriate to the program. NASA supports 
and is implementing a definition of rigorous evaluation that includes 
RCT-based methodologies, as feasible. Where RCTs are not feasible, NASA 
plans to implement alternate evaluation methodologies, commonly called 
``Mixed Methods'' approaches, to capture a complete picture of 
education investments to determine effectiveness in achieving outcomes, 
impact and comprehensiveness. These Mixed Methods are based on the 
accepted professional standards for educational evaluations articulated 
in The Program Evaluation Standards: How to Assess Evaluations of 
Educational Programs, 2nd edition, (Joint Committee on Educational 
Evaluation, 1994). Like RCTs, these rigorous methods will lead to 
credible, objective, reliable, and valid evaluations of program 
performance and effectiveness. Mixed-methods evaluations use 
quantitative data, such as experimental, quasi-experimental, and 
correlational studies, and also use qualitative methodologies, such as 
case studies, surveys, and focus groups. NASA will use RCTs when 
practical and relevant, however the Agency will typically use mixed-
methods evaluations.
    NASA has developed and submitted to the Office of Management and 
Budget a plan for evaluating each of the Agency's major projects.

                   Answers to Post-Hearing Questions

Responses by William J. Valdez, Director, Office of Workforce 
        Development for Teachers and Scientists, Office of Science, 
        Department of Energy

Questions submitted by Representative Eddie Bernice Johnson

Federal STEM Education Programs

Q1.  The Academic Competitiveness Council (ACC) has recommended that no 
funding should be increased for a STEM education program ``unless a 
plan for rigorous, independent evaluation is in place'' which is 
defined in the report as being Randomized Controlled Trials or, when 
that is not feasible, Well-Matched Comparison Group Studies. One of our 
witnesses at the May 15th hearing, Dr. Weiss, stated that this approach 
would not be practical for the majority of programs in the federal R&D 
mission agencies. I would like to ask our witnesses to respond to Dr. 
Weiss' opinion. Is this a practical way of evaluating programs at NASA, 
Energy, and NIH? What other types of evaluation methods might be better 
suited?

A1. The Office of Science's Workforce Development for Teachers and 
Scientists (WDTS) program fully supports the Academic Competitiveness 
Council (ACC) recommendations and has developed a rigorous evaluation 
program currently under review by the Office of Management and Budget. 
That review program, which is being designed to ensure that the cost is 
commensurate with the overall size of the WDTS program, emphasizes 
three evaluation protocols that are consistent with the comments made 
by Dr. Weiss. Those three protocols, which we believe are appropriate 
to the needs of mission agencies such as NASA, the Department of Energy 
and NIH, are:

        <bullet>  Quasi-experimental approaches that utilize well-
        matched groups to understand improvements to the learning of 
        scientific content, STEM career choices, and improvements to 
        STEM teaching approaches;

        <bullet>  Long-range longitudinal studies of student 
        participants designed to verify whether WDTS programs are 
        achieving their goal of contributing to the DOE STEM workforce; 
        and,

        <bullet>  Management effectiveness studies, such as external 
        reviews by Committees of Visitors, to validate that WDTS 
        programs are managed efficiently.

    This evaluation program is designed for the mission needs of the 
Department of Energy, which requires development of a highly qualified 
pool of scientific and technical workers in the mission areas it 
supports (defense, environment, energy, and scientific discovery).

                   Answers to Post-Hearing Questions

Responses by Bruce A. Fuchs, Director, Office of Science Education, 
        National Institutes of Health

Questions submitted by Representative Eddie Bernice Johnson

Federal STEM Education Programs

Q1.  The Academic Competitiveness Council (ACC) has recommended that no 
funding should be increased for a STEM education program ``unless a 
plan for rigorous, independent evaluation is in place'' which is 
defined in the report as being Randomized Controlled Trials or, when 
that is not feasible, Well-Matched Comparison Group Studies. One of our 
witnesses at the May 15th hearing, Dr. Weiss, stated that this approach 
would not be practical for the majority of programs in the federal R&D 
mission agencies. I would like to ask our witnesses to respond to Dr. 
Weiss' opinion. Is this a practical way of evaluation programs at NASA, 
Energy, and NIH? What other types of evaluation methods might be better 
suited?

A1. It is important to articulate the final goal of federal STEM 
education efforts. We should seek to fund programs that really make a 
difference in the lives of our children. We want those students with 
talent and inclination to consider STEM careers in order to help the 
government, and the Nation, meet its need for technical professionals. 
But additionally, in an increasingly competitive world, we want all 
students to obtain the knowledge and skills (for example, problem 
solving and critical thinking) that they will need to find good jobs 
and lead fulfilling lives. The kinds of skills that students can learn 
in STEM courses will help prepare them for the 21st century--even if 
they never put on a white coat or work in a laboratory.
    The ACC report does not really define rigorous research as 
``Randomized Controlled Trials, or when that is not feasible, Well-
Matched Comparison Group Studies.'' The report does emphasize the 
importance of these evaluation methods for ``those study designs whose 
purpose is to estimate a project's impact on education outcomes, such 
as student math and science achievement.'' But the report also 
acknowledges that much of the federal STEM effort does not fall into 
this category. The report recognizes that ``no single study design or 
evaluation methodology is appropriate for all education studies, and 
that the appropriate methodology should be selected based on the 
maturity of the activity, the intended use of the data, and the 
inferences to be drawn from study results. . ..''
    Early in any STEM education research endeavor, most studies will 
not be candidates for a randomized controlled trial design. These 
studies will more likely focus on classroom observations, developing 
early-stage instructional materials or approaches, and generating 
testable hypotheses with regard to student performance. The ACC 
recognizes that these types of studies ``are a key part of the research 
agenda needed to improve U.S. STEM education, can be `rigorous' in 
their own context, and can serve as valuable precursors and-or 
complements to impact studies.''
    However, the goal should ultimately be to determine what works for 
students. Promising programs at different stages of maturity should be 
identified and subjected to evaluation methods that have increasing 
power to discern whether the student outcomes observed are really 
related to the program interventions. This goal will push study designs 
up the ``hierarchy pyramid'' toward randomized controlled trials. 
However, even in these cases, a variety of evaluation methods will be 
used to ``complement'' the impact study. This is because we will seldom 
be satisfied to know simply whether a particular educational 
intervention works or not--we want to know why it succeeds, or fails, 
to achieve the intended objective.
    We do know more about how to effectively teach STEM subjects to 
students than we did a generation ago. However, the number of such 
insights that have been rigorously tested and that are known to be 
valid for large numbers of students under a variety of conditions is 
much smaller than we would like it to be. Carefully applying the 
recommendations of the ACC report will help ensure that we are not in 
the same situation a generation from now.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


                  Statement of the Office of Education
            National Oceanic and Atmospheric Administration
                      U.S. Department of Commerce

Question 1: What steps have agencies taken to improve coordination with 
other federal agencies' STEM education activities? To what extent do 
agencies collaborate with educators in the states and school districts 
in developing STEM education programs?

    The National Oceanic and Atmospheric Administration (NOAA) is 
leveraging several relationships established through the Academic 
Competitiveness Council (ACC) to foster improved coordination among 
Federal Science, Technology, Engineering and Mathematics (STEM) 
education activities. For example, such relationships include: (1) the 
synthesis of independent evaluations of federal STEM activities (as 
previously demonstrated by the National Aeronautics and Space 
Administration); (2) providing advice to other agencies (e.g., the 
National Science Foundation) on how to develop and implement 
evaluations programs consistent with the ACC recommendations and 
metrics; and (3) seeking external advice and guidance to inform the 
design of NOAA STEM education activities (e.g., from the Department of 
Education on NOAA's Teacher at Sea Program). NOAA looks forward to 
exploring additional opportunities through the National Science and 
Technology Council (NSTC) to build on the collaborative activities 
initiated under the ACC.
    NOAA is working with educators to develop and improve individual 
STEM education programs in many states and school districts. These 
programs are designed to support the long-term development of quality 
educational programs for all educators and students while, 
simultaneously, meeting the goals of NOAA and the Nation. For example 
NOAA is working with California on the state's Environmental Education 
Initiative, and NOAA is working with Hawaii to develop a Marine Science 
Curriculum.

Question 2: The recent report of the Academic Competitiveness Council 
reinforces the need for better evaluation and performance metrics for 
federal STEM education programs. What plans do agencies have for 
improvements in evaluation of STEM programs?

    NOAA is taking direct action to improve the consistency, rigor, and 
frequency of evaluation activities for each of its education programs. 
Specifically, NOAA will measure the effectiveness of all its current 
and future education activities using methodologies appropriate to the 
types of activities funded. NOAA has recently adopted a program logic 
model to inform the design and evaluation of all education activities 
in the agency, address the performance metrics of the Academic 
Competitiveness Council, and promote consistency, coordination, and 
information sharing with other federal entities.
    NOAA's Educational Partnership Program (EPP) has adjusted its 
operation and implementation activities based on annual client 
evaluation; monitored the output and products of its programs against 
established performance measures; and assessed program statistics of 
students who have trained and/or graduated in STEM fields. In addition, 
NOAA's Cooperative Science Centers, which are associated with EPP, were 
rigorously evaluated after three years of operation using metrics that 
were established previously to evaluate NOAA's Cooperative Institutes. 
Evaluation metrics were tailored to address a variety of components 
such as education, outreach, research, administration, recruitment, 
budgeting, and capacity building being conducted at each of the 
Cooperative Science Centers. The accomplishments of each program were 
compared to the objectives and performance measures established during 
the development phase.
    A plan to conduct rigorous, independent evaluation is currently 
being established for NOAA's student scholarship programs, which 
include undergraduate and graduate fellowships, as well as the Ernest 
F. Hollings and Dr. Nancy Foster scholarship programs. Although these 
programs have not yet been formally evaluated, it should be noted that 
there are established performance measures in place for each program.

Question 3: The Subcommittee received testimony at a hearing on 15 May 
on how the R&D mission agencies could improve the effectiveness of 
their STEM education programs. The witnesses were skeptical of the 
ability of the agencies to develop curricular materials for formal 
classroom instruction and questioned the effectiveness of their teacher 
professional development programs to improve teacher classroom 
performance, while suggesting that the agencies' most important role is 
in informal STEM education. The witnesses also strongly recommended 
closer collaboration by the agencies with educators in the field when 
developing STEM programs. What are agencies' responses to the 
recommendations from these witnesses?

    NOAA's efforts do not replace or supplant the critical role of the 
State and local governments in education. Because there are limited 
resources to invest and large needs to support in science education, 
NOAA believes investments in formal and informal education are most 
effective and efficient at producing outcomes when they supplement or 
complement efforts supported by others. NOAA's efforts are aimed at 
providing supplemental materials in subject areas where NOAA has unique 
expertise and where sufficient public knowledge is required to ensure 
understanding and response to warnings, forecasts, and stewardship 
efforts. NOAA education maximizes use of place-based learning 
opportunities afforded by field offices, including National Marine 
Sanctuaries, Sea Grant Colleges, National Estuarine Research Reserves 
and Weather Forecast Offices. We often work through external partners, 
such as education associations or aquaria and science museums, to 
enhance our connections to the public and the education community. 
Students and educators are one of many groups of users of NOAA data and 
information. The NOAA Outreach Unit in Silver Spring, MD receives over 
4,000 unique requests each year for NOAA's education materials from 
teachers, students and librarians.
    NOAA recognizes that education is primarily the responsibility of 
state and local governments. However, state and local education 
programs may not specifically focus on topics relevant to NOAA's 
mission. For example, the ocean sciences are under-represented in the 
national science education standards for grades K-12. In addition, 
teacher content knowledge is not always sufficient in the ocean and 
atmospheric sciences. As a result, students graduating from U.S. high 
schools may not possess sufficient understanding of the earth processes 
and phenomena that are the focus of NOAA research, monitoring, and 
prediction efforts.
    NOAA's informal education activities provide educational 
experiences that typically involve taking students to unique settings 
outside of the classroom. Informal education combines well-established 
educational methods with the excitement of hands-on activities and 
field experiences and develops life long interest in the ocean and 
atmosphere. NOAA's informal education activities include hosting school 
children, community groups, and the general public at NOAA sites, 
supporting hands-on experiences in NOAA-related sciences and increasing 
the inclusion of NOAA-related topics at science centers, museums, and 
aquaria.

Question 4: How do agencies determine priorities for K-16 STEM 
education portfolio? Has agencies' balance of programs at graduate/post 
doctoral, undergraduate, K-12, and informal education changed much over 
the past few years? Is there a likelihood of a change in that balance 
in the future?

    Most of the investment priorities and the general direction of NOAA 
education activities over the past few years has been determined by 
Congress--either through legislation (e.g., the National Marine 
Sanctuaries Act, Coastal Zone Management Act, Sea Grant Act) or through 
appropriations language (Environmental Literacy Grants). Other 
education activities are supported by across the board percentages 
which Congress has instigated (e.g., NOAA-wide in the case of the 
Hollings Scholarship Program and Sanctuaries-wide in the case of the 
Nancy Foster Scholarship Program). Within these external constraints, 
NOAA's process for determining priorities is based on national peer 
reviewed competitions focused on advancing earth system science 
education. Although there is no formal review process to determine 
priorities for funding, the following criteria are used informally:
    Proposed projects should:

        <bullet>  deliver NOAA-wide benefit;

        <bullet>  have hard schedule drivers that require action within 
        a one to two year time frame;

        <bullet>  reach a large, high priority audience;

        <bullet>  result in a significant impact on the audience 
        reached;

        <bullet>  increase understanding of NOAA science and service;

        <bullet>  leverage partnerships;

        <bullet>  build on existing NOAA investments; and

        <bullet>  target NOAA priority areas.

Question 5: How do agencies disseminate information about STEM 
education programs? What organizations, both government and private, 
have agencies partnered with to reach educators in the field?

    NOAA relies on partnerships with a variety of government, non-
government, non-profit, and private organizations to disseminate 
information about our STEM education programs. Partnerships mentioned 
above with State departments of education allow NOAA to directly assist 
state efforts to improve STEM-related education in areas specific to 
NOAA science (e.g., watershed and environmental education in the states 
that are party to the Chesapeake Bay agreement and its education 
commitments; environmental education in California; marine science 
education in Hawaii).
    NOAA also depends heavily on the dissemination networks of State 
and university partners for the education programs funded by the 
National Sea Grant College Program, the National Estuarine Research 
Reserve System, and cooperative research programs including the 
Educational Partnership Program, Joint Research Institutes, and 
Cooperative Institutes.
    Other federal partners, such as the National Aeronautics and Space 
Administration and the National Science Foundation, leverage NOAA 
investments for broader impact including improving the rigor and 
credibility of high school Earth systems science course work and build 
centers for Coastal Ocean Science Educational Excellence. In the past 
few years, multiple partners joined NOAA to develop Ocean Literacy 
Principles to assist teachers in using ocean concepts and examples to 
teach state science standards, and similar efforts are underway for 
climate literacy. NOAA also partners with the American Association for 
the Advancement of Science and the National Academy of Sciences to 
maintain the currency of the science education standards and benchmarks 
disseminated by these organizations.
    To reach classroom teachers directly, NOAA partners with 
organizations with large teacher membership and distribution networks 
and teacher training efforts (e.g., National Science Teacher 
Association, National Marine Educators Association, American 
Meteorological Society, the Jason Project). NOAA also supports online, 
searchable education resource libraries that provide access to 
standards-referenced, peer-reviewed education materials and lesson 
plans for teachers (e.g., Digital Library for Earth Systems Science, 
www.dlese.org; the Bridge, http://www2.vims.edu/bridge/noaa/).
    Partnerships are essential to NOAA's informal education efforts to 
promote STEM-related education related to NOAA science in the general 
public as well as supplementing the activities of the formal education 
system. NOAA's partnerships with individual as well as networks of 
science centers, museums, aquaria, and zoos produce innovative exhibits 
and displays and complementary educational programming. These 
partnerships include world renowned institutions such as the American 
Museum of Natural History and the Smithsonian Institution National 
Museum of Natural History, and organizations such as American Zoo and 
Aquarium Association, Association of Science-Technical Centers, and 
Coastal Ecosystem Learning Centers). Partnerships with non-profit, 
private, and government organizations also enable NOAA's efforts to 
improve public understanding related to STEM through radio and 
television programming and public media campaigns.

                                   

</pre></body></html>
